<html>
<title> - THE IMPACT LAND ACQUISITION HAS ON THE NATIONAL PARK SERVICE MAINTENANCE BACKLOG, PARK SERVICE MANAGEMENT PRIORITIES, AND LOCAL COMMUNITIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
     THE IMPACT LAND ACQUISITION HAS ON THE NATIONAL PARK SERVICE 
  MAINTENANCE BACKLOG, PARK SERVICE MANAGEMENT PRIORITIES, AND LOCAL 
                              COMMUNITIES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

       Saturday, September 27, 2003, in Sherman Oaks, California

                               __________

                           Serial No. 108-61

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-566              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Saturday, September 27, 2003.....................     1

Statement of Members:
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Bloom, Matt, Owner, Kennedy Meadows Resort and Pack Station, 
      Sonora, California.........................................    44
        Prepared statement of....................................    46
    Cuff, Courtney, Pacific Region Director, National Park 
      Conservation Association...................................    47
        Prepared statement of....................................    49
    Cushman, Chuck, Executive Director, American Land Rights 
      Association, Battle Ground, Washington.....................    32
        Prepared statement of....................................    34
    Hill, Barry T., Director, Natural Resources and Environment, 
      U.S. General Accounting Office, Washington, DC.............     8
        Prepared statement of....................................    10
    Hillier, Gerald, Executive Director, QuadState County 
      Government Coalition, San Bernardino, California...........    19
        Prepared statement of....................................    22
    Lewis, Michael W., Policy Director, Santa Monica Mountains 
      Inholder Association, West Covina, California..............    27
        Prepared statement of....................................    29
    Reynolds, J.T., Superintendent, Death Valley National Park, 
      Death Valley, California...................................     4
        Prepared statement of....................................     6


OVERSIGHT HEARING ON ``THE IMPACT LAND ACQUISITION HAS ON THE NATIONAL 
 PARK SERVICE MAINTENANCE BACKLOG, PARK SERVICE MANAGEMENT PRIORITIES, 
                        AND LOCAL COMMUNITIES''

                              ----------                              


                      Saturday, September 27, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                        Sherman Oaks, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
the Sunkist Building, 14130 Riverside Drive, Sherman Oaks, 
California, Hon. George P. Radanovich [Chairman of the 
Subcommittee] presiding.
    Members present: Representative Radanovich.
    Staff present: Robert Howarth, Senior Legislative Staff.
    Mr. Radanovich. The Subcommittee on National Parks, 
Recreation, and Public Lands will come to order, and I'm going 
to ask a question. Can people hear through this mike system at 
all? Is that better? I think that the mike system comes in, but 
it's kind of scratchy.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. OK, good morning. My name is George 
Radanovich, and I'm from Mariposa, California. I'm here as 
Chairman of the House Subcommittee on National Parks, 
Recreation and Public Land, and today the Subcommittee is 
conducting an oversight hearing to examine the impact that land 
acquisition has on the National Park Service maintenance 
backlog, the priorities of the Park Service and on local 
communities.
    I'd like to remind everybody here today that this is not a 
town hall meeting, but rather a formal congressional hearing 
where issues are discussed and placed into the public record. 
Therefore, I would ask for everybody's cooperation in 
maintaining order in the room.
    I would also like to remind anyone here today that they may 
submit a written statement for the record. If you'd like to do 
that you need a contact, I have Casey Hammond over here, Casey, 
raise your hand high, high, higher. There you go. Casey is the 
guy to talk to if you want to get your statement into the 
public record. Thanks, Casey, and you can do that at the end of 
the hearing, and he'll make sure that your comments are placed 
into the record.
    The hearing record also will remain open for 2 weeks, so 
you do have time to submit anything that you'd want to be into 
the record.
    Today, we will hear from invited witnesses who represent 
county government, private land holders, and the recreation 
community, the conservation community, and the General 
Accounting Office and the National Park Service.
    As many in the audience are aware, the maintenance backlog 
for the National Park Service was estimated to be $5 billion 
when President Bush took office in January of 2001. Today, 
according to the Department of the Interior, the amount is 
about half of that original figure.
    Secretary of the Interior Gale Norton and National Park 
Service Director Fran Mainella have made eliminating the 
deferred maintenance backlog their number one priority for the 
park system.
    According to the General Accounting Office, the 388 units 
of the park system include 18,000 permanent structures, 8,000 
miles of road, 4,400 housing units, 700 water and wastewater 
treatment systems, and 200 solid waste operations. The Service 
has to manage this infrastructure throughout 84 million acres, 
which in 2002 experienced over 276 million visitors. In spite 
of this tremendous responsibility, there are many throughout 
the country who believe that the Service should continue to 
acquire more land, either by expanding existing units or by 
establishing new units, all of which have consequences, both 
locally and within the Service.
    As Chairman of the House Subcommittee that has jurisdiction 
over all legislation to expand existing park units, establish 
new park units, or direct the Secretary to study the 
suitabilities of establishing a new park unit, I continue to 
face the increasingly difficult situation in Congress with many 
of my colleagues and the public who come before the 
Subcommittee favoring such legislation. Each time I have to 
conduct hearings on the bills to add land to the system or 
authorize a study to add land the Administration requests that 
I delay action until the backlog issue is addressed.
    If I agree to move the legislation and it were to become 
law, it would undermine the efforts of the Park Service to 
eliminate the maintenance backlog and prevent the Service from 
managing the 388 units existing today in such a way as to meet 
the public's expectations.
    For example in California, there is legislation before this 
Subcommittee to expand the Golden Gate National Recreation Area 
by 5,000 acres at a cost of $15 million. And locally, there is 
legislation to authorize the Park Service to study a 500,000 
acre area known as the ``Rim of the Valley,'' to determine its 
feasibility of being added to the Santa Monica Mountains 
National Recreation Area.
    Much of the proposed expansion includes private property. 
Outside of California, there is legislation to expand the 
Cumberland Gap National Historic Area in Kentucky by 5,000 
acres, the Petrified Forest National Park in Arizona, the 
Sleeping Bear Dunes National Lakeshore in Michigan, and the 
list goes on and on, including adding land to the National 
Trail System and the Wild and Scenic River System.
    While each acquisition may have merit, the fact is, taken 
altogether these acquisitions may, and do, have an effect on 
the Park Service and local community.
    I appreciate the time the witnesses have made to come 
before this Subcommittee today, and I look forward to your 
testimony.
    Finally, I would be remiss if I did not thank Mr. Mark 
Lewis, the Sunkist Building Service Manager, for his assistance 
and tremendous hospitality in hosting the Subcommittee here 
today. Thank you very much, Mark.
    If you are not aware of how a public hearing works, we will 
have our guests address the Committee. We do it for about 5 
minutes. We keep the timing lights on. They start out green 
which means go, it's like a traffic light, yellow means speed 
up, and red means stop. So, we'll give you 5 minutes, and I 
would ask, since this is a pretty comfortable setting, I would 
ask if you could keep within those 5 minutes. And, what we'll 
do is hear from each person before us, and then I'll be able to 
ask them questions. Since I'm the only one who made it for this 
hearing today, I'll be asking all the questions, so I'll make 
sure I get all the right ones asked so all the information is 
in the record.
    And then, we'll go to our next panel, which is a five-
member panel, and let everybody speak and then go to questions 
there, and that will wrap up the hearing itself.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Good morning. The Subcommittee on National Parks, Recreation and 
Public lands will come to order.
    My name is George Radanovich. I am from Mariposa, California, and 
Chairman of the House Subcommittee on National Parks, Recreation and 
Public Lands. Today, the Subcommittee is conducting an oversight 
hearing to examine the impact land acquisition has on the National Park 
Service maintenance backlog, the priorities of the National Park 
Service, and on local communities.
    I would like to remind everyone here today that this is not a town 
hall meeting, but rather a formal congressional hearing where issues 
discussed are placed on the record. Therefore, I would ask for 
everyone's cooperation in maintaining order in the room. I would also 
remind everyone that this is indeed a public hearing and therefore 
anyone here today may submit a written statement for the record. Please 
see our clerk, Casey (Casey, please raise your hand.) at the end of the 
hearing and he will make sure your comments are placed in the record. 
The hearing record will remain open for two weeks.
    Today, we will hear from invited witnesses who represent county 
government, private inholders, the recreation community, the 
conservation community, the General Accounting Office and the National 
Park Service.
    As many in the audience are aware, the maintenance backlog for the 
National Park Service was estimated to be $5 billion when President 
Bush took office in January 2001. Today, according to the Department of 
the Interior, the amount is about half the original figure. Secretary 
of the Interior Gale Norton and National Park Service Director Fran 
Mainella have made eliminating the deferred maintenance backlog their 
number one priority for the Park System. According to the General 
Accounting Office, the 388 units of the Park System include 18,000 
permanent structures, 8,000 miles of roads, 4,400 housing units, 700 
water and wastewater systems, and 200 solid waste operations. The 
Service has to manage this infrastructure throughout 84 million acres, 
which in 2002 experienced over 276 million visitors. In spite of this 
tremendous responsibility, there are many throughout the country who 
believe the Service should continue to acquire more land, either by 
expanding existing units or by establishing new units--all of which 
have consequences both locally and within the Service.
    As Chairman of the House Subcommittee that has jurisdiction over 
all legislation to expand existing Park Units, establish new Park 
Units, or direct the Secretary to study the suitability of establishing 
a new Park Unit, I continue to face the increasingly difficult 
situation in this Congress with many of my colleagues and the public 
who come before the Subcommittee favoring such legislation. Each time I 
have conducted a hearing on bills to add land to the system or 
authorize a study to add land, the Administration requests that I delay 
action until the backlog is addressed. If I agree to move their 
legislation and it were to become law, it could undermine the efforts 
of the Park Service to eliminate the maintenance backlog, and prevent 
the Service from managing the 388 existing units in such a way as to 
meet the public's expectation.
    For example, in California, there is legislation before the 
Subcommittee to expand the Golden Gate National Recreation Area by 
5,000 acres at a cost of $15 million, and locally there is legislation 
to authorize the Park Service to study a 500,000 acre area known as 
``Rim of the Valley'' to determine its feasibility of being added to 
the Santa Monica Mountains National Recreation Area. Much of the 
proposed expansion includes private property. Outside of California, 
there is legislation to expand the Cumberland Gap National Historic 
Area in Kentucky by 5,000 acres, Petrified Forest National Park in 
Arizona, Sleeping Bear Dunes National Lakeshore in Michigan and the 
list goes on, including adding land to the National Trail System and 
the Wild and Scenic River System. While each acquisition may have 
merit, the fact is, taken together, these acquisitions may and do have 
an effect on the Service and local communities.
    I appreciate the time the witnesses have made to come before the 
Subcommittee today, and I look forward to your testimony.
    Finally, I would be remiss if I did not thank Mark Lewis, the 
Sunkist Building Service Manager, for his assistance and tremendous 
hospitality in hosting the Subcommittee today.
                                 ______
                                 
    Mr. Radanovich. So, with that, I want to welcome Mr. J.T. 
Reynolds, who is the Superintendent of the Death Valley 
National Park, and also Mr. Barry Hill with the General 
Accounting Office, who is to speak on this issue.
    Mr. Reynolds, I'd like you to begin, if you would, and 
again, welcome, and please begin.

   STATEMENT OF J.T. REYNOLDS, SUPERINTENDENT, DEATH VALLEY 
            NATIONAL PARK, DEATH VALLEY, CALIFORNIA

    Mr. Reynolds. Mr. Chairman, thank you for the opportunity 
to appear before your Subcommittee on this issue of land 
acquisition on the National Park Service backlog maintenance.
    President Bush has placed a high priority on reducing the 
deferred maintenance backlog of the National Park Service. This 
Administration is committed to taking better care on these 
areas. We also see that there is a balance between acquiring 
new lands and meeting our operational and maintenance needs.
    The authorization of new park units and expanding existing 
ones not only can necessitate spending money on land 
acquisition, but it also requires us to devote more money to 
operation and maintenance of these parks, and can often require 
hiring additional staff. But, because of these budget 
constraints under which we are operating, every property that 
is added to the National Park Service can have negative impacts 
on our ability to address our deferred maintenance backlog.
    As an indication of the cost that is entailed by expanding 
the National Park System, the operating budgets for the 34 
units established during the last 12 years totaled about $25.6 
million. Some of these units are not yet fully operational, so 
the costs of running these parks will likely grow. For these 
units, the National Park Service has identified $30 million in 
recurring unfunded operational needs and $265 million in 
unfunded one-time projects. While all of these items will not 
likely be funded any time soon, they do represent demands on 
the National Park Service that were not there 12 years ago.
    In addressing the deferred maintenance backlog, this is a 
key component of this Administration's National Parks Legacy 
Project. The project was initiated to ensure proper care of our 
National Park System and is designed to enhance ecosystems, 
improve outdoor opportunities, address infrastructure needs, 
and establish accountability through performance goals. 
Secretary Norton and Director Mainella have issued a report 
entitled, ``National Park Service Partnering and Managing for 
Excellence,'' that highlights the progress toward fulfilling 
the goals of the Legacy Project.
    President Bush has also made a commitment to provide at 
least $4.9 billion in funding over 5 years for NPS to address 
the deferred maintenance backlog. And, over a 5-year period, 
the President has proposed spending more than $760 million 
annually, to pay for non-road maintenance and construction, and 
nearly $1.26 billion during the same period for roads through 
the Federal Highway Administration.
    Funds provided to date are achieving some tangible results, 
and the Service has begun to improve the condition of hundreds 
of park assets using the increased funding Congress and the 
President has appropriated.
    In the past 2 years, we have tackled approximately 900 
repair and rehab projects, and will tackle another 500 
projects, and approximately 400 or more of those projects will 
continue in 2004.
    Here in the Los Angeles area, the Santa Monica Mountains 
has been a beneficiary to this Administration's emphasis, and 
this funding was used to improve the condition of a number of 
assets to a safe and acceptable condition.
    As part of the Legacy Project, park roads are being brought 
into good condition. Under the proposed highway transportation 
bill, which would provide $1.89 billion over 6 years for park 
roads, over 80 percent of the park roads would be brought into 
good or excellent condition.
    An essential component of the Legacy Project is to prevent 
future backlogs, by bringing in state-of-the-art facility 
management practices to the parks through the Asset Management 
Program. As part of this program, the Park Service is 
conducting system-wide inventory and identifying deficiencies, 
estimating costs to repair, current replacement value, and also 
the Service is accelerating its effort to complete these 
condition assessments.
    The Santa Monica Mountains Recreation Area, incidentally, 
sir, is one of the first units of the National Park System to 
complete a comprehensive inventory and condition assessment of 
all of its facilities.
    The Asset Management Program includes the implementation of 
the Facility Management Software System, which is an off-the-
shelf system to monitor and prioritize ongoing maintenance 
needs that will allow NPS to manage the backlog and prevent a 
recurrence of maintenance backlogs in the future. Most 
importantly, through the establishment of this program, the 
Service will be able to measure performance in improving 
facility conditions through the Facility Condition Index.
    Professional facility management also requires the Park 
Service regular maintenance to prevent facilities from 
gradually falling into disrepair. In Fiscal Year 04 and out 
years, the Park Service should be looking at reducing our 
maintenance backlog.
    Another component of the President's Legacy Project and the 
Park Service's Accomplishments Report, the Services special 
connection to American people and its unique ability to engage 
the public, which establishes partnerships and promotes 
volunteerism. The NPS is serving as a catalyst. The President 
is also encouraging the American people to participate in the 
protection of natural and cultural resources through such 
programs, and our goal is to create a seamless national park 
network, historic places, and open spaces, and as part of the 
effort the Department will be sponsoring a major conference on 
partnerships here in Los Angeles in November, the second week 
of November to be exact.
    The President's Legacy Project also seeks to improve 
visitor service and keep the parks safe. The September 11, 
2001, terrorist attacks and world events require increased 
security for our national parks and monuments throughout the 
system. We have assigned nearly 200 additional protection 
rangers to meet this increased need. Secretary Norton has 
issued directives to improve the management of the law 
enforcement of law enforcement programs and the Service, across 
the Department of Interior, the NPS has also developed a 
comprehensive Emergency Preparedness and Response plan to 
protect public health in the unique settings of the national 
parks and is coordinating with other bureaus and agencies to 
ensure complete communications integration.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions that you may have, sir.
    [The prepared statement of Mr. Reynolds follows:]

  Statement of J. T. Reynolds, Superintendent, Death Valley National 
      Park, National Park Service, U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee at this oversight field hearing to discuss the impact of 
land acquisitions on the National Park Service (NPS) maintenance 
backlog and other priorities.
    President Bush has placed a high priority on reducing the deferred 
maintenance backlog in our national parks. The Administration is 
committed to taking better care of what we have, while ensuring that 
new acquisitions truly meet strategic needs of the NPS. There must be a 
balance between acquiring new lands and meeting the operational, 
maintenance, and restoration requirements for the resources already in 
public ownership. In keeping with this priority and other priorities 
such as improving security at our parks, we have often opposed, or 
asked for the deferral of action on, legislation introduced in Congress 
that would create new park units or expand existing parks.
    Authorizing new national park units and expanding existing ones not 
only can necessitate spending money on land acquisition, it may also 
require us to devote more money to operation and maintenance of parks, 
and it can often require hiring additional staff. Some acquisitions, 
even if by donation, add to the deferred maintenance backlog if they 
contain assets that are not in good condition. Because of the overall 
budget constraints under which we are operating, every property that is 
added to the National Park System negatively impacts our ability to 
address the deferred maintenance backlog.
    As an indication of the cost that is entailed by expanding the 
National Park System, the operating budgets for the 34 units 
established during the last 12 years (1991-2002) total $25.6 million 
during FY 03. Some of these units are not yet fully operational, so the 
costs of running these parks will likely grow. For these units, NPS has 
identified $30 million in recurring unfunded operational needs and over 
$265 million in unfunded one-time projects. While all of these items 
will not likely be funded anytime soon, they represent new demands on 
the National Park System that were not there 12 years ago. About 30 
percent of programmatic funding increases in recent years have resulted 
from the authorization of new units and boundary expansions.
    Addressing the deferred maintenance backlog is the key component of 
President Bush's National Parks Legacy Project. The Legacy Project was 
initiated to ensure proper care of our National Park System and is 
designed to enhance ecosystems, improve outdoor opportunities, address 
infrastructure needs, and establish accountability through performance 
goals.
    On July 2, 2003, Interior Secretary Gale Norton and NPS Director 
Fran Mainella issued a report entitled ``National Park Service: 
Partnering and Managing for Excellence'' (NPS Accomplishments Report) 
that highlights the progress toward fulfilling the goals of the Legacy 
Project. A major focus of the report is the progress NPS has made in 
addressing the deferred maintenance backlog.
    President Bush has made a commitment to provide at least $4.9 
billion in funding over five years for NPS to address the deferred 
maintenance backlog. This figure comes from a May 1998 General 
Accounting Office report to Congress. The Administration is on a path 
to meet that goal. To put the funding increases in perspective, the 
more than $1 billion requested for FY 04 is nearly 45 percent more than 
was provided in FY 00 and more than double what was provided in FY 97. 
Over a five-year period, the President has proposed spending more than 
$760 million annually, for a total of $3.81 billion, to pay for non-
road maintenance and construction, and nearly $1.26 billion during the 
same period for roads through the Federal Highway Administration.
    Funds provided to date are achieving tangible results, and the NPS 
has begun to improve the condition of hundreds of park assets using the 
increased funding Congress has appropriated at President Bush's 
request. For example:
    <bullet> $16.5 million has gone to Federal Hall National Memorial 
to repair cracks in the building;
    <bullet> $4.1 million is being used at Everglades National Park to 
repair a 135,000 gallon-per-day wastewater treatment system;
    <bullet> $4.1 million has gone to Lava Beds National Monument to 
relocate the visitor center away from fragile underground resources; 
and
    <bullet> $2.1 million is being used at Yellowstone National Park 
to replace a wastewater treatment plan and relocate the sewer line in 
the Old Faithful area.
    In the past two years, NPS has tackled approximately 900 repair and 
rehabilitation projects. These projects, including 60 fire safety 
projects, have enhanced visitor and employee safety. They have improved 
health protection by upgrading and repairing 186 water, wastewater, and 
sewer facilities. They have made buildings better and safer for 
visitors through over 325 general building and safety rehabilitation 
projects. Another 500 projects are underway in 2003 and approximately 
400 more are programmed for 2004.
    Here in the Los Angeles metropolitan area, the Santa Monica 
Mountains National Recreation Area has been one of the beneficiaries of 
the Administration's emphasis on addressing the maintenance backlog. 
Between FY 01 and FY 03, the park received $2.4 million to repair 
facilities. This was about three times as much as the park had received 
during the three previous fiscal years. This funding was used to 
improve the condition of a number of assets to a safe and acceptable 
condition.
    As part of the President's Legacy Project, park roads, too, are 
being brought into good condition. In 2001, just 35 percent of park 
roads were in good condition. Under the proposed highway transportation 
bill, which would provide $1.89 billion over six years for the Park 
Roads and Parkways Program, over 80 percent of paved park roads would 
be brought into good or excellent condition, and virtually no paved 
road would be in poor condition.
    An essential component of the National Parks Legacy Project is to 
prevent future backlogs by bringing state-of-the-art facility 
management in as part of this program. NPS is conducting a system-widen 
inventory, identifying deficiencies, and estimating the cost of repair 
and current replacement value of park assets. NPS is accelerating its 
efforts to complete these facility condition assessments at all 388 
park units and has completed the facility condition assessments on all 
but the nine most asset-intensive parks this fiscal year. NPS is 
accelerating its efforts to complete these facility condition 
assessments at all 388 park units and has completed the assessments on 
all but four of the largest this year, with the balance to be completed 
by the end of FY 04.
    The Santa Monica Mountains National Recreation Area, incidentally, 
was one of the first units of the National Park System to complete a 
comprehensive inventory and condition assessment of all of its 
facilities. That inventory includes 11 miles of paved and unpaved 
roads, 33 paved and unpaved public parking areas, 104 miles of 
recreation trails, 62 public buildings, 10 water systems, 8 wastewater 
systems, and other assets. The total replacement value of all 
facilities at the park is $26 million. This is the kind of information 
we will soon have for the entire National Park System.
    The Asset Management Program includes the implementation of the 
Facility Management Software System (FMSS), an off-the-shelf system to 
monitor and prioritize ongoing maintenance needs that will allow NPS to 
manage the backlog and prevent a recurrence of maintenance backlogs in 
the future. Most importantly, through the establishment of this 
program, NPS will be able to measure performance in improving facility 
conditions through a Facility Condition Index (FCI). This will allow us 
to track progress in achieving results, rather than just counting 
dollars or projects.
    Professional facility management also requires regular maintenance 
to prevent facilities from gradually falling into disrepair. In FY 03, 
funding for cyclic maintenance increased from $22 million to $42 
million, and in FY 04 is slated to increase to $56 million under the 
President's budget. By ensuring cyclic and preventative maintenance at 
regular intervals, this investment will help prevent a maintenance 
backlog recurrence. While new park facility maintenance needs will 
continue to emerge, the combination of increased funding and management 
reforms instituted through the Asset Management Program will allow the 
NPS to find the point where sustainable funding levels will cover an 
asset's life cycle maintenance and capital replacement costs.
    Another component of the President's Legacy Project and the NPS 
Accomplishments Report recognizes NPS' special connection to the 
American people and its unique ability to engage the public, establish 
partnerships and promote volunteerism. The NPS is serving as a catalyst 
and encouraging many individuals and organizations to leverage 
resources and information, overcome organizational and procedural 
barriers, and increase cooperation and consultation. The President is 
encouraging the American people to participate in the protection of 
natural and cultural resources through such programs as Land and Water 
Conservation Fund stateside grants, the Preserve America Initiative, 
Take Pride in America, and the creation of public and private 
partnerships. Through these programs, our goal is to create a seamless 
national network of parks, historic places, and open spaces. As part of 
that effort, the Department will be sponsoring a major conference on 
partnerships here in Los Angeles in November.
    The President's Legacy Project also seeks to improve visitor 
service and keep the parks safe. The September 11, 2001, terrorist 
attacks on the United States and the resulting world events require 
increased security for our national parks and monuments throughout the 
National Park System. As the principal steward of our nation's most 
treasured cultural icons, the NPS has assigned nearly 200 additional 
protection rangers to meet increased security needs. Secretary Norton 
has issued directives to improve the management of the law enforcement 
program within the NPS and across the Department of the Interior. NPS 
also has developed a comprehensive Emergency Preparedness and Response 
plan to protect public health in the unique settings of the national 
parks and is coordinating with other bureaus and agencies to ensure 
complete communications integration. NPS will continue to strengthen 
security efforts through better training of personnel and improved 
equipment.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, sir.
    Mr. Hill, welcome to the Subcommittee here representing 
GAO, and please begin your statement.

  STATEMENT OF BARRY T. HILL, DIRECTOR, NATURAL RESOURCES AND 
               ENVIRONMENT, GAO, WASHINGTON, D.C.

    Mr. Hill. Thank you, Mr. Chairman, and I'm pleased to be 
here today to discuss the National Park Service's maintenance 
backlog. For decades, GAO, the Department of Interior and 
others have reported on the Agency's efforts to develop an 
effective maintenance management process that would enable the 
National Park Service to provide accurate and reliable 
estimates of the amount of deferred maintenance on its assets. 
Over the years, the Agency's cost estimates of its deferred 
maintenance backlog have varied widely, sometimes by billions 
of dollars. The Agency acknowledges that it still does not have 
the data needed to properly manage the broad array of historic, 
cultural and natural assets places in its care. In 1998, the 
Park Service initiated the design of a new asset management 
process that is intended to provide the Agency with a better 
overall approach to managing its assets inventory.
    My testimony today summarizes our prior work regarding the 
potential of the Park Service's new asset management process 
and provides an update on the progress that the Park Service is 
making and implementing. Let me start by briefly summarizing 
our prior work.
    In April 2002, we reported the Park Service had made 
progress in developing a new asset management process that when 
fully and properly implemented should provide the Agency with 
more accurate and reliable estimates of the amount of deferred 
maintenance of its assets. As currently planned, the new 
process will, for the first time, enable the Agency to have a 
reliable inventory of its assets, a process for reporting on 
the condition of assets in its inventory, and a system-wide 
methodology for estimating deferred maintenance costs for 
assets.
    Although the new process appears promising, we raised three 
concerns that, while not significant enough to undermine the 
overall merits of the process, we believe that addressing them 
would improve the effectiveness of the process. First, the 
success of the process cannot be determined until staff in each 
of the Park units are trained and the process is fully and 
properly implemented. Second, the Park Service has not yet 
estimated what the total implementation costs of the process 
would be, or developed a schedule for when full implementation 
would occur. Third, two different operating divisions within 
the Park Service, that being Concessions Management and 
Facilities Management, are developing separate processes for 
tracking and reporting deferred maintenance, and it's unclear 
whether their efforts were not duplicative. And finally, only 
about a third of the Park units ran complete annual condition 
assessments by the end of Fiscal Year 2002, and while this 
approach may have been appropriate for meeting programmatic and 
financing reporting needs in the short term, without 
comprehensive assessments more complex and costly problems 
might be overlooked in the long term.
    Now, let me update the progress we are aware of in 
implementing the new process. Since our last report, I'm 
pleased to report that the Park Service has made implementation 
progress. The Park Service now reports it has completed its 
inventory of assets for all Park units, as well as the first 
round of staff training on the use of the computer software. 
The Agency has also developed cost and schedule estimates for 
implementing the process. According to the schedule, the 
process is to be fully implemented by the end of Fiscal Year 
2006, at a cost of about $90 million, including the cost of 
performing condition assessments on Park assets. Thereafter, 
the annual cost of sustaining the process will be about $20 
million.
    Also, the Park Service has developed a plan of its 
implementation schedule to eliminate any duplication or 
inconsistencies between the Concessions and Facility Management 
organizations.
    Furthermore, the Agency has completed annual condition 
assessments on all but nine of the larger parks in the system, 
and is currently performing a more detailed comprehensive 
condition assessment on these nine parks, as well as other park 
units.
    Mr. Chairman, may I point out that we have not had the 
opportunity to verify the information provided to us on the 
status of the Park Service's implementation of its new 
assessment management process. However, we believe that if the 
new process is fully implemented as planned, the Park Service 
will be in a better position to determine the conditions of the 
assets in its portfolio and to develop accurate and more 
reliable estimates of its deferred maintenance needs.
    This concludes my prepared statement. I'd be more than 
happy to answer any questions you may have.
    [The prepared statement of Mr. Hill follows:]

      Statement of Barry T. Hill, Director, Natural Resources and 
              Environment, U.S. General Accounting Office

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the National Park 
Service's maintenance backlog. GAO, the Department of the Interior, and 
others have reported on the Park Service's efforts to develop an 
effective maintenance management process that would, among other 
things, enable the agency to provide accurate and reliable estimates of 
the amount of deferred maintenance on its assets. Over the years, the 
agency's estimates of the amount of its deferred maintenance backlog 
have varied widely--sometimes by billions of dollars. Currently, the 
agency estimates its deferred maintenance backlog at over $5 billion. 
Although the Park Service has spent almost two decades addressing its 
maintenance backlog, it acknowledges that it still does not have the 
data it needs to properly manage the broad array of historic, cultural, 
and natural assets placed in its care--including accurate and reliable 
data on its deferred maintenance needs. <SUP>1</SUP> In 1998, spurred 
by continuing congressional concerns and new Federal accounting 
standards, <SUP>2</SUP> the Park Service initiated the design of a new 
asset management process that is intended to provide the agency with a 
better overall approach to managing its asset inventory. A major goal 
of this new process is to provide the Park Service with a reliable and 
systematic method for estimating and documenting its deferred 
maintenance needs and tracking progress in reducing the amount of 
deferred maintenance.
---------------------------------------------------------------------------
    \1\ This maintenance includes resources and activities needed to 
maintain facilities and the infrastructure in the system, such as 
buildings, trails, botanical gardens, bridges, and other structures. It 
does not include maintenance or restoration of natural landscapes, such 
as removing non-native plant species from a meadow.
    \2\ The Statement of Federal Financial Accounting Standards No. 6, 
Accounting for Plant, Property, and Equipment, issued by the Federal 
Accounting Standards Advisory Board in 1996, requires that deferred 
maintenance be disclosed in Federal agencies' annual financial 
statements beginning in Fiscal Year 1998.
---------------------------------------------------------------------------
    My testimony today will (1) summarize our prior work regarding the 
potential of the Park Service's new asset management process to provide 
maintenance data that will permit agency managers and the Congress to 
monitor progress in reducing deferred maintenance and (2) update the 
progress the Park Service is making in implementing its new asset 
management process and realizing its potential for improved management.
    For the most part, my testimony is based on a report we issued last 
year. <SUP>3</SUP> At that time, the design of the new process was 
complete but implementation was just beginning. In preparing for 
today's hearing, we obtained updated information from the Park Service. 
However, we did not have the opportunity to independently verify the 
information the Park Service provided. To do so would have required 
work at regional offices and parks. We conducted our work in accordance 
with generally accepted government auditing standards.
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, National Park Service: Status 
of Efforts to Develop Better Deferred Maintenance Data, GAO-02-568R 
(Washington, D.C.: Apr. 12, 2002).
---------------------------------------------------------------------------
Results in Brief
    As we previously reported, the Park Service's new asset management 
process is designed to address deferred maintenance, commonly referred 
to as the maintenance backlog, as part of a much broader approach to 
asset management. When fully and properly implemented, the new process 
is expected, for the first time, to enable the agency to have a (1) 
reliable inventory of its assets; (2) process for reporting on the 
condition of each asset in its inventory; and (3) consistent, 
systemwide methodology for estimating the deferred maintenance costs 
for each asset. As a result, agency managers and the Congress should 
receive much more accurate and reliable information on the extent of 
deferred maintenance needs throughout the national park system. 
Nonetheless, while the Park Service's current efforts are promising, we 
reported on a few areas that the agency needed to address to improve 
the performance of the process. These included the need to (1) develop 
costs and schedules for completing the implementation of the process so 
that the agency's performance could be monitored and assessed; (2) 
better coordinate the tracking of the process among Park Service 
headquarters units to avoid duplication of effort within the agency; 
and (3) better define its approach to assessing the condition of its 
assets, and determining how much the assessments will cost.
    Since our report last year, I am pleased to say that the agency 
appears to have made progress. While complete implementation of the 
process will not occur until Fiscal Year 2006, the agency has 
completed, or nearly completed, several substantial and important 
steps. According to the Park Service, it has completed its asset 
inventory, trained staff on the use of the required computer software, 
and completed most of the on-site inspections necessary to determine 
the condition and maintenance needs of inventoried assets. In addition, 
the Park Service provided information indicating that it was addressing 
each of the concerns identified in our prior report.

Background
    The national park system contains 388 park units. These park units 
have a diverse inventory of facilities and other assets, including over 
18,000 permanent structures, 8,000 miles of roads, 1,800 bridges and 
tunnels, 4,400 housing units, about 700 water and wastewater systems, 
over 400 dams, and 200 solid waste operations. The Park Service values 
these assets at over $35 billion. Needless to say, the proper care and 
maintenance of the national parks and their supporting infrastructure 
is essential to the continued use and enjoyment of our national 
treasures by this and future generations. However, for years Park 
Service officials have highlighted the agency's inability to keep up 
with its maintenance needs. In this connection, Park Service officials 
and others have often cited a continuing buildup of unmet maintenance 
needs as evidence of deteriorating conditions throughout the national 
park system. The accumulation of these unmet needs is commonly referred 
to as its ``maintenance backlog.'' Although the Park Service has spent 
almost two decades and about $11 million addressing this problem, it 
still does not have a reliable estimate of deferred maintenance needs 
for its facilities and other assets.
    In the past several years, concerns about the cost of operating and 
maintaining Federal recreation sites within the National Park Service, 
as well as other Federal land management agencies, led the Congress to 
provide a significant new source of funds. This additional source of 
funding--the Recreational Fee Demonstration Program <SUP>4</SUP>--was, 
in part, aimed at helping the agencies address their backlogged repair 
and maintenance problems. This new funding source is in addition to 
annual appropriations the Park Service receives each year for 
maintenance activities. <SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Since Fiscal Year 1996, the Park Service, as well as three 
other Federal land management agencies, have been authorized to have a 
fee demonstration program. Under this temporary program, the agencies 
are permitted to experiment with increased and/or new recreation fees. 
The revenue generated from this program remains available for agency 
use to address a variety of needs, including maintenance, without 
further appropriation.
    \5\ The House Committee on Appropriations has stressed that 
recreation fees should never be used to replace appropriated funds; the 
fees should be used for direct improvements on site that enhance the 
recreation experience. H.R. Rep. No. 106-646 (2000).
---------------------------------------------------------------------------
    Despite the years of attention and funding and the well-intended 
efforts of the agency and the Congress to resolve the maintenance 
backlog dilemma, it has not gone away. While Congress continues to 
provide hundreds of millions of dollars annually to deal with the 
maintenance backlog at the national parks, the Park Service still has 
no reliable data on the size of the problem, raising questions about 
what has been accomplished with the provided funds.

When Fully and Properly Implemented, The Park Service's New Asset 
        Management Process Should Provide Accurate and Reliable 
        Deferred Maintenance Data
    As we reported in April 2002, the Park Service has made progress in 
developing a new asset management process that, when fully and properly 
implemented, should provide the agency with more accurate and reliable 
estimates of the amount of deferred maintenance of its assets. As 
currently planned, the new process will, for the first time, enable the 
agency to have a (1) reliable inventory of its assets; (2) process for 
reporting on the condition of assets in its inventory; and (3) 
systemwide methodology for estimating deferred maintenance costs for 
assets.
    The new asset management process is composed of both systemwide, 
integrated software to track cost and maintenance data and regular 
condition assessments of Park Service assets. The cornerstone of the 
new asset management process is the Facility Management Software 
System. This cradle-to-grave asset and work management process will 
allow park, regional office, or Park Service headquarters managers to 
track when, what, and how much maintenance and related costs has been 
directed at each specific asset.
    In addition to using the software system, the Park Service plans to 
assess the condition of its assets. These assessments will be 
inspections to document the condition of an asset as measured against 
applicable maintenance or condition standards. There are two types of 
condition assessments--annual and comprehensive. Annual assessments are 
essentially ``eyeball inspections'' of facilities to identify obvious 
and apparent deficiencies. Comprehensive assessments are more in-depth 
inspections to identify less obvious deficiencies, such as foundation 
or structural problems. While the eye-ball assessments are annual, the 
comprehensive assessments, which are much more expensive and time-
consuming, occur in 5-year cycles. The Park Service is to use the 
information obtained from these condition assessments to establish the 
overall condition of a facility or asset, including the resources 
needed to address its deferred maintenance needs and future facility 
needs. The cost of identified deferred maintenance needs will be 
estimated using another computer software system that will provide a 
uniform method for estimating repair and maintenance costs for each 
asset in the inventory. Agency managers will use the condition 
assessment information in combination with an asset priority ranking 
system to set priorities for deferred maintenance projects.
    While the design of the new process is complete, we reported in 
April 2002 that the Park Service had just begun implementing it. For 
example, at that time, the agency was still inventorying its assets and 
training staff on how to use the new process at about a third of the 
park units in the national park system. We reported that because 
managers at each park will be required to implement this new process 
using a uniform systemwide methodology, the resulting deferred 
maintenance estimates should permit agency managers, as well as the 
Congress, to monitor progress in reducing deferred maintenance both at 
the individual park and systemwide levels. However, we noted that while 
the new process is promising, its success cannot be determined until 
staff in each of the park units are trained and the new asset 
management process is fully and properly implemented.
    In our last report, we also raised three concerns about the Park 
Service's implementation of the new asset management process. While 
these matters were not significant enough to undermine the overall 
merit of the new process, we believed that addressing them would 
improve the effectiveness of the process. First, even though the Park 
Service had been developing its new process for more than 3 years, it 
had not yet estimated its total implementation costs or developed a 
schedule for completing implementation. While the agency had made 
progress in developing schedules and costs for some components of the 
process, it had not yet estimated when it will complete all the 
required condition assessments or what they will cost. We noted that 
monitoring and assessing performance against budgets and time frames 
would be difficult without complete estimates and schedules that 
include all components of the process, including the completion of 
condition assessments.
    Second, two different operating divisions within the Park Service 
``Concessions Management and Facilities Management'' were developing 
separate processes for tracking and reporting deferred maintenance, 
even though both units are responsible for managing the condition of 
government-owned facilities. Because both of these units have similar 
responsibilities, it seemed reasonable that they would work together in 
a coordinated way to ensure that their efforts are not duplicative.
    Finally, the Park Service reported that about one-third of the park 
units were to complete annual condition assessments by the end of 
Fiscal Year 2002. We noted that this approach may be appropriate for 
meeting programmatic and financial reporting needs in the short term; 
however, without comprehensive assessments, this approach might result 
in overlooking more complex and costly problems in the long term. As a 
result, this approach could understate the extent of the deferred 
maintenance problem. Park Service officials told us that the agency 
eventually planned to conduct comprehensive assessments for all assets. 
However, at the time they had not developed a plan detailing where, 
when, and how the assessments will be done or what they will cost.

The Park Service Has Made Progress Implementing Its Asset Management 
        Process Since Our Last Report
    Although full implementation of the new asset management process is 
still years from completion, the Park Service appears to have made 
progress since our last report. Also, importantly, Park Service 
management has demonstrated its commitment to implementing this process 
by withholding some Fiscal Year 2003 funding from parks that are not 
complying with the agency's implementation goals.
    The agency now reports that it has completed its inventory of 
assets for all park units as well as the first round of staff training 
on the use of the facilities management software. The agency also 
contracted with a consulting firm to evaluate its training and 
implementation efforts to help ensure that the training is effective 
and that the software system is being consistently applied throughout 
the park system. The Park Service has analyzed the firm's results and 
is now developing a training curriculum to address the firm's 
recommendations. The Park Service expects to begin implementing the 
training in January or February 2004.
    The agency is also addressing each of the issues raised in our last 
report. Specifically, the Park Service has now developed cost and 
schedule estimates for the complete implementation of the process. 
According to the schedule, the process is to be fully implemented by 
the end of Fiscal Year 2006, when all the comprehensive condition 
assessments are complete for all park units and deferred maintenance 
and other needs can be estimated on a reliable and consistent basis for 
assets throughout the national park system. The Park Service estimates 
now that the cost of the complete rollout and implementation, including 
performing condition assessments, will be about $91 million from Fiscal 
Years 1999 through 2006. Thereafter, it estimates that the annual costs 
of sustaining the process once it is fully operational will be about 
$20 million.
    In response to our concern that two different operating divisions 
within the agency ``Concessions Management and Facilities Management'' 
were developing separate processes for maintaining government-owned 
facilities, the Park Service told us that they agreed and are committed 
to implementing a single facilities management process. According to 
the agency, it has developed a plan with an implementation schedule to 
eliminate any duplication or inconsistencies between these two 
components of the organization.
    The Park Service has also made progress in performing its 
servicewide facility condition assessments. According to the Park 
Service, it has completed annual condition assessments ``visual 
inspections'' on all but nine of the larger parks in the system. 
<SUP>6</SUP> In addition, the Park Service is concurrently performing 
the more detailed, comprehensive condition assessments on other park 
units. According to the Park Service, the work done so far are 
necessary steps and reflect some of the best practices of the private 
sector in developing and implementing an effective facility management 
process.
---------------------------------------------------------------------------
    \6\ In order to expedite the condition assessments, the Park 
Service decided to only complete the more comprehensive condition 
assessments on the nine larger parks. These parks include Appalachian 
Trail, Delaware Water Gap, Gateway, Golden Gate, Grand Canyon, Great 
Smoky Mountains, Rocky Mountain, Yellowstone, and Yosemite. By the end 
of Fiscal Year 2003, the Park Service will have completed these 
assessments for five of the nine parks with the remaining four to be 
completed by the end of Fiscal Year 2004.
---------------------------------------------------------------------------
Conclusion
    The Park Service has a solemn responsibility to take care of the 
nation's natural, cultural and historic treasures. While it has 
unfortunately taken decades to achieve the current level of focus on 
maintaining these treasures, the Park Service apparently now has made 
substantive progress in developing and implementing a system it can use 
to determine the conditions of the assets in its portfolio and develop 
accurate and reliable estimates of its deferred maintenance needs. 
However, the agency has not yet completed the task. Determining the 
assets' conditions and their maintenance costs will require years of 
sustained commitment by the agency and by the Congress to ensure that 
the full benefits of the agency's new facility management process are 
realized.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Hill, appreciate your 
testimony.
    I do have a number of questions that I'm going to go 
through with both our guests here today.
    Starting with you, Mr. Reynolds, if you may, in your 
opinion what seems to be the largest hindrance to the Park 
Service eliminating the maintenance backlog?
    Mr. Reynolds. I can speak to it from a local standpoint, 
sir, and this might even give you a sense of just how real it 
is. In some cases, with Death Valley National Park, we only 
have two people, and in many cases only one person, to get up 
to speed on the MAXIMO, which is the Federal Maintenance 
Software System, and so what we end up doing is taking an 
individual from a real small staff to implement this sort of 
condition assessment, which again takes away from preventive 
maintenance of existing structures. So, it's kind of a balance 
that we are going through right now.
    However, we, at Death Valley National Park, did complete 
our condition assessments this year, and it does give us an 
opportunity to see, just really in true figures, what the costs 
are for those assets, and then how much money we'll need to 
improve them.
    Mr. Radanovich. It sounds like then in your opinion that 
it's a condition of having enough time for employees to 
accomplish that and funding as well?
    Mr. Reynolds. Absolutely.
    Mr. Radanovich. Yes, a combination of the two.
    Can you tell me, Mr. Reynolds, in your testimony you 
mentioned that, ``The Administration is committed to taking 
better care of the existing units, while ensuring that the new 
acquisitions meet strategic needs of the National Park 
Service.'' What are those strategic needs, can you highlight 
those a little bit more?
    Mr. Reynolds. I think those strategic needs are looking at 
the visitor service areas, looking at the areas where employees 
work, and also looking at those road conditions in parks. I 
mean, there are several areas where, you know, if we are going 
to protect resources and at the same time allow visitors to 
enjoy those areas, we kind of have to have a balance there as 
well. How do we take care of the resources and at the same time 
allow the public to use. So, those areas where the public go, 
which are deteriorated roads, which are parking areas, which 
are visitor centers, and we're trying to put some emphasis into 
those areas as well.
    Mr. Radanovich. You had mentioned in your testimony, and 
discussed to an extent, the Secretary's report called, ``The 
National Park Service Partnering and Managing for Excellence.'' 
Can you tell me how that study, the Legacy Project, relates to 
eliminating or greatly reducing deferred maintenance backlog?
    Mr. Reynolds. Well, we have a fee demonstration program, 
which we use quite extensively in many parks that do collect 
fees.
    Mr. Radanovich. Right.
    Mr. Reynolds. As you well know, 80 percent of those stay in 
the park. And, we are putting most, if not all, of those funds 
in toward our deferred maintenance, along with line item 
construction that we have. We are just putting a lot of 
emphasis into the deferred maintenance. That means we are 
ignoring some other things, but we are putting it into the 
deferred maintenance program.
    Mr. Radanovich. So, it's an additional funding source in 
many ways.
    Mr. Reynolds. Yes.
    Mr. Radanovich. Yes.
    Can you tell me whether an increased appropriation is the 
answer to eliminating the deferred maintenance backlog, just by 
itself?
    Mr. Reynolds. No, it isn't, and the reason why, I would say 
again from a local standpoint, is that funding that comes in 
that can assist us in improving deferred maintenance we still 
have additional things that occur with just preventive 
maintenance. We don't have the operational funds for our staff 
to do the preventive maintenance, structures, roads, continue 
to deteriorate.
    Mr. Radanovich. Yes.
    Mr. Reynolds. And, I mean, you know, people talk about the 
numbers changing, well they will change. If you don't take care 
of something over a period of time, it eventually will start 
deteriorating, and what might have cost, you know, today's 
amount of money, 5 years from now those costs are going to 
increase.
    Mr. Radanovich. Yes.
    Mr. Reynolds. So, it's really a moving target when you 
begin to look at the amount of money that's necessary for 
deferred maintenance, and at the same time taking care of those 
assets that you have as well.
    Mr. Radanovich. Right.
    Can you tell me, is preventative maintenance, is that the 
same as cyclical maintenance, or are they-
    Mr. Reynolds. Yes.
    Mr. Radanovich. OK, the same thing. OK.
    If Congress were not to authorize any new units, Mr. 
Reynolds, say for 1 year, or authorize any expansions, do you 
think that this would help the Service address the maintenance 
backlog?
    Mr. Reynolds. It would. I mean, from a personal standpoint, 
if you don't add anymore land and assets, if you don't add 
anymore land and assets which are going to require funds to 
take care of them, then those assets that we presently have we 
can put those funds into those assets. It's going to help us go 
a long way. It will take us less time to do that with the same 
amount of money if we continue to add assets.
    Mr. Radanovich. Yes.
    You mentioned the Asset Management Report, can you give me 
an idea of when that might be sent to us here at this 
Committee, when it might be ready?
    Mr. Reynolds. I don't know, sir.
    Mr. Radanovich. You are not sure?
    Mr. Reynolds. I mean, I can get that for you, but I don't 
know, sir.
    Mr. Radanovich. Could you do that, if you could make sure 
that you get that information to us, as to when it might show 
up on our doorstep.
    Mr. Reynolds, one more question. Does the National Park 
Service consider the restoration of ground cover, plants, et 
cetera, on the same level of importance as repairing or 
replacing building and other structures used by park visitors?
    Mr. Reynolds. Well, there you go.
    There are certain members of our organization that would 
say yes, and then there are other members of the organization 
that would say, no, theirs might be more important. So again, 
if we are talking about landscape, if we are talking about 
restoring areas that have been designated, that's a tough one. 
I mean, there is a balance.
    I would say if it's a cultural resource, if it's a cultural 
resource, one might put more emphasis on cultural resource. If 
it is not a cultural resource in terms of a structure, one 
might say, well, put it toward a cultural resource which would 
be the land, the plants, the landscape and that sort of thing.
    Again, it's a kind of a balance, and it's not always the 
same from one park to the next.
    Mr. Radanovich. Yes.
    Can you tell me from your experience at Death Valley, is 
there pressure to expand the boundaries of the park or to do 
any land acquisitions or things that might-
    Mr. Reynolds. Well, there is a couple of issues going on. 
One area south of Death Valley, between Fort Erwin and Death 
Valley Proper, a particular strip of land called ``The Bowling 
Alley,'' but it's BLM land. And, there is some impetus to add 
that to Death Valley National Park.
    Mr. Radanovich. Interesting, so you'll be addressing the 
very issue in your park as well.
    Mr. Reynolds. Yes.
    Mr. Radanovich. Yes.
    Thank you, Mr. Reynolds, I appreciate that.
    Mr. Hill, again, thank you for your testimony. Can you tell 
me, based on your analysis, in your report, what are the long-
term effects of land acquisition on the Park Service, or the 
Park system, I should say?
    Mr. Hill. Well, whenever you have land acquisition, 
obviously, you are adding new assets to the inventory, and 
that, as Mr. Reynolds pointed out, that's going to create a 
problem in terms of maintaining that land.
    Mr. Radanovich. Do you think that there could be better 
coordination between the Park Service and the Congress when it 
comes to land acquisition, about prioritizing what should be 
brought in and what should not, and under particular 
circumstances?
    Mr. Hill. Most definitely, I think not only with the 
Congress, but with the local public and the state as well. I 
think these things have to be thought through very carefully, 
and whenever Congress is going to authorize new land 
acquisition I think what you need to do is consider the 
operation and maintenance costs that are going to be incurred 
by acquiring that land, and I think there's a tradeoff there. 
You need to decide whether or not we can afford to acquire that 
land or not, because if you are going to acquire it you need to 
provide the funds that can properly operate it and maintain it.
    Mr. Radanovich. Mr. Hill, in your opinion, knowing the 
current state of affairs in the Park system, can the Park 
Service sustain the level of expectation by the visitor while 
still acquiring more land, do you think?
    Mr. Hill. Well, obviously, the deferred maintenance 
backlog, the way it is, the system is strained right now. I 
mean, the use that these facilities are getting, the visitation 
that it has, many of the facilities and the infrastructure on 
the parks are aging. The more use it has, the more maintenance 
you create, the more amount of money it's going to take to keep 
up the facilities and the infrastructure.
    Mr. Radanovich. Can you tell me, at least give me your 
opinion, do you think the Congress ought to require that the 
National Park Service set aside specific maintenance funds for 
new land acquisitions prior to the time that this land is being 
brought in?
    Mr. Hill. I definitely think that those costs need to be 
identified, here again, both the operating and the maintenance 
costs need to be line itemed and, basically, Congress needs to 
be aware of those costs.
    Right now, the land is acquired and those costs are not 
really fully understood, and then the Park Service, basically, 
has to absorb those costs, and it really strains the entire 
system.
    Mr. Radanovich. Yes.
    You mentioned in your testimony, Mr. Hill, that the 
Assessment Management process that the National Park Service is 
going to right now probably won't be ready until some time in 
2006. Would it be your recommendation not to bring anymore land 
into the system prior to the time that that--or until that 
report is finished?
    Mr. Hill. That's a hard call for us to make. I think each 
acquisition has to be considered on a case-by-case basis. 
You've got to consider what the purpose would be of acquiring 
that land. It might be that it's a resource that needs to be 
protected immediately, and Congress has to make those 
decisions, in terms of whether they want to go ahead with that 
kind of thing or kind of hold off until the Park Service gets 
the system fully operational.
    Mr. Radanovich. Mr. Reynolds, I'm wondering, and this 
question may not apply to Death Valley, but it could to the 
Park system in general, especially those parks that are on our 
Nation's borders with Canada and Mexico. Has the additional 
requirements for security brought on by homeland security, is 
that requirement met with additional Federal funds, or is that, 
again, something that threatens the ability to eliminate this 
burden in the budget?
    Mr. Reynolds. At the present time, we are adding more law 
enforcement personnel, also at Death Valley we have something 
called ``no net loss.'' And, our idea is to try to bring our 
numbers of law enforcement people back up to a better, shall I 
say, a more safe condition.
    And, while we are doing that with the existing funds, we 
don't have additional funds to take care of those things that 
we're taking the money away from. So, there's no more money 
coming in, but I'm sure the Agency will come before Congress 
requesting additional funds for those law enforcement 
personnel.
    Right now, we are absorbing those costs.
    Mr. Radanovich. OK.
    As you know, my expertise primarily is with Yosemite 
National Park because I was born and raised there, and I 
understand that you worked there for 5 years, but as a general 
question, a lot of people feel that the Park Service, in 
particular Park Rangers, it would be nice of they spent most of 
their time doing interpretive work and doing more of that to 
the visitors and guests that are in the park. Do you feel that 
that interpretive service, or what was very typically known to 
be the Ranger who can explain what the park visitor is visiting 
when they are there, does that get left and pushed back on the 
back shelf for law enforcement demands and some of these other 
things that occur?
    Mr. Reynolds. Yes, I did work at Yosemite, and I spent 23 
years doing law enforcement with this organization. And, often 
times, the educational aspect of it does get lost. Sure, the 
Rangers who are performing law enforcement, when they do have 
the opportunity to educate the public about a myriad of things, 
they do that. But, if they are performing, let's say, strict 
law enforcement duties, they don't.
    Now, the interpretive side of it, or our educational side 
of that, is also, I would say, being decreased, because again, 
we don't have operational funds for that part of our operation 
either. So, those numbers of our educational Rangers are also 
going down.
    So, we have a lot of things that we are trying to do, but 
without additional funding we're having to absorb all of these 
things.
    Right now, we are looking at the security of parks, so the 
law enforcement impetus is higher right now.
    Mr. Radanovich. You may not be able to consider that 
education or interpretation as a maintenance backlog or a 
deferred maintenance, but truly it is something that would 
require more funding, or if there weren't issues like 
maintenance backlogs or deferred maintenance you might be able 
to expand the ability for the Park Service in education and 
interpretive areas, do you agree?
    Mr. Reynolds. Those funds could go to bringing our programs 
up to where they should be.
    Mr. Radanovich. Right.
    Mr. Reynolds, thank you so much for being here today. I 
think I'm done with my questions, and for as well, Mr. Hill, 
thanks for coming to this hearing, and I appreciate it. You are 
more than welcome to hear the next panel as well.
    Mr. Radanovich. With that I will call up the next panel. We 
have five people here today, starting with Mr. Gerald Hillier, 
who is the Executive Director of Quad States County Government 
Coalition, in San Bernardino, California. Also, Mr. Mike Lewis, 
who is a member of the Santa Monica Mountains Inholder 
Association, from West Covina, California. Mr Chuck Cushman, 
who is the Executive Director of the American Land Rights 
Association, from Battle Ground, Washington. Mr. Matt Bloom, 
who is a constituent of mine, who is the owner of Kennedy 
Meadows Resort and Pack Station, from Sonora, California, and 
Ms. Courtney Cuff, she's the Pacific Region Director of the 
National Park Conservation Association in Oakland, California.
    Welcome, ladies and gentlemen, to the hearing, I'm glad you 
are here, and again, we'll use the traffic light system for the 
amount of time.
    I would suggest, too, many people have brought written 
statements to be used, although your written form is going to 
be in the testimony anyway, if you want to take the time to 
just sum up or highlight certain areas of your testimony, that 
generally can be, in some ways, more informative.
    And again, we'll start with Mr. Hillier and work down the 
line, and then we'll open up the whole panel for my questions.
    Again, welcome, Mr. Hillier, and, hopefully, the mike will 
work just fine. Give it a shot.

  STATEMENT OF GERALD HILLIER, EXECUTIVE DIRECTOR, QUADSTATE 
    COUNTY GOVERNMENT COALITION, SAN BERNARDINO, CALIFORNIA

    Mr. Hillier. OK, good morning, Mr. Chairman, and thank you 
for inviting us to participate in this hearing.
    I'm Gerry Hillier, Executive Director of the QuadState 
County Government Coalition. QuadState is an interstate Joint 
Powers Authority, involving six counties in the four States 
that encompass the Mojave Desert. Among our member counties, 
there are six units in the National Park System.
    There is not a simple answer to the question relating in-
holding acquisition and maintenance backlog and expansion of 
park units. Federal acquisitions can be balanced or offset by 
the contributions that these units may make to local economies 
and tax revenues. Another aspect is personal, based on the 
contact and relationships that exist between the Service and 
local government officials. While government can never do 
everything it might like to do, communicating needs, 
establishing partnerships and working out priorities with local 
people are a key to understanding and accepting shortfalls, the 
problems come with what I call a double whammy, acquisitions 
reducing revenues to the local government, and undone 
maintenance reducing the quality of visitation.
    As a result of this hearing and input, coupled with the 
input that you received from Supervisors Postmus and Dorame at 
th hearing in San Diego in August, we request that you:
    Enact H.R. 380 to provide funding to counties, covering 
Federal land acquisitions and private land.
    Require that the land management agencies discuss 
acquisitions with local officials prior to budgeting for such 
acquisitions and in advance of acquisition initiatives by NGO's 
on behalf of the agencies.
    Nationally reduce acquisitions for all purposes until 
needed maintenance is undertaken and the backlog eliminated.
    And finally, support the Department of the Interior on the 
implementation of the recordable disclaimer regulations so as 
to provide for clear local government ownership of access roads 
across Federal lands, particularly those within National Park 
Service units.
    Also, we would suggest that you review some of the NPS 
units and boundaries that Congress has established in the past, 
and determine if sound public policy might dictate some 
alterations to them, so as to reduce or remove conflicts and 
costs.
    First, I'd like to talk about PILT--Payment in Lieu of 
Taxes. My experience is that few government officials among any 
of the Federal land management agencies understand this 
program. There is a myth that when a Federal agency buys land 
the county will automatically benefit from the acquisition 
through increased PILT payments. For most counties this is 
simply not true.
    First, PILT payments seldom equal taxes collected.
    Second, if counties are capped by the operation of the 
formulas they get nothing. I have a Power Point presentation 
handout with me today that shows PILT calculations for the six 
counties making up QuadState, and I gave this map at the outset 
of the hearing. Three of our six counties are capped and the 
three that are not are close to the ceilings.
    Federal managers overlook the loss the local tax base 
revenue stream, yet county service requirements often remain 
constant.
    PILT formulas assess only population and Federal 
``entitlement'' acreage and do not consider the assessed 
valuation associated with capital improvements on the property 
being acquired.
    And, land acquisitions too often are characterized as 
positive in by advocates, but they also assure that the private 
lands will never contribute to county revenue and never 
contribute to regional economies. And often, they seldom even 
add to park visitation.
    The specifics, my longer statement cite examples of San 
Bernardino and Inyo Counties in California. San Bernardino 
County has lost over 628,000 acres of private land to Federal 
acquisition in the past 4 years. Over the course of this 
action, in which the county has lost some $300,000 of annual 
revenue, not a single official of the Department of the 
Interior ever contacted county leadership, either the elected 
Supervisors or the office of the County Administrator to 
discuss the matter, its effect, or for input.
    The Park Service regulates but does not maintain the 
county's 225 mile road system, mostly paved, within the Mojave 
Preserve. The county wishes to keep up the roads at no Federal 
cost as a service to its remaining taxpayers in the region.
    A similar pattern is in Inyo County with the Saline Valley 
Road, which the county wishes to maintain, but NPS administers 
and controls because the boundary of Death Valley is 50 feet to 
the west of the road. The county recently received an 
authorization to maintain it, but in an area so small in the 
area that equipment cannot be turned. If the county sought 
maintenance, NPS has verbally has indicated it would close the 
access. This is wrong.
    Mike Dorame, the Supervisor in Inyo County, reports that 
much of the communication between Inyo County and Death Valley 
is at a low level and verbal with NPS reluctant to put 
directions in writing.
    Congress should be concerned about having added a huge area 
to a park, and then not providing funds or ability to maintain 
historic public access. The county is willing, with its limited 
funds, and not asking the Federal Government for financial 
help, just reasonable policy. We would suggest fix the policy 
or change the boundary.
    NPS acquired the Rainbow Talc Mine, far from the actual 
Death Valley, containing high-valued talc. The mine was taken 
into the National Park boundary and wilderness area by action 
of the California Desert Protection Act. San Bernardino County 
engaged in correspondence, and even board resolutions, with the 
Park Service on behalf of the owners. The owners appeared at a 
House hearing in Washington, I think, in 1976. Over time, the 
owners were simply worn down and accepted their payment. But, 
the resources are now off limits to any economic use, and well 
out of sight with the closed route over the Park Service, since 
they also rejected all attempts by the county to make an RS2477 
assertion.
    The Park Service secured funds from a contingency fund 
outside normal programming and budget processes and 
congressional oversight, despite ongoing correspondence with 
Death Valley Superintendent and resolutions by the board. Never 
one did the Park Service deem it necessary to meet face to face 
with any county official to discuss the issues, the impacts, 
and the seeming overwhelming need for NPS to Federalize the 
property.
    NPS and local governments could work together in 
partnership, yet the NPS, in its interpretation of its mission, 
often creates an adversarial situation that should not exist 
between units of government.
    I do have positive reports from Mojave County in Arizona 
and Washington County in Utah relative to Lake Mead National 
Rec Area and Zion National Park. The Superintendents there 
regularly attend Commission meetings and participate in an 
organization called SUPAC, which does provide communication. 
These are noteworthy. With proper sensitivity of NPS management 
leadership, many of the management issues associated with the 
parks can be overcome.
    In preparing for this testimony, I also discussed issues 
with the Commissioner from White Pine County, Nevada, an area 
that includes Great Basin National Park. As with Mojave 
Preserve, there seems little contact between NPS and county 
officials. NPS has criticized local desires by raising a 
viewshed argument and wanting to extend their influence miles 
beyond the park boundaries. As the Commissioner told me, he 
said, ``My God, it's a 13,000 foot peak, and how can you not 
affect their viewshed.''
    NPS also opposed a landing field near the park because of a 
variety of issues, including managing the soundscape. Despite 
assurances regarding visitation and growth when the park was 
established, Baker, the gateway community, has become a virtual 
ghost town.
    Overall, with acquisitions, tax revenues have declined. 
White Pine County is limited on PILT payments by its 
population, so there are no offsets or credits for any losses 
engendered by the Federal Government.
    Overall, I have found and seen NPS is doing maintenance in 
the region, fixing campgrounds in the Mojave Preserve and the 
Great Basin, doing road maintenance to-
    I have no idea where the funding comes from, but they are 
getting it done. There seems to be a lot of money for 
eliminating uses on private land, even those authorized to 
continue in enabling legislation.
    I add a final word. The Federal agencies personnel need to 
be selected and trained to be responsive to local governments. 
Superintendents may work with national directions, but the 
concepts of local application of the Secretary's 4 Cs policy 
must be inculcated in every Superintendent's vocabulary. That's 
the only way to do business. Local government must be viewed as 
a partner, not as invisible or an adversary.
    Thank you.
    [The prepared statement of Mr. Hillier follows:]

          Statement of Gerald E. Hillier, Executive Director, 
                 QuadState County Government Coalition

    I am Gerald Hillier. I serve as Executive Director of the QuadState 
County Government Coalition. QuadState is an interstate Joint Powers 
Authority, involving six counties in the four States that encompass the 
Mojave Desert. The counties in the region organized to foster better 
communication and advocacy about natural resources and public lands 
issues that face their region. I can assure you that issues do not stop 
at state lines particularly when agencies of the Federal Government are 
concerned. We found that by organizing we were better able to deal with 
and react to Federal issues than we could individually, and we could 
more easily and directly call attention to issues in the Mojave Desert 
region than is possible with our State organizations.
    I have been asked to comment on National Parks in the region, their 
land acquisitions, and the maintenance backlog. In doing that, I will 
also touch upon some other issues related to National Park Service 
management within the region.
    Among our member counties, there are six units of the National Park 
Service:
    <bullet> San Bernardino County CA: Death Valley NP, Joshua Tree 
NP, Mojave National Preserve;
    <bullet> Mohave County AZ: Lake Mead NRA, Grand Canyon NP; and
    <bullet> Washington County AZ: Zion NP.
    There is not a simple or consistent answer to the question of 
relating expansion and in-holding expansion to maintenance backlog. 
Part of the question relates to the degree that such Federal 
expenditure is balanced or offset by the contribution that these units 
make to the local economies. And part of that involves the role that 
lack of maintenance may play in discouraging use of National Park 
units, causing lowered contributions to local economies.
    The question of relationships and effects of NPS actions may also 
hinge on the contact and relationships that exist between the Service 
and local government officials. Much that NPS does or does not do is 
driven by their annual budget. Local government knows and appreciates 
that there are many pressures on annual appropriations. Government and 
its agencies can never do everything it might like to do, or even that 
it sees necessary to do. Communicating needs, establishing partnerships 
and explaining and working out priorities with local people are a key 
to understanding and building support for shortfalls.
    As a result of this hearing and input, and coupled with the input 
that you received from Supervisors Postmus and Dorame at the hearing in 
San Diego in August, we would like you to:
    <bullet> Enact H.R. 380 that would at least provide funding to 
counties;
    <bullet> Require that the land management agencies discuss land 
acquisitions with local government officials prior to budgeting for 
such acquisitions, and in advance of acquisition initiatives by NGOs on 
behalf of the agencies;
    <bullet> Reduce acquisitions for all purposes until needed 
maintenance is undertaken;
    <bullet> Support the Department of the Interior on the 
implementation of the recordable disclaimer regulations so as to 
provide for clear local government ownership of access roads across all 
Federal lands, particularly those within National Park Service units. 
This will assure true partnerships between local and Federal officials 
in resolving access issues as a minimum; and
    <bullet> Take a look at least of some of the NPS units and 
boundaries that Congress has established and see if sound public policy 
might dictate some alternations to them so as to remove conflicts and 
help build partnerships. Local governments recognize the need to 
maintain public services to taxpayers and constituents and are not 
looking to adversely affect NPS units, but Congress and we need to 
bring sensible management to the table and not allow NPS to simply 
carry out its policies in a, ``We have our mission,'' arrogance.
    First, I would like to talk about PILT--Payment in Lieu of Taxes. 
Counties receive payments for Federal lands within their borders. This 
program has existed since 1976, and supports a wide array of county 
services, from law enforcement to emergency rescues to road maintenance 
throughout the West. My experience is that few government officials 
among any of the land management agencies understand this program, and 
fewer still know its intricacies. And since the Bureau of Land 
Management administers the program, few managers in the other agencies 
with contributing acreage are even sensitive to it.
    There is, for example, a myth that if a Federal agency buys land 
the county will automatically benefit from the acquisition through 
increased PILT payments. For most counties that is simply not true.
    <bullet> PILT is calculated first on the basis of people in the 
county, not Federal acreage.
    <bullet> Payment for PILT cannot exceed, for FY 2003, $2.02 per 
entitlement acre, less other Federal payments, or $0.27/acre without 
adjustment. Either calculation is capped by the population ceiling. For 
FY 2003, this amounts to a gross payment, before adjustment for 
appropriation shortfall, of $2,701,000, or 1,337,129 acres. In other 
words, if a county already has 1,337,129 acres of Federal holdings 
among BLM, Forest Service, Park Service and Fish and Wildlife Service 
lands, it gets no additional PILT credit.

    Within the QuadState member counties, three of six counties have 
acreage in excess of 1,337,129 acres. These are Mohave in Arizona, 
Lincoln in Nevada, and San Bernardino in California. Two of the three 
have extensive NPS units, and one, San Bernardino, has been subject to 
intense land acquisition during the past four years.
    <bullet> What is forgotten regarding PILT is the loss to the tax 
base and local tax revenue streams. Further, often the land comes off 
the tax rolls long before the actual Federal acquisition because of the 
use by NPS officials of private foundation money to secure property in 
advance of Federal acquisition. Since the foundations or NGOs are tax-
exempt the property becomes tax-exempt on sale to it.
    <bullet> What is also forgotten regarding PILT is that its formula 
assesses only county population and Federal ``entitlement'' acreage and 
does not consider or factor in the assessed valuation associated with 
capital improvements on the property being acquired. Often when NPS 
acquires mines or ranches, regarded in their parlance as ``inholdings'' 
or ``non-consistent'' land uses, they acquire structures, improved 
pasture and houses, all of which have value above and beyond the raw 
land value.
    <bullet> Also, land acquisitions, too often characterized as 
totally positive in resource conservation terms, assure that the 
liquidated Federalized private lands will never contribute to regional 
economies, provide employment, or in any other way contribute to 
society except to be ``preserved.'' They will not even add to Park 
visitation, a factor often touted to promote NPS administration, a 
promise that is too often ethereal.
    In approaching this presentation, I am going to bounce from 
experience with specific NPS units, and specific counties. Often 
cooperation and coordination are more the result of the individual 
management and outreach style of local leadership than it is responsive 
to specific directives coming from Regional or National Headquarters.
    Let's look first at San Bernardino County. Over the past four years 
the County has lost 628,000 acres to Federal acquisition. Because its 
population exceeds 50,000 and it has more than 8,000,000 entitlement 
acres, it receives no additional PILT payment than it did in 2000 
beyond what it received as a result of increased appropriations. These 
acquisitions included purchases in NPS as well as BLM areas, for 
wilderness, habitat for threatened species, mitigation, and liquidation 
of the ranching industry in the Mojave National Preserve.
    Over the course of all this acquisition, in which the county lost 
some $300,000 of annual revenue, not a single official of the 
Department of the Interior ever contacted county leadership, either the 
elected Supervisors or the office of the County Administrator, to 
discuss the matter, its effect, or to gain input. The facilitating 
middleman, an NGO, Wildlands Conservancy, issued press releases about 
the wonders of desert preservation, and did invite some county 
officials to the celebration that welcomed the first sale to them by 
Catellus.
    The same pattern has been followed in the liquidation of cattle 
ranches in the Mojave National Preserve. Again, National Park Service 
used an intermediary NGO to consummate most of the purchases. The 
county knew ranching was doomed from the time the Desert Protection Act 
passed in 1994; despite assurances the ranchers could stay. Almost 
immediately offers were floating and ultimately ranchers sold to the 
NGO, who eventually recouped their money from NPS appropriated funds. 
The loss in assessed value and tax revenue is accounted for in the 
above $300,000. But what else was lost was a human presence in the 
Mojave and non-government occupation of the lands. At times it seems 
the goal of the Department of the Interior is to depopulate the rural 
areas of the West.
    Supervisor Postmus touched on these issues in his August 18, 2003, 
testimony to this Committee at its hearing in San Diego.
    The loss of ranching has also resulted in the dismantling of much 
of the water systems that sustained both livestock and wildlife. NPS is 
allowing the rancher to salvage the facilities' wells, tanks, troughs, 
pipelines, etc. In return, NPS says they have no funds for maintenance 
or replacement. Thus our hunters, who thought they too were protected 
by language in the CDPA that supposedly protected hunting, are faced 
with a bleak future in which wildlife may well decrease under NPS 
administration because of lack of water. NPS in the GMP dialogue 
defended this action in part based upon assuring naturalness. The 
Mojave Preserve has been occupied by settlement for the past 130 years, 
or more. Its face and heritage reflects this--historic mines and 
ranches, a transcontinental railroad, and the myriad of life support 
systems--utility rights-of-way--crossing the areas. How much better a 
policy and program that NPS implement a program based on interpreting 
this history and working with the landscape rather than attempting to 
obliterate the heritage.
    One other issue related to NPS coming into the country: the road 
system, some 225 miles of it, mostly paved, has remained under County 
ownership, but not administration. One of the first actions taken by 
NPS was to post speed limits, lower, and no through commercial traffic 
signs at the Preserve entrances. This was done without any formal 
contact with the county at any level. Over nine years, there has been 
some discussion about an MOU with low-level staff but none has ever 
been consummated. NPS has objected to county use of materials sites 
within the Preserve and when maintenance is undertaken, materials must 
now come from outside the area. A few years ago there was an end of 
fiscal year contact about NPS undertaking maintenance on what appeared 
to be a one-time offer, but nothing came of it since the county was not 
assured that maintenance would continue in perpetuity and it would 
probably have meant the County would have had to relinquish R.S. 2477 
rights-of-way under which the routes were constructed and maintained. 
Because of other access issues within the Preserve plus the presence of 
a few remaining residents and property owners who pay taxes, the County 
has felt it prudent to maintain a lifeline to these. The County's 
concern on a steady stream of funding is not without foundation: the 
Inyo County experience related below bears out the lack of on-going 
funding for maintenance in NPS units.
    That said, how does this translate to maintenance? Actually NPS 
seems to be doing well in this area. I have no idea where the funding 
is coming from; perhaps other units. But they are redoing campgrounds 
and providing facilities maintenance. So in a limited sense, the 
maintenance job at least in the Mojave Preserve is getting done. 
Whether they can take on anything additional, such as water 
developments or roads is problematic. I do note that the NPS is 
maintaining the road into the Desert Studies Center at Zzyzx, an action 
required after flash floods this summer. The California State 
University System runs the Center, and its use of the site was insured 
under the CDPA. Access is only available by a road that is Federally 
owned. The action by NPS is happening in a timely manner.
    Turning to an issue in Death Valley National Park, but still within 
San Bernardino County, is the story of the Rainbow Talc Mine. The 
government now owns this mine, containing high value talc and graced 
with a beautifully constructed head frame. The mine is located in the 
southeast corner of the Park, not within Death Valley, but in the Ibex 
Hills at the edge of a historic mining district. The mine was taken 
into the National Park boundary, and Wilderness Area, by action of the 
California Desert Protection Act in which Congress and its helpers drew 
the line and even eliminated the access road.
    Discovered in the 1950s, the owners had secured a plan of 
operations for underground (tunnel) mining from BLM just as the CDPA 
was passed in 1994. Started over, and with a purchaser for the talc on 
line, they attempted to secure a plan of operation from NPS, but there 
was always one more problem. Tortoises. (There were none.) The cost of 
an Environmental Impact Statement. In the interim, NPS even wanted them 
to secure a permit and notify its office with times and names to even 
use the access.
    San Bernardino County engaged in correspondence with the Park 
Service on behalf of the owners, since the matter had some economic and 
potential employment benefits. The owners also appeared at a House 
hearing in Washington, I believe in 1996, in response to an inquiry 
about Wilderness horror stories. Over time the owners were simply worn 
down, and accepted payment from the government. Yes, they did get their 
retirement nest egg. But no, the resources are now off limits to any 
economic use by the American people.
    My point is that, in this case, NPS secured the funds to purchase 
the mine over a couple of fiscal years. Funds came from a contingency 
fund that are evidently available for emergency purchases that the 
agency can make outside the normal programming and budget process, 
including Congressional oversight. More critically for this testimony 
is the fact that, despite on-going correspondence and even resolutions 
by the Board of Supervisors with the Death Valley Superintendent, never 
once did the agency deem it necessary to meet with any county official. 
To the contrary, correspondence received the ``we are working on it'' 
and ``we have our processes'' variety.
    During the entire process, never once was there an attempt by the 
Superintendent to directly contact any county official. We would have 
thought that at some point, after letters and resolutions, he would 
have at least picked up the phone, if not come to San Bernardino to 
discuss the issues, the impacts and the seeming overwhelming need for 
NPS to Federalize this property. And when the sale was finally 
consummated, even then, NPS never let the County know.
    Staying with Death Valley, but switching to Inyo County, there is 
an on-going and current issue regarding the Saline Valley Road. You 
heard of it in Supervisor Mike Dorame's testimony in San Diego. I 
reiterate it here because it bears directly on the issue of 
infrastructure maintenance.
    When the California Desert Protection Act expanded Death Valley in 
1994, Congress moved the boundary far west to absorb Saline Valley into 
NPS administration. The County and others objected during the CDPA 
battle, but to no avail. And as they say, ``The Devil is in the 
details.'' Congress not only used the Saline Valley Road for the west 
boundary of the Park, they drew the boundary 50 feet west of the road 
so that the entire road was inside the Park. To this day we don't know 
why, but we have our suspicions about the motives of the citizen groups 
who guided and ``helped'' Congress draft the CDPA.
    At any rate, Inyo County must now deal with maintaining a road 
within the NPS administrative boundary and with NPS processes and 
procedures. This includes not using historic borrow areas for 
maintenance material, since ``mining'' is inappropriate within Park 
units. Needless to say that County maintenance has declined in recent 
years as a direct result of higher costs.
    Recent summer storms have eroded and made the road difficult to use 
as it enters from the north, and have made the south access impassible. 
We are talking about some 50 to 75 miles of main stem road here, and 
the only access to the Valley, an area embracing close to 1,000,000 
acres.
    After contacts, NPS did allow use of an old pit but within 25 feet 
of the centerline of the road. The restrictions are such that it will 
not accommodate even the turning radius of equipment.
    Much of the communication with Death Valley is at low level and 
verbal, with NPS reluctant to put either direction or policy in 
writing. The Supervisor asked NPS what it would do if the County just 
walked away from the road. The Superintendent said it would probably be 
closed since NPS lacked maintenance funds to keep it open. Sadly, we 
don't have this in writing, but I have no reason to doubt the veracity. 
Congress should be concerned about having added a huge area to a park 
unit and then not providing funds to provide public access. This is not 
Alaska! Further, the area has had historic use for over 100 years based 
on continuous public access.
    For its part, the County does wish to keep the road and public 
access. Here is an example where NPS and the local government could 
work together in partnership, yet the NPS and its interpretation of its 
mission create an adversarial situation that should not exist between 
units of government. Just because NPS has assumed a degree of sovereign 
isolation within its units it and its employees need to assure that 
local government is part of its client base.
    Moving east, Lake Mead National Recreation Area lies within Mohave 
County, Arizona, as well as in Nevada. I cannot speak for issues that 
may be associated with Clark County, Nevada. Mohave County reports that 
they have little issue with Park Service administration. Over time NPS 
has attended County Commission meetings and the Commissioner told me 
that when he needs information the Superintendent is right on it, 
returning calls or even coming to Kingman from Boulder City. The County 
has had issues with BLM in the Strip to the north, but all seems to be 
well.
    I think it well to take note of this--with the proper sensitivity 
of NPS management and leadership, many of the issues associated with 
the Parks can be overcome. In fact, even NPS shortfalls in budgets to 
perform maintenance activity can be understood and perhaps 
cooperatively solved with the right kind of communication and 
sensitivity.
    Mohave County is one of those counties that has a huge Federal 
acreage within its border. It is capped by virtue of having more than 
50,000 people and over 6,000,000 entitlement acres. They have 
experienced some land acquisition in recent years and can expect more 
in the future associated with activity by all agencies: BLM, NPS and 
FWS. Bureau of Reclamation is wrapping up work on a land use plan for 
the Lower Colorado River that will rely in part on land acquisition for 
mitigation. The Congress needs to proactively involve itself in all 
facets of the agency land acquisition program to assure that parcels 
acquired for any reason are really needed by the Federal administration 
and that purchase and removal from tax rolls is the appropriate means 
of securing them.
    We have no issue with Grand Canyon NP. There is no contact as far 
as Mohave County is concerned because of its remoteness and lack of 
physical access.
    Along the same lines, Washington County in Utah, another one of our 
member counties reports that they have little issue with Zion National 
Park within their jurisdictional boundary. This is a Park unit of long 
standing, so many of the growing pains that may have occurred with 
establishment have been overcome with the passage of time and new 
generations of management and elected officials. There have been issues 
related to restrictions on group size, but at least NPS seems willing 
to meet with local officials and discuss the matters. There are regular 
meetings among a group called SUPAC in which NPS participates regularly 
and in a forum with County officials.
    Perhaps that is part of the solution to these differences--provide 
regional forums to build relationships. In California, the Department 
of the Interior established something called the Desert Managers Group 
after passage of the CDPA. That has been largely an inside group since 
its inception, but its current Coordinator, headquartered in Barstow, 
is making an attempt to make the meetings more open, and announced. To 
date he has not met with local government leadership, to my knowledge, 
limiting contacts to the staff and consultant level, but there is hope 
and a structure there, but it must be nurtured and not simply be a 
forum for fellowship. And agencies cannot or should not use it and then 
retreat to their mission straightjacket. It should be a forum for 
bringing about change when needed and overcoming institutional 
barriers.
    I touched on an area beyond QuadState's membership in noting issues 
in Inyo County, California. In preparing for this testimony I also 
discussed issues with a Commissioner from White Pine County, Nevada, 
and area that includes Great Basin National Park.
    Here, like in the Mojave Preserve, there seems little contact 
between NPS and County officials. NPS has raised criticisms about local 
desires falling back on a viewshed argument and wanting to extend their 
influence for miles beyond the Park boundary. NPS opposed establishing 
a landing field near the Park because of a variety of issues including 
managing the soundscape. (This is an issue related to the Mojave 
Preserve as well as Las Vegas attempts to create a new airport near 
Jean.) Despite assurances regarding visitation and growth when the Park 
was established, Baker, the gateway community, has become a virtual 
ghost town.
    As NPS has expanded its presence, ranching has all but disappeared 
under the limitations placed on it by Park Service regulation and 
closure of access. Recreation use has also diminished. While visitation 
is hiking related, diversity from hunting, fishing, rockhounding and 
other legal pursuits has been curtailed or disappeared. Overall, with 
acquisitions, tax revenues have declined. White Pine County is limited 
on PILT payments by its population, so there are no offsets or credits 
for any of the losses engendered by the Federal Government.
    NPS is completing a new visitor center, and has done an adequate 
job of maintaining the two campgrounds in the area. We cannot say where 
the funds came from.
    To summarize:
    <bullet> Enact H.R. 380 that would at least provide funding to 
counties;
    <bullet> Require that the land management agencies discuss land 
acquisitions with local government officials prior to budgeting for 
such acquisitions, and in advance of acquisition initiatives by NGOs on 
behalf of the agencies;
    <bullet> Reduce acquisitions for all purposes until needed 
maintenance is undertaken;
    <bullet> Support the Department of the Interior on the 
implementation of the recordable disclaimer regulations so as to 
provide for clear local government ownership of access roads across all 
Federal lands, particularly those within National Park Service units. 
This will assure true partnerships between local and Federal officials; 
and
    <bullet> Take a look at least at some of the NPS units and 
boundaries that Congress has established and see if sound public policy 
might dictate some alternations to them so as to remove conflicts and 
help build partnerships. Local governments recognize the need to 
maintain public services to taxpayers and constituents and are not 
looking to adversely affect NPS units, but Congress and we need to 
bring sensible management to the table and not allow NPS to simply 
carry out its policies in a, ``We have our mission,'' arrogance.
    And I would add a final word--Federal agency personnel need to be 
selected and trained to be responsive to local governments and local 
citizens and constituents. They may work with National direction, but 
if Secretary of the Interior Norton's 4 Cs policy is going to work, it 
has to become inculcated in every Superintendent's vocabulary and way 
of doing business. Local government should not be viewed as an 
adversary, rather as a partner. But this includes full understanding on 
the part of Federal management of the limitations to PILT, the fact 
that local governments have budgets and priorities as well, and that 
problems can be solved together. There are models for success. Let's 
use them and expand them.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Hillier. I appreciate your 
testimony.
    Next is Mr. Mike Lewis, who is a member of the Santa Monica 
Mountains Inholders Association, from West Covina.
    Mike, welcome to the Subcommittee and have at it.

    STATEMENT OF MIKE LEWIS, MEMBER, SANTA MONICA MOUNTAINS 
         INHOLDER ASSOCIATION, WEST COVINA, CALIFORNIA

    Mr. Lewis. Thank you. I did submit some prepared remarks, 
and I'll just go ahead and summarize those.
    The Inholders Association is a group of landowners in the 
Santa Monica Mountains who, in some cases, own a few hundred 
acres--in some cases, several thousand acres. It also includes 
recreation enthusiasts, some equestrian organizations, and some 
other outdoor advocates.
    Let me quickly describe this National Recreation Area for 
you. It's a 150,000 acre designated land mass, 54 percent of 
which is privately owned. The other 46 percent, which is owned 
by a public agency, includes lands owned by the county, the 
state, some city lands, only 11 percent of the real estate is 
actually owned and controlled by the National Park Service.
    The National Recreation Area, I want to remind everybody, 
is not a park, it's a recreation area, and virtually all of the 
visitors serving recreation activities other than trails, and a 
few parking lots for access are on private property.
    We have a maintenance problem, as do just about all of your 
other park units, but I think in part it's not because we are 
not pursuing this maintenance or we don't have enough money, 
it's because we've changed the definition of maintenance. What 
you and I think of as maintenance, fixing parking lots, 
repairing the plumbing, repairing the roof, maintaining trails 
or clearing trails, I think has been succeeded by a new 
definition, a much broader definition, that includes fixing 
habitat, removing non-native plants, encouraging overgrowth, 
planned obsolescence in fact, and some intentional 
deterioration of infrastructure in order to restore a natural 
condition. And, I think this change in emphasis has sort of 
evolved as part of the culture of the Park Service over the 
last decade, in that they've moved from an emphasis on visitor 
serving priorities to visitor discouraging, if you will, by not 
maintaining facilities in order to pursue a more conservation-
related agenda.
    The name of the game, obviously, in this arena is to get 
money for parks, and to get as much as you can, and to get it 
any way that you can. The way to do that, frankly, is you need 
an ongoing maintenance backlog to keep the pressure on. You 
need a list of urgent acquisitions, especially hardship 
acquisitions, even small business or small property owners who 
have no other option but to sell to the Park Service, because 
they become nice poster children for capital investment funds. 
You also need a constituency who is pushing for more 
facilities, trails, campgrounds, and things of that sort.
    In the Santa Monica Mountains we have all of those, but we 
have an NPS mission that I think conflicts with that which was 
designated by Congress and that which is clearly the public 
priority in southern California.
    While Congress proposed recreation, biking, equestrian 
trails, and the development of ranches, the homesteads, and the 
movie sets in the National Recreation Area, we have a 2003 
Annual Plan that says the Santa Monica Mountains exist to 
conserve an ecosystem.
    Let me illustrate for you how that translates in our 
region. According to this 2003 plan, 12 of the 27 historic 
structures in the Recreation Area are rated in fair to poor 
condition. They only plan to restore one of them. Well, 14 
staff members are maintenance workers, 18 are full-time 
conservation biologists and ecologists. Of the 22 goals stated 
in the Annual Plan, only two relate to visitor services and 20 
are goals to ``restore targeted lands disturbed by prior 
physical development or agricultural use.'' Among the specific 
activities on which these appropriations are spent are the 
removal of an avocado orchard in Yuma Canyon and the replanting 
of a coastal sage scrub, containing disturbances on 29,000 
acres of endemic vegetation on non-parkland, monitoring 
development hearing notices for and testifying and submitting 
written comments on targeted private developments, removing 
exotic vegetation on 80 acres of grassland, and inventorying, 
measuring, photographing, and monitoring all threatened and 
endangered species. All of that takes money.
    The plan goes on to dictate that ``facilities must be 
maintained in a relatively primitive manner to preserve the 
visitor experience.''
    What would we recommend to resolve some of these issues? 
First, we think the Recreation Area should be operated for 
visitors, not managed like museums. Clear distinctions need to 
be made between the definition and the purposes of National 
Parks, National Recreation Areas, National Monuments, 
Wilderness and other Federally designated lands.
    Second, there are dozens of landlocked and hardship parcels 
that should be acquired from their many willing sellers. Some 
funds need to be made available for this purpose. If Congress 
is reluctant to specify the exact parcels to be acquired, then 
funds should be directed to those areas where public agencies 
already own large percentages of acreage, and they should not 
be allowed to spend the dollars acquiring land in new areas.
    And, I brought with me a map just to illustrate for you 
some of the holdings in the Santa Monica Mountains that are 
surrounded, where private small landowners have been surrounded 
and have been for years unable to get the Park Service to 
proceed to acquire the land.
    Third, I think that the Committee should look very 
carefully at the Agency maintenance budget and understand the 
maintenance definitions used by the Park Service. There is a 
mind set in the Park Service that conservation is also 
maintenance, and I think there's competition for those funds 
and they are being drained away from facility maintenance in 
order to pursue other restoration and rewilding activities.
    Fourth, I think we need to go slow on any NRA expansion 
plans, given the difficulty in managing what we already have. 
It serves no public use in the urban area to draw more 
boundaries around land for which there is no acquisition, 
development or maintenance dollars. I think we need to resolve 
the current land acquisition issues first.
    And finally, I think Congress should consider the adoption 
of a recreation access bill of rights, to assure the taxpayers 
that they will be able to access and enjoy the lands set aside 
with their tax dollars. One component of this bill of rights 
should be the mandatory development of a publicly reviewed 
visitor use and access plan before each major land acquisition. 
We believe that the use of public funds for purchase of private 
lands demands some level of public access and use, and we 
believe the public is entitled to know what that is going to be 
before the funds are expended.
    Thank you, Mr. Chairman, for your time and your interest.
    [The prepared statement of Mr. Lewis follows:]

            Statement of Michael W. Lewis, Policy Director, 
              Santa Monica Mountains Inholders Association

    Good morning Mr. Chairman, my name is Mike Lewis and I'm here 
representing the Santa Monica Mountains Inholders Association, a group 
comprised not only of landowners with property within the 150,000 acre 
National Recreation Area, but also of recreation enthusiasts, 
equestrians, and the businesses who provide services for these park 
visitors.
    My goal here today is to explain why we have a growing maintenance 
backlog in the Santa Monica Mountains National Recreation Area and 
perhaps illustrate by example why we are facing a crises in facilities 
maintenance at so many National Parks across the nation.
    I also want to offer my thoughts on specific issues and policies 
relating to land acquisition practices and the lack of a long-term 
maintenance and acquisition plan, which in turn impacts property owners 
in the Santa Monica Mountains National Recreation Area.
    The members of our organization are very concerned that the 
National Recreation Area is not doing what it was originally intended 
to do. The managers of this 150,000-acre swath of real estate have 
strayed in several ways from the original intent and promise to create 
the world's finest urban recreation area.
    First, small property owners are suffering hardship due to NPS land 
acquisition practices. Within the parcels owned by the NPS are many 
small privately owned parcels for which the NPS can be the only buyer. 
These willing sellers are often told many things about the ``pending'' 
acquisition of their land. Most often, land owners are shown a land 
acquisition budget and assured that funds for their transaction are 
included in that pot.
    Unfortunately, all landowners are shown the same pot and given the 
same assurance. This shell game with the money is repeated annually. 
The next trick is to send landowners to other local agencies claiming 
that they have been selected to acquire their particular parcel. This 
ping-ponging between agencies can delay a less sophisticated property 
owner for several years in the process. A third technique is to make an 
offer with no money to really back it up. Then cancel the deal at the 
last minute because the money has been spent somewhere else. This cycle 
can drag on for years.
    Second, there is not much to maintain in the National Recreation 
Area since there is little in the way of NPS facilities for public use 
other than a few trails and a few buildings. Any shortage of 
maintenance dollars can probably be attributed to the practice of funds 
being applied to activities that you and I don't usually think of as 
maintenance in the traditional sense of the word. I will elaborate on 
that later in my comments.
    Third, visitor numbers, and thus the justification for more 
dollars, for the SMMNRA are misleading due largely to the Malibu 
beaches. We are told that there is an annual increase of 12% in the 33 
million visitors to the NRA. As a practical matter 32 million of those 
visitors are barefoot. They are going to the beach. The NPS provides no 
services and owns no land on the beach. Fewer than 1 million visitors 
actually set foot in the inland portion of the park boundaries.
    Fourth, the newly adopted General Management Plan envisions 
``limited use'' and reductions in visitor use and intensity, not an 
expansion of services and facilities. This strategy is also being 
implemented through the deferred maintenance and planned obsolescence 
strategies being employed by the Park Service here and elsewhere in the 
system.
    Fifth, the NPS staff is very aggressive in opposing private 
property owner's use of their land. They frequently appear at planning 
commission hearings, in uniform, to oppose projects merely on the basis 
that they are inside the boundaries of the NRA. Given past practice, no 
private property owner should be advocating an expansion of the 
boundaries that would include his or her property.
    It's important to understand the history of the National Recreation 
Area and how it came about in Southern California,
    The Recreation Area was created 25 years ago. It was hailed at the 
time as the largest natural recreation area in any U.S. urban region. 
It has sometimes been referred to as the ``lungs'' of Southern 
California due to its vast open space on a map of the Los Angeles 
region.
    Over $200 million in local, state and Federal taxpayer dollars has 
been spent on land acquisition. Add another $150 million for Ahmanson 
Ranch acquisition which was announced just a few days ago.
    Notwithstanding that investment, only 46% of the land inside the 
boundaries is owned by public agencies. Over 54% is privately owned and 
always will be. Further, the NPS only controls about 11% of the total 
acreage. Inside the boundaries, are subdivisions, universities, filming 
locations with sets, vineyards, cattle ranches, numerous cross-mountain 
highways and portions of three or four cities.
    All the visitor serving recreation facilities are provided by 
private operators on private property. It is primarily trails that are 
on public land. Our own survey of private facilities indicates that 
twice as many people use the private facilities as use the few public 
trails. Private facilities include camping, restaurants, horse stables, 
fishing lakes, corporate picnic grounds, conference centers, day camps 
and summer camps, religious retreats, wineries, sports camps and 
training facilities, thoroughbred breeding facilities, corporate 
training facilities, hotels, extensive movie filming locations and 
more. Most all of these facilities predate the NRA and the NPS. This is 
not a pristine open space. It is a vibrant, active, working recreation 
area with considerable unrealized potential.
    A recent visitor study by the NPS determined that the typical park 
visitor is white, middle-aged, averaging 41 years old, college educated 
and lives in the immediate area. That is hardly the profile of the 
typical Los Angeles resident. It would cause one to think that we may 
have spent a lot of money buying a great big back yard for a few well-
to-do local residents.
    Ironically, one in seventeen Americans lives within a 1-hour drive 
of this NRA. It should be a welcoming place for those millions of 
Americans. Apparently it is not. We need to shift the focus from 
expanding the boundaries, to making something out of what we already 
have in NRA. There is no need to acquire more. Especially if it is only 
going to be withheld from public use.
    There is a culture in the Park Service that treats all Federally 
designated lands as museum-quality properties that should be preserved 
in a fashion that only allows visitors to view them from afar. There is 
also a parallel effort to isolate these lands and remove them from 
human contact.
    The management staff of the National Park Service has apparently 
rejected the mission of the Recreation Area, which was described 
eloquently in the visionary 1978 Act that created the Recreation Area. 
It states the goal of Congress as ``to develop recreational facilities 
including picnic areas, hiking, biking and equestrian trails for public 
enjoyment and to develop historic sites within the Park that represent 
California's cultural vernacular including the various ranches, old 
homesteads, movie sets, etc.''
    If you read the mission statement for the Recreation Area taken 
from the 2003 Annual Plan, it does not even include the word 
``recreation''. Instead it claims ``The SMMNRA exists to conserve an 
ecosystem.'' They have in effect repealed the designation approved by 
Congress.
    If you want to understand why we have a facilities maintenance 
crises, you need to understand the role that conservation biology plays 
in the Park Service. Conservation biology is a sub-discipline of 
biology that focuses exclusive on preserving natural habitats and 
returning them to pre-Columbian conditions. The primary goal of 
conservation biologists is to remove all evidence of ``human 
disturbance''.
    The public policy effect of this is that any recreation facility 
located in what is considered a ``sensitive area'' will not be 
maintained and is intentionally scheduled for deterioration and 
eventual removal.
    As an illustration of this, according to the SMMNRA's 2003 Plan, 
twelve of the 27 ``historic structures'' are rated in FAIR to POOR 
condition. They only plan to restore one of them.
    The fact that these facilities are being managed out of existence 
is evidenced by the staffing and resource allocations of the same 2003 
plan.
    While 14 staff members are maintenance workers, 18 are full time 
conservation biologists and ecologists engaged in devising ways to 
remove visitors from the recreation area.
    Of the 22 goals stated in the Annual Plan, only two relate to 
visitor services and 20 are goals designed to ``restore targeted lands 
disturbed by prior physical development or agricultural use''.
    Among the specific activities on which appropriations are spent 
are:
    <bullet> The removal of an avocado orchard in Zuma Canyon and 
restoration of a coastal sage scrub plant community in its place;
    <bullet> Containing disturbances to 29,000 acres of endemic 
vegetation on non-parkland;
    <bullet> Monitoring development hearing notices for and testifying 
and submitting written comments on targeted private developments;
    <bullet> Removing ``exotic'' vegetation on 80 acres of grassland; 
and
    <bullet> Inventorying, measuring, photographing, and monitoring 
all threatened and endangered species.
    The plan goes on to dictate that ``facilities must be maintained in 
a relatively primitive manner to preserve the visitor experience. The 
only modifications to this environment would be for the purposes of 
protecting the resources from the impacts of use...'' It also says, 
``trails and recreation would be relocated away from sensitive areas.''
    If Congress expects to see improvements in facilities maintenance, 
they are probably going to have to amend the General Management Plans 
of every Park Service operating unit in the nation. Undoubtedly, they 
have language similar to that contained in our local plan. The SMMNRA 
plan explicitly prohibits facilities maintenance in 80% of the area, by 
classifying it as ``low intensity'' in which all evidence of human 
disturbance is to be removed.
    Today, we have a National Recreation Area that has physically 
surrounded small private property owners to lock them out of their 
land. The Park Service will not follow through on efforts to acquire 
the properties and they oppose the landowner's efforts to seek 
approvals to develop their lands.
    They have also chosen to ignore the mandate of Congress, and the 
voters, who provided the land acquisition funds in the first place, to 
order to withdraw those lands from public use.
    For all other property owners, they are pursing a ``death-by-
regulation'' strategy to diminish the value and usefulness of their 
land. They have limited the landowner's ability to clear brush for fire 
purposes, imposed Environmentally Sensitive Habitat and Significant 
Ecological Area designations to limit improvements, adopted view-shed 
and watershed protection policies and a host of other constraints to 
further limit land improvements.
    The NPS also conspires with other local agencies such as State 
Parks, Los Angeles County, the California Coastal Commission and the 
Regional Water Quality Control Board to frustrate the efforts to 
private landowners to use their land.
    What would we recommend to resolve some of these issues?
    First, recreation areas should be operated for visitors, not 
managed like National Parks. Clear distinctions need to be made between 
the definition and purposes of National Parks, National Recreation 
Areas, National Monuments, Wilderness and other Federally designated 
lands. We have been very disappointed in the cookie cutter approach to 
our new General Management plan. NPS took the attitude that what's 
needed for this park, is what they have always done elsewhere. No need 
to look further. The Plan does not reflect local priorities. It didn't 
mention all the private recreation facilities and never discussed 
partnerships to expand those services and facilities. Many of us have 
discussed the idea of transferring the NRA responsibility to another 
agency that would be more comfortable with the needs of an urban 
recreation area.
    Second, there are dozens of landlocked and hardship parcels that 
should be acquired from their many willing sellers. Some funds need to 
be made available for this purpose. If Congress is reluctant to specify 
the exact parcels to be acquired, then funds should be directed to 
those areas where public agencies already own large percentages of the 
acreage, and they should not be allowed to spend the dollars acquiring 
land in new areas.
    Third, this Committee should look carefully at the agency 
maintenance budget and understand the ``maintenance'' definitions used 
by the NPS. There is a mindset in the Service that conservation is also 
maintenance. There is also an effort by some to systematically remove 
existing improvements in order to ``restore'' or ``rewild'' many of 
these areas. In some cases, not spending dollars on plumbing, fixing 
the roof, repaving the parking lot is an intentional decision designed 
to produce or hasten deterioration and planned obsolescence of existing 
facilities. We don't believe that this management approach is 
appropriate for an urban recreation area.
    Fourth, we need to go slow on any NRA expansion plans given the 
difficulty in managing that which we already have. It serves no public 
use in the urban area to draw more boundaries around land for which 
there are no acquisition, development or maintenance dollars. We need 
to resolve the land acquisition issues first.
    Finally, Congress should consider the adoption of a RECREATION 
ACCESS BILL OF RIGHTS to assure the taxpayers that they will be able to 
access and enjoy the lands set aside with their tax dollars. One 
component of this Bill of Rights should be the mandatory development of 
a publicly reviewed visitor use and access plan before each major land 
acquisition. We believe that the use of public funds for purchase of 
private lands demands some level of public access and use. And we 
believe the public is entitled to know what that is going to be before 
the funds are expended.
    Thank you for your time Mr., Chairman. I'll be happy to answer any 
questions.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Lewis. I appreciate that 
testimony. Thank you very much.
    Next is Mr. Chuck Cushman, who is the Executive Director of 
the American Land Rights Association, from Battle Ground, 
Washington. Mr. Cushman, welcome to the Subcommittee, and 
please begin your testimony.

 STATEMENT OF CHUCK CUSHMAN, EXECUTIVE DIRECTOR, AMERICAN LAND 
         RIGHTS ASSOCIATION, BATTLE GROUND, WASHINGTON

    Mr. Cushman. Thank you very much, Mr. Chairman, for the 
opportunity to testify today.
    Just by way of background, my father was a Ranger in 
Yosemite National Park, and I grew up there and have been 
associated for over 50 years. I'm also an in-holder there. I 
was a volunteer as a kid in what is now Channel Islands 
National Park, and also in Olympic National Park, and in 
Yosemite. I was also in the first Student Conservation Corps in 
1959 and a member of the Park Service Advisory Board from 1981 
to 1984. I visited most parks where land acquisition takes 
place.
    There are lots of good people that work for the Park 
Service and a lot of people striving to do good work, but I 
guess I would start my testimony and say that the Park Service 
thinks it is a great agency because it manages great places. 
But, the record, I suspect, tells a different story.
    First on maintenance. The testimony I just heard was 
tremendous, and earlier from the GAO, I mean there's a stack of 
GAO reports going back to 1981 documenting maintenance 
shortfall and the inability of the Agency to focus enough 
resources in that direction, instead of prioritizing resources 
toward land acquisition or toward other things. We commend the 
Administration for their trying to change the emphasis, use 
some LWCF funds and other funds to try to mitigate the backlog 
and work toward improving visitor services and maintaining the 
wonderful crown jewels in the rest of the parks that we have 
now.
    And, there is a big distinction. He talked about National 
Recreation Area versus National Park. If you sent a letter to 
every Superintendent in the country asking if they had a copy 
of the legislative history of their parks, chances are they 
don't have it in the park and have never read it. So, they 
manage them all the same. A guy gets transferred from Yosemite 
to a National Recreation Area, he manages it just like he did 
the other place, no different. So, somehow we've got to tighten 
that up.
    The maintenance process in this country, I've heard various 
estimates from $2 billion, $5 billion, and even as high as $10 
billion from the former Chairman of the House Appropriations 
Subcommittee. The water, sewer, employee housing, roads, 
trails, visitor service areas, there's a whole string of GAO 
reports documenting this, but I think our previous testimony 
has eloquently stated the shift away from visitor services and 
a deliberate decline in an effort to put the money--I mean, 
they do like building things, so if they can have fancy 
buildings that's good, but they are not so energetic about 
taking care of stuff they've already got. It's a huge problem.
    And land acquisition just adds to it, and there's a 
tremendous amount of money wasted in the land acquisition 
process. I wish there was an audit of each park about the 
appropriateness of these expenditures, because if you went and 
look at the millions that are being wasted across Service wide, 
and I'll give you a couple of examples in a minute, but every 
time the Park Service buys an acre of ground it means 
additional maintenance costs, every home, ranch, farm, added to 
every new National Park or Recreation Area adds more cost. And 
then they build in costs to the acquisition process in Point 
Reyes National Seashore, for example, where the idea was to 
maintain the pastoral ranching kind of atmosphere in Point 
Reyes, yet they strangled, and they had a whole bunch of these 
working ranches and dairy farms, but the Agency over the last 
25 years has strangled these entitles, forced them ultimately 
out of business in many cases, so that I think only one or two 
operations continue out of that, and the rest of them are 
rentals, if they are in shape to be rented. These people have 
no incentive to invest, so in order to maintain what Congress 
intended you folks have to--we have to pony up the money to 
maintain these, whereas, if the original farmer was there and 
he was encouraged, then he would invest and he would take care 
of it as people who take care of the land do.
    I'm going to-another bizarre example of this kind of 
wastage, the obsessions with the Park Service to acquire land, 
and they buy out the original owners, and in process destroy 
the original culture. And then, somebody at the local level 
figures out that they need to, in order to do what Congress 
intended, or to present a good view to the public, the houses 
need to be painted, the fields need to stay mowed and planted, 
so they bring in renters to rent these farms. And, of course, 
again they don't have the interest in investing and they don't 
put the investment. So again, the cost falls back on the 
taxpayer. If they let the original people in there, with 
alternative agreements, easements, all kinds of things, they 
would have been far better off.
    In some cases, it's so bizarre, in some cases the Agency 
brings back people so they can make it look what it was like 
when the people used to live there. Very strange.
    I'm going to give you three examples of land acquisition 
abuses. Saddleback Ski Area in Maine. Here was a wonderful 
facility. It was the largest employer of the local community 
originally in Maine, and the Park Service spent 20 years 
harassing the landowner, preventing him from upgrading his ski 
area, putting improvements in, it was only through our 
intervention and the intervention of both parties Senators and 
Congressmen in Maine, that ultimately got it resolved. But, for 
20 years, and they largely destroyed the ability of that ski 
area to do what it could have been, and thus, tremendously 
impacted the local economy, all over a 4-foot wide trail and 
willingness to designate where that was and get off the 
landowner's back.
    A second example is the Pilgrim family going on in Alaska 
right now. This starts out with a land acquisition case, in 
which the Park Service wanted to buy the land, lost out, and so 
the Park Service has since blocked them from access to their 
property, and it's developing into a huge controversy. The back 
of your testimony I showed you a picture of the swat teams the 
Park Service has brought in, but relating to today's testimony, 
the Park Service spent nearly $500,000 in the last few months 
sending swat teams and special investigators up there, and they 
cut a cut line through virgin country two miles long and 12 
feet wide, far exceeding any damage the Pilgrims may have done 
on a road that's considered RS2477 by the State of Alaska.
    A final example, Donald Scott, right here in Santa Monica 
Mountains. The Park Service wanted his land. He didn't want to 
sell it. The Superintendent was real enthusiastic. Finally, he 
claimed there were drugs on the property, got the local police 
officials and the Park Service went out there with guns. Mr. 
Scott was woken up in the middle of the night, he had a gun in 
his hand. Apparently, they didn't identify themselves well, he 
never pointed it at them, it didn't matter, they killed him in 
front of his wife, and they still didn't get the property. They 
had hoped to get it through asset forfeiture.
    Well, that's a quick summary. I'll be glad to take any 
questions.
    [The prepared statement of Mr. Cushman follows:]

       Statement of Charles (Chuck) Cushman, Executive Director, 
                    American Land Rights Association

    Thank you, Mr. Chairman, for the opportunity to testify today. I am 
Chuck Cushman, Executive Director of the American Land Rights 
Association (ALRA) since 1978. My father was a ranger for the National 
Park Service and I served the Park Service in the second Student 
Conservation Corps in Olympic National Park in 1959. I also served as a 
volunteer with the Audubon Society at what is now known as Channel 
Islands National Park. My son worked for the Park Service in the living 
history center in Wawona, Yosemite National Park.
    I was appointed by President Ronald Reagan to the National Park 
System Advisory Board from 1981 to 1984. I have personally visited most 
Park Service areas where land acquisition has taken place. The ALRA 
Website www.landrights.org contains a wealth of information, 
documentation and examples of abuses by the Park Service in their 
continuing land acquisition process.
    The American Land Rights Association, formerly the National 
Inholders Association, represents private landowners throughout the 
United States. Of special interest are those people owning private land 
or other interests within Federal boundaries or who are affected by 
Federal statute, such as the Endangered Species Act and various 
Wetlands regulations. ALRA has over 22,000 members in 50 states. There 
are an estimated 1.2 million inholders nationwide.
    Inholders are landowners in National Parks, refuges, forests and 
other Federal areas, recreation residence cabin owners and other 
special use permittees in National Forests, ranchers in areas managed 
by the Bureau of Land Management and Forest Service, small miners on 
Federal lands, inholders in and adjacent to FWS Wildlife Refuges and 
many other types of rights holders. They are also people who are 
impacted by the management, regulation of, and access to Federal areas.

The Park Service thinks it is a great agency . . . because it manages 
        great places. However, the record shows something else.

Our Parks and the Park Service Are Being Damaged
    The Park Service rarely undergoes real oversight into their on-the-
ground land acquisition and management activities. The loss is to the 
Park Service. Because they receive little oversight, the Park Service 
feels it is immune from criticism. It can get away with anything. 
People who don't have to compete generally fail to be the best they can 
be. Congress, the Administration and yes, even the environmental 
groups, are cheating themselves and the American public out of a better 
Park Service.

SUMMARY
    <bullet> Maintenance is a critical shortfall in managing our 
National Parks and other Park Service areas. The country only has so 
much in financial resources. The NPS cannot take care of what it 
manages now. Land acquisition only makes the problem worse.
    <bullet> Reports over the past twenty years by the General 
Accounting Office document an ever increasing trend of poorly 
maintained National Parks. From an estimate of $2 billion in 
maintenance backlog in 1981, the estimate by some seems to indicate 
that the backlog may approach $10 billion or more. It does not make 
sense for this country to buy more land when it cannot take care of 
what it already owns.
    <bullet> Land acquisition has always been used as a weapon to 
intimidate, regulate and control private landowners.
    <bullet> Land acquisition destroys the culture and history of the 
U.S., often driving out old families. The Park Service is essentially 
the curator of our nation's history and culture. Yet, Park Service 
practice in the past has been to buy out and destroy much of our 
cultural heritage. Sometimes the NPS discovers this problem at a local 
level and attempts to bring renters in to make it look like it did when 
the people used to live there (Cuyahoga and others). But the NPS, as a 
whole, continues down the same path.
    <bullet> Why are inholder families targeted for acquisition and 
removal? Senator Orrin Hatch once referred to this process as 
``cultural genocide.'' Why cannot Federal areas be managed with 
families and communities still there? Why this hysterical rush to wipe 
out this cultural resource? Hundreds of small rural communities in 
existing Federal areas have been damaged and some have been wiped off 
the map.
    <bullet> Special Interest Groups seek to designate hundreds of 
areas of private land as new government reservations. It will never 
stop. Just look at their current attempt to convert the 26 million-acre 
Northern Forests of Maine, New Hampshire, Vermont and New York into new 
Federal parks, refuges and other reservations of various kinds. This 
means hundreds of millions of additional dollars for land acquisition 
and a larger maintenance backlog.
    <bullet> Hundreds of millions of dollars of private land is taken 
off the tax rolls, forcing local taxes up. The taxes for those people 
who are not acquired will go up forcing some to sell, others not to 
invest and generally place a negative push against community 
development.
    <bullet> The basic tax base of many jurisdictions is often damaged 
or destroyed by Federal land acquisition. Imagine the surprise in Maine 
for county commissioners--when they went to bed they had a tax base. 
They woke up the next morning to find that the Nature Conservancy had 
purchased a huge easement covering most of the county from a forestry 
company and the county no longer had a future. A scene repeated several 
times in Maine in recent years. The goal of TNC is to ultimately buy 
the land and rights from the forestry company and then sell the entire 
project to the Park Service or some other agency.
    <bullet> The Payments-In-Lieu-of-Tax Program, PILT, has never been 
fully funded by Congress. Local communities don't get near enough money 
to replace the tax revenue they lost to Federal land acquisition. What 
is worse, PILT is essentially a ``snapshot'' concept where future 
payments are based on the value of land as of the date of acquisition. 
A county that must meet the needs of 1999 gets payments based on 1976 
values for example.
    <bullet> Federal land acquisition will help buy out new mining 
ventures, a vast array of the timber supply and ranching operations all 
over America. Thousands of jobs will be lost and with them a tremendous 
loss in economic opportunity and vitality. Rural communities don't take 
much economic upheaval to permanently damage the economic ecosystem.

Maintenance and the Parks
    The American Land Rights Association supports the Bush 
Administration's policy to not buy land they cannot take care of. They 
should not use funds that would expand their maintenance obligations 
through land acquisition. Instead, they should seek to reduce the 
massive maintenance backlog that has been suggested by GAO and others 
to be anywhere from 5 to 10 billion dollars.
    Land Acquisition undermines and destroys communities. It often 
takes away the future. It destroys the tax base. Gradually, it can, and 
often does, tear apart otherwise vibrant communities. It cuts off 
access to other lands.
    There has been a string of reports by the General Accounting Office 
over the past twenty-plus years suggesting an ever-rising maintenance 
backlog in our nation's parks. Beginning in 1981 the GAO urged that 
more funds be diverted to bring current many years of differed 
maintenance. Everything from water systems, sewage systems, roads, 
large and small safety concerns and many others go unfixed. Housing for 
park personnel in some parks is well below common standards.
    The GAO criticized the NPS for having pit toilets in certain areas 
in Yosemite. In one example that we are familiar with, the pit toilets 
at Bridal Veil Fall in Yosemite Valley were a constant source of smells 
and filth at the place where most visitors come for their first stop as 
they enter Yosemite.
    After many years of complaints, the agency finally replaced these 
pit toilets with better facilities, at least on the outside. But there 
has often been little effort to maintain these facilities. As a result, 
the smell is very often overpowering. The agency is always happy to get 
money to buy things but not nearly as eager to keep them up.
    This is true in land acquisition as well. Houses are purchased from 
landowners being pressured to sell in a hurry by the Park Service and 
then left standing as inducements to the drug culture and vandalism, 
jeopardizing neighborhoods and creating health hazards. This situation 
goes on for years. For example, now, as we speak, houses that were 
purchased under threat of condemnation five years ago are being removed 
in Indiana Dunes National Lakeshore. Even when the houses are razed, 
the foundations may sit for many more years, supposedly because of the 
lack of money. It appears the maintenance is not a priority to the Park 
Service.

Land and Water Conservation Fund--No Money For Maintenance
    The General Accounting Office, the ``non-partisan'' investigative 
arm of Congress, has released several reports over the past 20 years 
that say Park Service superintendents believe there is a shortfall in 
maintenance funding ranging in the billions of dollars. Most of the 
money for Federal agencies from the Land and Water Conservation Fund 
can only go for buying land. We should be able to take care of what we 
already own. Congress should amend the LWCF to encourage maintenance-
related projects.
``Those That Fail to Remember History Are Bound To Repeat It''
    To date, little has been done by the Federal agencies to respond to 
the following reports by the General Accounting Office critical of land 
acquisition policies and practices carried out by those agencies. In 
large measure, the response by Congress has been to give the Park 
Service, Forest Service, Fish and Wildlife Service and Bureau of Land 
Management less money to buy land. That greatly reduces the problem. 
More money will start the problems all over again.
    We're reminded of the Clinton campaign motto in 1992, ``It's the 
Economy Stupid.'' In the case of land acquisition, ``It's the Money 
Stupid.'' The scope and harm caused by land acquisition is simply a 
function of how much money the Federal agencies get and the type of 
oversight they receive.
    Today there is largely a new generation of Members of Congress and 
staff who do not remember the horror stories of the 60's, 70's and 
80's, and even the 90's. Most Members of Congress don't remember the 
days when many Members of Congress had to become a management 
consultant to the Park Service because the agency was unable to solve 
its conflicts. Unfortunately, some Members of Congress still must 
function in a management capacity.
    Two recent examples include Saddleback Mountain Ski Area in Maine 
and the Pilgrim Family in Alaska. At Saddleback, for over twenty years 
the landowner was unable to get the Park Service to resolve the route 
of the Appalachian Trail. Without Congressional intervention, there was 
no hope. The owner of the ski area was prevented from upgrading and 
expanding his potentially world class facility thereby strangling a 
local community because the Park Service continually refused to settle 
on a trail route. The Senators from the state finally intervened and 
forced a solution on the NPS.
    The Pilgrim Family in the Wrangell St Elias National Park and 
Preserve in Alaska is being starved out by the Park Service as we sit 
here today in a controversy that started with a failed land acquisition 
attempt by the Park Service the use of an RS 2477 Right-Of-Way by the 
family to bring in supplies. The agency seems completely unable to be 
good neighbors. They appear to want to starve the Pilgrim Family out in 
order to acquire their land.
    These reports are the most current reports on a problem that was 
greatly reduced with the reduction in funding. Since Congress has 
appeared more supportive of additional funding in recent years, these 
reports must be examined carefully to try to make sure any potential 
policy changes and legislation does not cause a repeat of the same 
mistakes.
General Accounting Office (GAO) Reports About Land Acquisition and 
        Maintenance
     1) ``The Federal Drive To Acquire Private Lands Should Be 
Reassessed'' (CED-80-14) (December 14, 1979).
     2) ``Federal Land Acquisition and Management Practice'' (CED-81-
135) (Sep. 11, 1981).
     3) ``Lands In The Lake Chelan National Recreation Area Should Be 
Returned To Private Ownership'' (CED-81-10) (Jan. 22, 1981).
     4) ``The National Park Service Should Improve Its Land 
Acquisition and Management At Fire Island'' (CED-81-78) (May 8, 1981).
     5) ``Federal Protection of Wild and Scenic Rivers Has Been Slow 
and Costly'' (CED-78-96) (May 22, 1978).
     6) ``Federal Land Acquisitions By Condemnation--Opportunities To 
Reduce Delays and Costs'' (CED-80-54) (May 14, 1980).
     7) ``Limited Progress Made In Documenting and Mitigating Threats 
To Parks'' (RCED-87-36) (February 1987).
     8) ``New Rules for Protecting Land In The National Park System--
Consistent Compliance Needed'' (RCED-86-16) (October 16, 1985).
     9) ``National Park Service: Condition of and Need for Employee 
Housing'' (RCED-93-192) September 30, 1993.
    10) ``National Park Service: Land Acquisitions Involving Nonprofit 
Conservation Organizations''--(RCED-94-149) June 15, 1994.
    11) ``Difficult Choices Need to be Made About the Future of the 
Parks'' (RCED-95-238) 8/30/95
    12) ``National Park Service: Efforts to Identify and Manage the 
Maintenance Backlog'' (RCED-98-143) May 14, 1998.
    13) ``South Florida Ecosystem Restoration: A Land Acquisition Plan 
Would Help Identify Lands That Need To Be Acquired'' (RCED-00-84) April 
5, 2000.

PBS Frontline Documentary, ``For The Good Of All''
    The Committee should watch the hour-long documentary, Public 
Television's ``Frontline'' about the Cuyahoga Valley NRA in Ohio which 
aired on June 6, 1983. The film could have been made about many other 
parks. It could be made today in the Wrangell St. Elias in Alaska.
    This tragic film documents the broken promises by the Congress and 
the Park Service in the Cuyahoga Valley National Recreation Area 
between Akron and Cleveland, Ohio. Only 29 homes were to be taken for 
the park. The law even promised the use of easements. Yet the number of 
homes purchased was well over 300, the small community was destroyed, 
churches and schools closed, their tax base eroded by unnecessary land 
acquisition. Cuyahoga Valley could have been a success without much 
land acquisition.
    The ``willing buyer, willing seller procedure of acquiring land 
touted by park officials is `meaningless' and a more proactive method 
is generally used,'' said William Kriz, chief of Land Acquisition in an 
article in the Concord Journal in 1988.

SOME SPECIFIC CASE STUDIES FROM THE 70'S.
    Lake Chelan National Recreation Area in Washington State--It was 
created at the same time as the North Cascades National Park. Lake 
Chelan was made an NRA so that the small community of Stehekin could 
continue its pioneering subsistence way of life. It was necessary for 
the community to have access to wood, water and power to continue.
    Lake Chelan offered a unique opportunity to provide the 
handicapped, elderly and children a truly wild experience at the end of 
a 40-mile boat ride, the only regular method to get into Stehekin. 
There were only 1,600 acres of private land. According to the GAO, the 
Park Service purchased most of these, cutting off the ability of the 
community to provide for many visitors.
    In fact, it has been said that by 1980 there were half as many beds 
available to disadvantaged recreationists as there had been in 1968 
when the area was made a National Recreation Area. The Park Service had 
purchased some of the facilities and closed them down.
    Lake Crescent in Olympic National Park----There had been more than 
fifteen recreation resorts and destinations at Lake Crescent before the 
Park Service went on its land acquisition rampage. Now there are only 
two. How many handicapped, elderly and children will not get that fine 
experience they would have had with those facilities still operating?
    The Buffalo National River in Arkansas--While preparing for a 
debate on the ``Today'' show on NBC in 1988 between myself and Denis 
Galvin of the Park Service, the NBC staffers found that the Park 
Service had started out with 1,103 landowners. The law clearly 
encouraged easements and did not intend to destroy the special cultural 
communities along the river. The culture was so unique it was featured 
in National Geographic. However, NBC said there were only eight 
landowners left in 1988, the 20th anniversary.
    I served with former Parks Committee Chairman Roy Taylor on the 
National Park System Advisory Board and Council in 1982. He told me 
personally that Congress never intended for the people of the Buffalo 
to be destroyed.
    St. Croix River in Minnesota--According to a 1978 report on rivers 
by GAO, they found the Park Service had acquired 21,000 acres when they 
were only supposed to acquire 1,000 acres of access sites according to 
the legislative intent.
    St. Croix River--Another GAO report issued in 1979 found the Park 
Service had 2,100 acres under condemnation, which was 900 acres over 
the legal limit. The Park Service agreed but said that when they 
concluded the condemnation trials on people enough to reach the limit, 
the rest would receive scenic easements.
    St. Croix River--Park Service was found guilty by the Justice 
Department of using project influence to pay landowners less than fair 
market value. Justice planned to make the agency go back and reappraise 
the land and pay for what it had taken illegally. American Land Rights 
had to pressure the Justice Department to follow through.
    St. Croix River--Park Service is now over its legal limit for using 
condemnation to buy fee title. They are now threatening landowners with 
excessively restrictive public access easements that only leave the 
landowner with the right to pay taxes and liability for personal 
injury.
    St. Croix River--Ironically, one of the best examples of the use of 
easements was not by the Park Service. The Kettle River is a tributary 
under the responsibility of the State of Minnesota. The state purchased 
land protection in the form of easements for a fraction of the average 
cost paid by the Park Service in adjacent areas.
    Boundary Waters Canoe Area, Minnesota--The Forest Service used LWCF 
funds to buy up and remove many resorts throughout the whole region of 
Minnesota. The result was not more recreation but recreation 
transferred to the young and healthy at the expense of the elderly, 
handicapped and children. There was a massive loss of access to 
traditional hunting and fishing areas further reducing broad-based 
family recreation.
    Voyageurs National Park, Minnesota--The Park Service admitted in a 
1979 GAO report that they had acquired enough land for the park from 
the timber companies and did not need to acquire all the private 
landholdings that dotted this sparsely populated area. The agency went 
on to acquire the inholders.
    Fire Island National Seashore in New York--The Park Service was 
found guilty by the GAO in a 1981 report of acquiring an expensive home 
completely surrounded by other homes and not available for any form of 
public recreation. The Park Service justified its condemnation simply 
because the landowner had built his deck a little too large and had 
received a zoning variance from the local town. The cost to the 
taxpayer was $100,000 for nothing.
    C & O Canal in Maryland--The Park Service threatened all landowners 
with condemnation in the years around 1974. Even though they were 
required to offer landowners a life tenancy under the 1969 Uniform 
Relocation Act, the agency failed to provide each landowner notice of 
his rights because park officials wanted to limit any use and occupancy 
reservations to 25 years. The result is that now the landowners are 
fighting to get what was fairly theirs. Their Congressman, Roscoe 
Bartlett, has worked tirelessly to try to save the former landowners 
from Park Service eviction.
    Mt. Rogers National Recreation Area in Southwest Virginia--A Forest 
Service area created in 1966. Congress had specified that the agency 
should acquire 39,500 acres, 40% of them in fee title that would have 
allowed the communities to stay. When questioned by congressional 
investigators and the author in 1979 about how many acres they had 
purchased in fee and how many easements, they responded that they had 
purchased over 26,000 acres in fee and no easements. The agency thought 
Congress didn't really mean what they said in the law. They viewed it 
as just a suggestion. It took a surprising amount of hard work by 
former Congressman Bill Wampler of Virginia to stop a massive new round 
of condemnation actions planned by the Forest Service.
    Yosemite National Park in California--76 year old James Downey, a 
survivor of the 1906 San Francisco Earthquake, was threatened with 
condemnation in 1971 because he wanted to add a bathroom. He had no tub 
and had a double-size septic tank and there was a covered breezeway 
under which the bathroom was to be built. There would be no new land 
coverage. The Park Service said what he was doing was an incompatible 
act and he would be condemned. They came back to him two weeks later 
after realizing their political insensitivity and said that if he would 
sell them his home, they would lease it back to him and then it would 
be OK to build his bathroom. Was the goal to stop the bathroom or buy 
the house?
    Yosemite National Park--Harold Tischmacher's home burned down in 
December 1977. When he tried to rebuild it on the same foundation, the 
Park Service started condemnation proceedings because they said it was 
an incompatible act. He was saved by congressional intervention by 
Congressman Bernie Sisk (D-CA).
    Unfortunately these cases are just the tip of the iceberg. Hundreds 
and perhaps thousands more have not been recorded. Investigators can 
find these kinds of stories at nearly every park or other special 
designation Federal area.

NO LAW TO PREVENT THESE ABUSES HAS BEEN PASSED.
    In the 1980's condemnations went down because the Reagan 
Administration opposed the use of this tool wherever possible. Offshore 
oil and gas money was reassigned to other social priorities by sending 
it directly to the treasury.

THERE WERE ABUSES IN THE 80'S
    Foresta Fire, Yosemite National Park--In the late 80's a fire got 
out of control in Yosemite National Park, roared up a canyon and wiped 
out the entire village of Foresta, about 80 homes. Park Service 
Superintendent Michael Findley had turned down help from the Forest 
Service and the state forestry service. After the fire, Findley 
requested that Congress give him immediate permission to condemn all 
the home sites because he could buy them cheaply since fire insurance 
would pay for the lost houses. When he was denied, he then set up as 
many roadblocks as possible to prevent the landowners from rebuilding, 
thereby forcing some to sell.
    Grand Teton National Park in Wyoming--In an important national case 
a landowner had been trying to sell his 160 acres to the Park Service 
for 10 years. They've had the money. The problem was the bad faith 
negotiations extending all the way up the highest levels of Park 
Service management. The landowner finally had to threaten to subdivide 
his land in order to get them to make the purchase. The landowner did 
not want to subdivide and had been a good steward. The agency condemned 
him. During the next five years this case took, the landowner offered 
to settle with the Park Service and it was agreed to right up to the 
Directors level. William Mott overturned the agreement for $1.8 
million. The case then went to trial and ultimately cost the government 
over $3.2 million, far more than the agreed upon settlement. The judge 
was not complimentary to the bad faith negotiating by the Park Service. 
To make the case more bizarre, this piece of land was the highest 
priority acquisition for the Park Service in the country and they still 
could not manage to negotiate in good faith.
    Santa Monica Mountains NRA in California--In the Murphy Duane case 
the landowner spent years going through all the vast permitting process 
and Coastal Commission approval to get to the point were he could build 
his dream home. The Park Service strategy was to let him go. Only when 
he had spent thousands of dollars and man-hours to get local approval, 
did they say they were going to condemn his land. Intervention by 
Members of Congress stopped this abusive example.
    Chesboro Canyon, Santa Monica Mountains NRA in California-----The 
Park Service had enough money to purchase this Trust For Public Land 
Property for $8 million leaving hundreds of small landowners in another 
area of the NRA laying helpless and strangling. This is the exact kind 
of case that gives the impression that lots of landowners want to sell 
and that there is the need for more land acquisition money.
    The plain fact is that if the Park Service had used its money 
wisely to buy hardships and willing sellers they knew existed, there 
would be no cry for more money. It was lobbying by the Trust For Public 
Land that allowed the $8 million to go for property the Park Service 
did not need to purchase thereby preventing the truly needy landowners 
from being paid.
    Golden Gate National Recreation Area, Sweeney Ridge in California--
The Trust For Public Land acquired an option on this property for $8.5 
million. They then negotiated a sale to the Park Service for $9.6 
million. The Park Service really did not want to buy the property at 
all. Both the Carter and Reagan Administrations agreed that the land 
was not of park quality and should not be purchased.
    However, as is often the case with large land trusts, TPL 
orchestrated a political campaign and forced a political confrontation. 
They obtained appraisals to show that the land was valued at anywhere 
from $21 million to $24 million. The landowner, part of a large oil 
company, hoped to obtain a large tax deduction. Our investigation 
showed the land worth from $7 to $10 million. Interior Secretary Bill 
Clark ultimately negotiated a sale near the $8.5 figure, due in part to 
our campaign against this unfortunate use of land acquisition funds. 
The figure was 8% of the entire land acquisition budget for the Park 
Service. Many other deserving landowners were left out because of this 
misuse of money. The problem is not that there wasn't enough money, but 
that the money was spent unwisely.
    Appalachian Trail, Hanover, New Hampshire--The Park Service, 
working closely with the Dartmouth Outing Club, attempted to use LWCF 
funds to buy a greenway around Dartmouth College. They did this by 
moving the Appalachian Trail over to make it go through the middle of 
farmlands rather than along the fence lines as they were supposed to do 
and using a 1,000 foot corridor to build their impact. They were found 
to be lying to Washington officials about their activities when called 
in to explain and ultimately had to move the trail back to the fence 
line and share the impact among adjacent owners. They were forced to 
use easements even though they tried to avoid using them. Only American 
Land Rights intervention saved their lands.
    Appalachian Trail, Sheffield, Massachusetts--Park Service ignored 
the Land Protection Planning Process and ran the trail through town 
without consulting local officials, holding hearings or meetings or 
producing a land protection plan for the area that had been shown to 
either local landowners or officials. In fact, the Park Service had 
deliberately rerouted the trail at the request of the green groups to 
run it through the land that was planned to be used for a high tech, 
low impact recycling plant the greens wanted to stop. The Appalachian 
Trail has often been used as a weapon. Park Service officials repeated 
this kind of abuse over and over along the Appalachian Trail.
    As in the earlier examples, this is the tip of the iceberg. When 
there is little oversight there is no reason for the agency to even 
attempt to obey the law. And they end up spending billions of dollars 
that do not have to be spent.

HOW ABOUT THE 90'S? THE ABUSES CONTINUED.
    Sleeping Bear Dunes National Lake Shore in Michigan--Riverside 
Canoes owned by Kathy and Tom Stocklen has been serving the public well 
for many years. Even the Park Service admitted they ran a good clean 
recreation business. But they would not sign over an easement type 
contract to the Park Service without compensation. The Park Service had 
already purchased two other canoe liveries and a campground either in 
condemnation or under threat of condemnation.
    Finally, in 1990, the Park Service condemned the Stocklens. After 
several meetings with Park Service officials in Washington, no one at 
the agency could justify the condemnation, yet it went forward none the 
less. Finally, in 1992 just before the election, American Land Rights 
planned a huge demonstration in front of the Interior Building in 
Washington, D;C. The Interior Department forced a settlement that gave 
the Stocklens back their land and compensated them for their attorney's 
fees prior to the demonstration.
    Sleeping Bear was originally set up as a National Recreation Area. 
That is what a National Lakeshore is. It is tough to have full access 
to recreation when the managing agency buys out all the services 
providing certain types of recreation.
    Moosehorn Wildlife Refuge in Maine--The FWS wanted to expand the 
refuge. They promised the local people they would only buy from willing 
sellers. The others relaxed. After the willing sellers had been 
purchased, the agency came back, denied they had ever said they would 
only buy from willing sellers, and began threatening condemnation. This 
is a pattern that repeats itself over and over again.
    Little River Canyon National Preserve in Alabama--Here is an 
example of pure politics at work. The former Congressman from the area 
essentially told the Park Service to find him a park in his district. 
He apparently needed another monument. Fortunately, the agency found 
the Little River Canyon, which we consider of national significance. 
The State of Alabama and the Alabama Power Company owned it. As usual, 
the Park Service wanted much more. They tried to include the homes and 
farms of over 500 nearby landowners. American Land Rights helped fight 
the proposal, which ultimately was settled by Congress using just the 
state and power company land. The cost to the Park Service was minimal. 
It was totally unnecessary to include the 500 landowners. This kind of 
expansionist process that is imbedded in the Park Service culture 
raises the cost of parks and hurts the taxpayer.
    Santa Monica Mountains National Recreation Area--Donald Scott 
killed. The Park Service had been after Scott's property for years. The 
Superintendent knew he was an alcoholic and used to come visit him with 
a six-pack of beer. The Park Service claimed he was growing marijuana 
on his property and brought in a swat team made up of Park Service, 
Ventura County Sheriff and other authorities. Whether it is true or 
not, it the common belief in Southern California that the Park Service 
hoped to claim Scott's property under the forfeiture laws in place at 
that time. Unfortunately, the Park Service and other agencies broke 
down the door, scared Scott who grabbed a gun and was holding it over 
his head when he was gunned down. The Park Service eventually paid a 
wrongful death payment as part of a multi-agency settlement. The 
property was sold to a private party.

2000 AND BEYOND. WHEN WILL THE ABUSES END?
    Appalachian Trail--Saddleback Mountain Ski Area in Maine--Time 
after time, for over 20 years, the family that owns Saddleback has 
tried to work out a settlement of the route for the Appalachian Trail 
so that they could modernize and complete their ski area. Bad faith 
followed by bad faith by the Park Service in negotiations continues to 
this day. In fact, Saddleback recently offered the Park Service twice 
the land they could condemn under law just to settle the matter. Yet 
Saddleback sits twisting in the wind. The losers are the family, the 
community that loses jobs and $40 million of much- needed economic 
activity per year for the region. The recreation ski community loses 
access to what would become one of the finest ski areas in America. The 
greens want new National Parks in Maine. It is hard to imagine why 
Maine or Congress would allow the Park Service to take over 5 to 10 
million more acres in Maine when they cannot seem to solve problems and 
get along on a simple trail.
    Wrangell St. Elias National Park and Preserve in Alaska--The 
Pilgrim Family of a mother, father and 15 kids are living a subsistence 
lifestyle in Alaska. The Park Service failed to offer enough money and 
the Pilgrims were able to buy 400 acres in the Wrangells. Since failing 
to buy the property, the Park Service has waged a culture war on this 
family that defies description. They have cut off their access, accused 
them falsely of many things, and spent more than the property cost to 
survey it and investigate the Pilgrim Family. While accusing the 
Pilgrims of damage while driving a bulldozer into town on a 13 mile 
dirt road for supplies (a common occurrence in Alaska), the NPS 
required a BLM Survey crew to destroy all vegetation within a twelve 
foot wide brush line around the Pilgrim property, a scar on the 
pristine landscape of Alaska two miles long.
    With winter coming, the Park Service has repeatedly refused an 
emergency permit to allow the Pilgrims to bring in supplies before the 
road becomes impassable during the winter. Please go to 
www.landrights.org for a complete review of the Pilgrim Family crisis.
Socio-Cultural Assessments--Histories
    In the early 80's a series of Socio-Cultural assessments were 
completed about a number of Federal land acquisition areas. These short 
histories were completed by Professor Kent Anderson and funded by 
several non-profit foundations. Those assessments which are really 
short histories focusing on land acquisition cover the Buffalo River in 
Arkansas, the Blue Ridge Parkway, Olympic National Park, Mt. Rogers 
National Recreation Area (Forest Service) and the Appalachian Trail 
(NPS). All of these can be viewed full text at www.landrights.org.

Trails Will Become the New Battlegrounds
    Congress is creating a number of new trails across the nation. It 
is trying to make sure there won't be massive land acquisition. Like 
night follows day, the Appalachian Trail will be the model.
    At first, each new trail is a model of cooperation with landowners. 
There are no threats. Deals are struck to run the trail across the land 
of willing participants. Eventually this arrangement gets too 
cumbersome so the trail society (like the Appalachian Trail Conference 
and all its local groups) lobby Congress to add land acquisition. 
Gradually, the power of the managing agency is ratcheted up as the 
lobbying intensifies. Because a trail is a long string of land, the 
trail clubs have the power of many Congressional delegations supporting 
them while the poor landowner only has one Congressman and two Senators 
and virtually no chance to fight back. The result is generations of 
anger and frustration as landowner after landowner loses his land. 
Examples along the Appalachian Trail are numerous.
    Another problem with trail management is that the support groups or 
clubs like the Appalachian Trail Conference largely run the agency in 
charge of the trail. Most park superintendents are routinely rotated 
from park to park. But in a few cases they develop fiefdoms and spend 
most of their careers in one place. The current management of the 
Appalachian Trail is one example. The current project manager has been 
at that one location for over 20 years. The Appalachian Trail 
Conference wants consistent power. They constantly lobby to keep 
``their'' person in charge. The result is bad management and political 
nest building that damages the Park Service and strains relations with 
local governments, landowners and others who must deal with trail 
management.

Park Service Has Taken the Land of Over 125,000 Landowners
    Approximately 125,000 landowners have already lost their land to 
the Park Service alone since 1966 because of the Land and Water 
Conservation Fund.

Land Protection Planning Process
    For a while, this was a trend for the better. Mostly related to 
funding. One of the true success stories of the Reagan Administration 
was the Land Protection Planning Process. The fact that the planning 
process is largely still in place testifies to the common sense nature 
of the policy. Unfortunately, the Park Service largely ignores the 
process, fails to keep up Land Protection Plans or submit them for 
public comment. The South Florida case is a current example.
    Responding to the severe criticism by the General Accounting Office 
in previous years, the Interior Department published the Land 
Protection Regulations in 1982. And many in the Park Service and Fish 
and Wildlife Service have made an effort to make them work.
    Land Protection Plans were supposed to help the Park Service and 
other Federal agencies obtain protection for more land at less cost. 
They were supposed to encourage the use of cost effective easements and 
other alternatives to fee acquisition. They were supposed to buy the 
least amount of an interest necessary to meet congressional objectives. 
They were supposed to prioritize their acquisitions so that the most 
critical were acquired first.

Congress Sometimes Requires A Willing Seller--A Good Idea
    The numerous General Accounting Office reports listed above have 
criticized the Park Service in particular for buying more land than 
they are supposed to; creating projects with huge cost overruns; not 
prioritizing their land acquisition so that they buy land they don't 
need instead or lands intended by Congress; failure to use easements 
and other cost effective protection alternatives; and failure to pay 
attention to the needs of local communities, landowners, and local 
government.
    Use of eminent domain or condemnation must be severely restrained. 
On the St. Croix River the Park Service exceeded its condemnation 
limit. It continued to threaten to condemn overly severe easements that 
include public access over a person's entire property instead of just 
river access as the law intended. Otherwise unwilling sellers have 
gladly sold rather than have nearly all the value of their land taken 
leaving them with little resale value but the right to pay taxes and 
have liability.
    Land acquisition money is used as a giant regulatory umbrella. The 
Niobrara River Wild and Scenic River had a provision that limited 
condemnation to 5% of the land. When asked by the author how they would 
use this limited condemnation power, the Park Service said they would 
hold back condemnation and threaten everyone with it to keep them from 
making unwanted developments to their property.
    The agency pays little or no attention to the legislative history 
of areas managed by them. Often these histories are not even in the 
park. They have never been read. The NPS manages a National Recreation 
Area and a National Park exactly the same. According to GAO, they are 
just as apt to buy land they don't need as land that is critical. They 
assume they will buy it all anyway so why plan. Therefore, many 
condemnations take place that wouldn't have if more appropriate 
easements and other alternatives were used.
    A court will not examine the taking--it is assumed that if it is 
for a ``public purpose'' then it is OK. The power comes with the power 
to govern. Courts only ask two questions. Does the agency have the 
money and the authority to spend it? They never ask if they have the 
authority to spend it on that land or at that project.
    Therefore, the landowners cannot contest the taking. The Park 
Service uses condemnation as an abusive tool to intimidate. They know 
that the only thing that can stop them is congressional oversight and 
they have little to fear from that. Many landowners are squashed like 
bugs without a chance to fight back. Yes, they get paid. And sometimes 
they even get enough to replace what they had. But what is the price of 
land you don't want to sell?
    The Reagan and Bush Administrations held down condemnations and 
funding for mass condemnation, but even their Justice Department would 
not review the thousands of condemnations in process when they came 
into office. According to a report to Senator Ted Stevens by the 
Justice Department released in 1979, of 21,000 condemnations in process 
nationwide by all Federal agencies that year, the Park Service had over 
10,000 of them. That number is skewed somewhat by the Big Cypress 
Florida condemnations.
    Declarations of Taking, DT's, as they are called, are used by the 
Park Service as an abusive tool to intimidate and depress opposition to 
local land acquisition projects. They give the government immediate 
title to the property and can be used to force the landowner off the 
land in 90 days even if he has no other place to go. Small businesses 
and farmers have been especially hard hit by the use of this tool. The 
Park Service abuses of the Declaration of Taking process was so bad 
years ago that the Congressional Committees have required the NPS to 
gain approval from both authorizing committees and both appropriations 
committees before going ahead with a DT.
    In the past, the congressional committees have often approved a DT 
without ever taking the care to ask local elected officials or 
landowners whether a DT is appropriate. Some are, but most are not. The 
Resources Committee years ago was often counted on by the Park Service 
as an automatic sign-off to get a DT approved. It failed to investigate 
the facts. As a result the Park Service often gave Congress information 
that was not accurate. The Park Service did not have to tell the truth 
because it knew the Committee was not likely to check.
    Little motivation on the part of the Federal agencies and 
particularly the Park Service to use alternatives and easements to 
protect land. The GAO says that the Park Service objections to 
easements are more perceived than real. For example, on the St. Croix, 
(Kettle River Section) the State of Minnesota purchased hundreds of 
easements at a cost of 30% or less of fee title. On the St. Croix just 
a few miles away, the Park Service was condemning fee title costing far 
more money for the same kind of land. The difference in management is 
money. If they have enough money they don't have to negotiate. They 
take the easy way out. They don't have to be a good neighbor. They 
always threaten condemnation. They use condemnation. The use of a high 
percentage of appropriate easements would cut land acquisition costs by 
a minimum of 40% while saving valuable cultural communities. More land 
could be protected at less cost if Congress enforced the use of 
easements where they were appropriate.
    Public Law 91-646, the Uniform Relocation Act is supposed to 
protect landowners from overly aggressive bureaucracy. IT DOES NOT 
WORK. Funding for more land acquisition will turn loose powerful 
bureaucracies to prey on their own people. Money is the key. If the 
land acquisition agencies do not have quite enough money to do their 
job in the old way, they become creative and fiscally responsible. To 
some extent this has happened in recent years. Without very tight 
controls over land acquisition and the condemnation process, private 
land in rural America will face a grave threat at the hands of its 
government.
    Thank you again for this opportunity to address the Committee. I'll 
be glad to answer any questions.
                                 ______
                                 

    [An attachment to Mr. Cushman's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T9566.001
    

    Mr. Radanovich. Thanks, Mr. Cushman. There will be plenty 
of questions, too, after we are done with everybody's 
testimony.
    Mr. Matt Bloom, welcome to the Subcommittee. Matt is the 
owner of Kennedy Meadows Resort and Pack Station in Sonora, 
California. Again, Matt, welcome, and please begin your 
testimony.

STATEMENT OF MATT BLOOM, OWNER, KENNEDY MEADOWS RESORT AND PACK 
                  STATION, SONORA, CALIFORNIA

    Mr. Bloom. Thank you.
    Mr. Chairman, my name is Matt Bloom, and I've been guiding 
pack trips into Yosemite National Park for 19 years. I have 
owned Kennedy Meadows Pack Station for 6 years, and I've had an 
incidental business permit to guide pack trips into Yosemite 
National Park.
    Throughout the years, I've seen a shift in priorities in 
the Park Service. Originally, the Park Service used general 
fund money to protect the resources of the park and to provide 
a safe, quality recreational experience to the visitors. 
Recently, user fees for everything possible have been levied on 
visitors. The resulting problem is that more and more money is 
being spent on bureaucracy and expansion, versus on ground 
maintenance and improvements that benefit the payer of the fees 
and the taxes. I do not think that this is what the founders of 
the National Park System had in mind.
    Some specific issues that concern myself, my customers, and 
other visitors to the wilderness are: deferred maintenance on 
the trail system, closure of historic trails, safety, and the 
Park Service not doing the proper paperwork to issue the 
incidental business permits, putting outfitters in jeopardy of 
being sued by anti-horse groups and possibly being closed down.
    Traditionally, the park has had a very good train 
maintenance program, and they still do. However, the trail 
maintenance takes money and there seems to be less of it 
dedicated to maintenance each year. The lack of maintenance on 
trails causes safety concerns, resource damage, and unnecessary 
closure of historic trails. Many people can only visit these 
areas with the aid of horses and guides. A safe trail system is 
vital to the outfitter and guide operations. Recently, the Park 
Service chose to eliminate many historic trails from their map. 
After eliminating these, they made a rule that cross-country 
travel is illegal for horses, but not for hikers. This closed 
many areas to horseback visitors, and the justification used by 
the park was lack of funds for maintenance. I feel this is more 
of a preference on where to spend their money and not a lack of 
money to spend.
    All users, regardless of their method of travel, should be 
able to visit their national park that they paid for. I suggest 
that the Department of the Interior and the National Park 
Service concentrate on maintaining traditional uses and not 
expansion and new uses.
    In the spring of 2003, I was informed by the Park Service 
that my pack station would be strictly limited as to the number 
of people I could take into the park. The justification given 
was that the Park Service had not filled out the proper NEPA 
requirements for issuing incidental business permits. They told 
me that they were worried that environmental groups would sue 
because they hadn't done their work, so they limited our use in 
order to pacify them for the time being. This has a direct 
economic effect on my business as well as limiting the number 
of customers that I can take into the park. My customers are 
the public also, and they pay fees and should be entitled to 
visit their park.
    In closing, I'd like to say that there are many good people 
working for the Park Service and many doing the best they can. 
However, the people who support the parks want them taken care 
of and maintained and not closed off. Many people I know would 
support user fees if they knew that their money would go to on-
the-ground maintenance and improvements, and not expansion and 
bureaucracy.
    Thank you for hearing my testimony and allowing me to do my 
part in protecting the national parks.
    [The prepared statement of Mr. Bloom follows:]

             Statement of Matt Bloom, Owner and Operator, 
                Kennedy Meadows Pack Station and Resort

    Mr. Chairman: My name is Matt Bloom and I have been guiding pack 
trips into Yosemite National Park for nineteen years. I have owned 
Kennedy Meadows Pack Station for six years and we have an incidental 
business permit to guide pack trips into Yosemite National Park. 
Throughout the years, I have seen a shift in priorities in the park 
service. Originally, the park service used general park service money 
only to protect the resources of the park and to provide safe, quality 
recreational experiences to visitors.
    Recently, user fees for everything possible have been levied on 
visitors. The resulting problem is that more and more money is being 
spent on bureaucracy and expansion, versus on ground maintenance and 
improvements that benefit the payer of the fees and taxes. I do not 
think this is what the founders of the national park system had in 
mind.
    Some specific issues that concern myself, my customers, and other 
visitors to the wilderness are: deferred maintenance on the trail 
system, closure of historic trails, safety, and the park service not 
doing the proper paperwork to issue incidental business permits, 
putting outfitters in jeopardy of being sued by anti-horse groups and 
possibly being closed down.
    Traditionally, the park has had a very good trail maintenance 
program and they still do, however, trail maintenance takes money and 
there seems to be less of it dedicated to maintenance each year. Lack 
of maintenance on trails causes safety concerns, resource damage, and 
unnecessary closure of historic trails. Many people can only visit 
wilderness areas with the aid of horses and guides. A safe trail system 
is vital to the outfitter and guide operations. Recently, the park 
service chose to eliminate many historic trails from their map. Then 
they made a rule that cross-country travel is illegal for horses, but 
not for hikers. This closed many areas to horseback visitors, and the 
justification used by the park was lack of funds for maintenance. I 
feel this is more of a preference on where to spend money and not a 
lack of money to spend.
    All users, regardless of method of travel, should be able to visit 
their national park that they pay for. I suggest that the Department of 
the Interior and the National Park Service concentrate on maintaining 
traditional uses and not on expansion and new uses.
    In the spring of 2003, I was informed by the park service that my 
pack station would be strictly limited as to the number of people I 
could take into the park. The justification given was that the park 
service had not filled out the proper N.E.P.A. requirements for issuing 
incidental business permits. They told me that they were worried that 
environmental groups would sue, so they limited our use in order to 
pacify them for the time being. This has a direct economic effect on my 
business as well as limiting the number of customers I can take into 
the park. My customers are the public. They pay the fees and should be 
entitled to visit their park.
    In closing, I would like to say that there are many good people 
working for the park service and many doing the best they can. However, 
the people who support the parks want them taken care of and 
maintained, not closed off. Many people I know would support user fees 
if they knew that their money would go to on the ground maintenance and 
improvements, not expansion and bureaucracy. Thank you for hearing my 
testimony and allowing me to do my part in protecting the national 
parks for generations to come.
                                 ______
                                 
    Mr. Radanovich. Thanks, Matt, for your testimony. I 
appreciate you being here today.
    Next we have Ms. Courtney Cuff, who is the Pacific Regional 
Director of the National Parks Conservation Association. 
Courtney, welcome to the Subcommittee, and please begin your 
testimony.

 STATEMENT OF COURTNEY CUFF, PACIFIC REGION DIRECTOR, NATIONAL 
                 PARK CONSERVATION ASSOCIATION

    Ms. Cuff. Thank you. Thank you very much for the invitation 
to be here, although I have to admit that on a beautiful 
Saturday like this I wish we all could be out hiking in 
Yosemite.
    Mr. Radanovich. There you go, I'm there.
    Ms. Cuff. The National Parks Conservation Association is 
the largest non-profit advocacy and watchdog organization 
overseeing the National Park Service and its system. We have 
more than 300,000 members nationwide, approximately, 50,000 
here in the State of California.
    I want to, basically, touch on three areas today, and also 
say that it's nice to realize that we have some areas of 
agreement here, although certainly we have some disagreements 
as well, just to make it interesting.
    On the maintenance backlog, absolutely we've got one, I 
think we all agree on that. I'm happy to see the 
Administration, the Bush Administration, identifying this is a 
problem and working toward resolving it. As well, I talked to 
Congressman Pombo last month about it, he's concerned, glad to 
see our concern as well.
    The second issue, we all agree on that one, the operational 
accounts are exacerbating this maintenance backlog. J.T. 
Reynolds mentioned this, a couple other folks mentioned this 
also. I'd like to talk a little bit about the operational 
backlog.
    Several years ago, the National Parks Conservation 
Association and the National Park Service entered into a 
partnership to create business plans. This Business Plan 
Initiative Program was endorsed by Price Waterhouse Cooper and 
we've done about 50 of these business plans, which involve 
having business students come from the top universities across 
the country, going in to the Park Service, taking a look at the 
books, seeing where the dollars are going and where they are 
not going. As a result of these 50 plus business plans that we 
actually completed with the Park Service we see a shortfall in 
those operational dollars of about 32 percent. When we look at 
that, what kind of dollars we are going to need to address that 
shortfall adequately, it would be an increase of $600 million 
over the next 5 years to this operational account.
    The good news about that is that we have a bipartisan 
coalition of folks in the House and in the Senate, more than 
100 members of Congress led by folks like your colleagues, Mark 
Souder on the Committee and Doctor Simpson, and your 
counterpart in the Senate, Chairman Thomas, who are really 
pushing to encourage the appropriators to address this 
operational need, since it not only exacerbates the maintenance 
problem because we don't have the opportunity to really look at 
and have eyes and ear staff who can, in fact, get at the 
problem before it becomes too big, before the price tag becomes 
too large, and again, concerning the maintenance backlog.
    A few examples of this, Santa Monica Mountains National 
Recreation Area, we did a business plan, came up with a number 
of $6.1 million shortfall for operational accounts. What does 
that mean? It means that there is a 2-year waiting list for 
educational programs that want to come in and take advantage of 
the interpretation that the park there provides. It also means 
that there is a backlog, about 200 miles of trails that aren't 
being safely maintained if we don't have the dollars to 
maintain it.
    Joshua Tree National Park, we are looking at a $2.6 million 
operational shortfall. Again, it was a business plan initiative 
that showed us those numbers, and we see the result of that an 
inability for the park to adequately inventory, let alone 
interpret, some of the archaeological and cultural sites there. 
Again, another problem.
    In Yosemite, a park again that is near and dear to both of 
our hearts, we see a problem there as well. The park has not 
received an operational increase since 2000. What does that 
mean? It means that we have the lowest number of interpretive 
rangers in Yosemite National Park that we have had for 13 
years, a big problem obviously.
    It also means that we've had to at Yosemite cut back on the 
number of trail maintenance employees there this year. It means 
that the campfire talks by rangers are a thing of the past, not 
the way that I think we want to see our National Parks overseen 
and our visitors hearing.
    In addition to the bipartisan coalition in the House and 
the Senate, we have several hundreds of organizations, 
including the Girl Scouts of America, the International 
Mountain Biking Association, several businesses, several 
cities, several Chambers of Commerce, supporting this 
initiative. It's called, ``The Americans for National Parks 
Initiative.''
    On top of this already existing backlog we have on the 
operational side, we do see things like homeland security, 
important needs we need to address. The Director has suggested 
that the cost to parks would be $63,000 a day every time the 
security level is raised to Code Orange, exacerbating an 
already pretty clear backlog in terms of operational needs.
    So, finally, the land acquisition point of the hearing. 
This is where we might have a little bit of a difference with 
folks, although we do actually have similarities. When we look 
at the opportunities we have as a Nation to preserve some of 
the most amazing cultural and historic sites, some of the most 
amazing natural beauty, I think that we all can agree that many 
Americans, in fact, the majority of Americans, support our 
National Park System and would like to see the National Park 
System and the National Park Service stay relevant to the 
growing population in this country. What do I mean by that? I 
mean that when we have opportunities like the Ronald Reagan 
Boyhood Home we shouldn't overlook that opportunity. We 
shouldn't overlook another opportunity here, Cesar Chavez, 
there's a bill to study a new park unit that would be dedicated 
to his life's work, and, in fact, this Administration supports 
that study. They also support the study to expand Santa Monica 
Mountains National Recreation Area, which, again, legislation 
was introduced by folks like David Dreier, Buck McKeown, as 
well as Hilda Solis and Adam Schiff, to expand that area is 
supported by many local cities. You look at the 200 businesses 
that claim their livelihood is directly related to the Santa 
Monica Mountains National Recreation Area, there are economic 
values to making sure we have a healthy and relevant National 
Park System, and we don't turn our back on opportunities that 
are once in a lifetime opportunities, but we do, in fact, look 
at these in-holders who are willing sellers and you meet their 
needs.
    The CARA legislation that I'm sure you are familiar with, 
that occurred a couple of years ago, more than 300 members of 
the U.S. House voted to support it, this legislation looked at 
the problem of the Land and Water Conservation Fund not being 
fully appropriated, despite the fact that it's been authorized 
and pushed to, in fact, encourage Congress to allocate more of 
these dollars to acquire some of these once-in-a-lifetime 
opportunities, to help out some of these in-holders, to make 
sure we don't turn a blind eye again on contributing to the 
greatness that is our National Park System.
    PILT, I think that's an excellent idea. In fact, I've 
worked in the past on legislation, on amendments, run by your 
peers, like Scott McInnis, to increase that allocation. I think 
it's a problem, I think we absolutely should make sure that 
these counties get what they need if we are taking land and 
putting it on the Federal books.
    Let's not forget, however, what Gerry said, the economic 
engines that these places provide, when we look visitation 
levels in 2001, the University of Michigan, actually Michigan 
State University, came out with the realization that these 
parks contributed almost $11 billion annually to the national 
economy, to state economies, to the local economies. This is a 
big plus, and we should make sure these places are taken care 
of, so that the money can come in from tourism and we can 
ensure that the visitors have a good experience and that these 
places are well maintained. Thank you.
    [The prepared statement of Ms. Cuff follows:]

 Statement of Courtney Cuff, Pacific Regional Director, National Parks 
                        Conservation Association

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify before you today. I am Courtney Cuff, Pacific 
Regional Director of the National Parks Conservation Association. NPCA 
is America's only national private, nonprofit advocacy organization 
dedicated solely to protecting, preserving and enhancing the National 
Park System. NPCA was founded in 1919 and today has approximately 
300,000 members across the country that care deeply about the well-
being of our national parks.
    We appreciate you soliciting our input on the backlog of unmet 
needs throughout our National Park System. Our testimony focuses on the 
maintenance backlog and the need to fund annual operations of the 
National Park System, as well as the role that land acquisition plays 
in the long-term evolution of our national parks. As you know, the 
national parks also suffer from deficit in needed personnel, a subject 
on which we also focus in our testimony.

Maintenance Backlog
    Managing the National Park Service is an enormous undertaking. The 
388 units that comprise the national park system include more than 
30,000 structures and 80 million artifacts. The Park Service's 
portfolio includes 8,000 miles of roads, 1,500 bridges, 5,385 housing 
units, 1,500 water and wastewater systems, 200 radio systems, 400 dams 
and more than 200 solid waste operations. These items are all 
integrated into one of the most awe-inspiring repositories of our 
collective American heritage that exists.
    There is no question that the maintenance backlog in our national 
parks is a problem. According to the National Park Service's recent 
report, Partnering & Managing for Excellence: ``This backlog has had a 
profound effect on the visitor experience and the public's ability to 
appreciate and enjoy our national parks' natural, historic, and 
cultural wonders.''
    To better understand the backlog, one must understand its root 
cause lack of sufficient funding for park operations and maintenance. 
That fact led more than 100 of your colleagues this year to join a 
bipartisan effort led in the House by Representatives Souder (R-IN) and 
Christensen (D-VI), and in the Senate by Senators Thomas (R-WY) and 
Graham (D-FL), to urge congressional appropriators to significantly 
increase the operating budget for the national parks. With annual 
operations for the parks underfunded by 32 percent, Congress must 
address annual funding needs head-on before the backlog can ever be 
eliminated.
    It is important to note that ``backlog'' is not a static term, but 
rather the backlog ledger is constantly changing as some maintenance 
needs are met and others arise. Additionally, effectively addressing 
the backlog requires an understanding about the condition of our parks. 
Historically, the Park Service and the rest of us have been ill-
equipped to know the extent of the maintenance needs in parks. 
According to the January 2003 GAO report Major Management Challenges 
and Program Risks: Department of the Interior: ``Despite the importance 
of its maintenance program, the Park Service has yet to accurately 
assess or define the scope of its maintenance needs ... the agency does 
not have an accurate inventory of the assets that need to be 
maintained, nor accurate data on the condition of these assets.''
    Since GAO issued its report, the Park Service has been engaged in a 
multiyear effort to develop an accurate baseline of backlog needs. They 
appear to be making progress with this important first step, and we are 
encouraged by reports of their new state-of-art system to inventory, 
monitor and prioritize backlog maintenance. This will be enormously 
helpful to the parks, Congress, and the public in better understanding 
and addressing the maintenance backlog in the parks. We also understand 
that the Park Service has launched an aggressive training and 
implementation plan to inventory and assess the condition of park 
facilities. The Park Service's recently released document entitled 
Partnering and Managing for Excellence, though it paints an overly rosy 
picture of the state of our national parks, reports that assessments at 
125 parks were completed by December of 2002, and that by the end of FY 
2003 assessments will be completed at all but four of the largest 
parks. We encourage the Park Service to share each assessment as it is 
completed.
    The park maintenance backlog knows no party line. It has 
accumulated through Democratic and Republican administrations and 
congresses. We have been encouraged by the bipartisan support for 
addressing the operational funding shortfall for the parks, the root 
cause of the backlog. We also believe it to be critically important to 
have a highly transparent process for identifying the current unfunded 
backlog and how its dollar value compares with prior estimates, so we 
can collectively determine how to address the problem once and for all.
    As you know, in 1998 the General Accounting Office estimated the 
maintenance backlog to be approximately $6.1 billion based on Park 
Service data from 1993. However, $1.2 billion of this estimate was for 
the construction of new facilities, leaving approximately $4.9 billion 
for existing facility maintenance and construction. GAO indicated in 
January of this year that the Department of Interior estimated the 
backlog to be between $4.1 and $6.8 billion.
    Clearly, addressing the backlog will require a significant increase 
in the rate of investment for the programs that comprise it--facility 
maintenance and construction--as well as more realistic annual 
operational funding for the Park Service to prevent additional backlog 
from accumulating. We had high hopes at the beginning of this 
Administration, but have been disappointed by the Administration's 
failure to come close to increasing the rate of investment to the 
extent necessary to significantly reduce and ultimately eliminate the 
backlog. In fact, despite the President's pledge to eliminate the 
multibillion dollar backlog, the Park Service's deputy director, Don 
Murphy, made it clear in testimony before the Senate this summer that 
the Administration has done little to increase the rate of investment 
in our national parks, stating they have provided roughly $300 million 
in new money.
    Nonetheless, we gave the Administration credit for a number of its 
funding-related initiatives in our recent evaluation of their efforts. 
One area where the Administration deserves praise is for its proposed 
increase for the park roads and parkways program. The Administration's 
proposed transportation reauthorization bill would increase funding for 
park roads from $165 million to $300 million in Fiscal Year 2004, $310 
million in 2005 and $320 million annually thereafter. The proposal 
would also dedicate $30 million for alternative transportation, but 
makes several agencies eligible for the funds, leaving alternative 
transportation funds substantially short of the $1.6 billion the 
Department of Transportation has conservatively estimated will be 
needed over the next 20 years--an issue we encourage the Subcommittee 
to examine. Clearly, however, given the competing demands for funds 
within the transportation reauthorization bill it will be extremely 
difficult to achieve the overall funding level the Administration has 
proposed, and we hope they will make this a litmus test issue as part 
of the reauthorization effort.

Fee Demonstration Program
    The Park Service's Recreational Fee Demonstration Program has made 
important contributions to addressing a number of maintenance backlog 
needs in the parks. Although NPCA has taken no position on whether to 
expand that program to other agencies, we support efforts to make the 
program permanent for the National Park Service. As you know, it is 
enormously important that the Park Service's fees be closely monitored 
and that the program supplement, not supplant Federal dollars. Since it 
began in Fiscal Year 1997 the program has already provided $584 million 
to the Park Service, with another estimated $250 million in FY 2003 and 
2004. Public surveys have shown strong, but not unlimited, support for 
entrance and use fees. The fee program is not the solution to the 
backlog, but it is part of the solution.

Operational Funding
    The failure of the Park Service's annual operations budget to 
adequately meet the needs in the parks contributes to the backlog. 
While Congress has placed a great deal of focus and attention to the 
maintenance backlog, we must be equally, if not more, diligent in our 
efforts to address the operational shortfall in our parks. Shortfalls 
in annual operations funding create new backlog. In addition, 
discussions of the backlog frequently gravitate toward bricks-and-
mortar, but as the Subcommittee knows, there is a critical backlog of 
unmet resource protection needs throughout the park system. In fact, 
the Park Service's business plans consistently show the most 
significant funding shortfalls to be in resource protection and 
interpretation.
    NPCA estimates, based on the Park Service's business plans from 
more than 50 parks, that national parks suffer from an annual shortfall 
in operational funding of roughly 32 percent. Although Congress, with 
the help and involvement of this Subcommittee, has moderately increased 
the operating budget for the Park Service, this funding has not kept 
pace with the needs of the parks. Furthermore, NPCA shares the concern 
recently raised by the House Interior Appropriations Committee in its 
report on the Fiscal Year 2004 Interior bill--the erosion of base 
program budgets. According to the House appropriators, the capacity of 
the Park Service to serve the American people is eroding because recent 
budgets have only partially funded costs of pay increases proposed by 
the Administration and approved by Congress, and have not provided 
sufficient inflationary adjustments. The resulting necessity for the 
National Park Service operating account to absorb fixed costs during 
the last two years has been equivalent to a three percent reduction 
from 2001 program levels. The end result is an erosion, not an 
increase, in the operational resources available to the Park Service--a 
critical issue when attempting to reduce the backlog over the long 
term.
    The National Park Service has a tremendous responsibility as the 
caretaker for these national treasures, yet it does not have the tools 
it needs to do so fully. Homeland security demands have added a new 
dimension to the problem. Many parks throughout the system have shipped 
critical personnel elsewhere to augment homeland security demands at 
other sites, further straining resources that are already stretched to 
the limit. In addition, it is estimated to cost the National Park 
Service $63,000 per day every time the Department of Homeland Security 
issues an orange alert. Each park has to bear the impact of these 
costs, making an austere budget climate even more grim. Across the 
system, the impact of these costs quickly adds up. Unfortunately, while 
the Park Service has faced increased costs due to homeland security 
needs, its budget has not increased correspondingly, nor is the Park 
Service eligible for funding under the Department of Homeland Security.
    While it is important to address the current facility maintenance 
and resource protection backlog needs in the parks, if we continue to 
provide insufficient operating funding for the parks, we will only be 
replacing existing backlogs with new ones.

Personnel Deficit
    The 2001 National Park System Advisory Board report, Rethinking the 
National Parks for the 21st Century, focused important attention on the 
institutional capacity of the Park Service to accomplish its evolving 
mission. According to the report, ``The Park Service must have the 
expertise to administer parks as educational resources, protect park 
resources in landscapes that are increasingly altered by human 
activity, and fashion broad collaborative relationships with academia, 
the private sector, state, local, and other Federal agencies. It must 
continue to provide high-quality visitor experiences, and present 
America's unfolding story in a manner that connects with the nation's 
increasingly diverse population.''
    The employees of the National Park Service, from rangers to 
maintenance workers, do a remarkable job with the resources available 
to them. They are committed individuals for whom the Park Service and 
public service are a way of life. Unfortunately, there aren't enough of 
them to meet the significant, evolving challenges that our national 
parks face.
    Many of us remember how many campground programs, ranger walks, and 
other casual encounters we used to have with park rangers, 
interpreters, and other Park Service personnel when we were young. 
Unfortunately, our children have fewer opportunities, both because 
there are so many more visitors to the national parks today than there 
were 20 or 30 years ago, and because Park Service staffing has not kept 
pace with the need.
    At Death Valley National Park, for example, public education 
activities were cut by more than one-third in Fiscal Year 2002. The 
park can no longer afford a staff member dedicated to public education 
and outreach, including environmental education programs for school and 
community groups. Today there are 1837 full time equivalent (FTE) 
interpreters in the national parks and 765 FTE among the part time 
ranks. That means the Park Service has roughly 1 interpreter per 
100,000 park visitors. Although this is an admittedly crude measure of 
capacity, it illustrates the enormous challenge the Park Service faces 
in providing a quality experience to park visitors.
    The Park Service also faces other staffing challenges. Several 
regional directors will retire in the very near future. Many parks have 
shortages in critical positions. For example, the number of 
commissioned law enforcement rangers has actually decreased since 1980. 
According to the Federal Law Enforcement Training Center, there were 
1,841 commissioned permanent rangers and 616 seasonal rangers in 1980. 
But by 2001 the number of permanent commissioned rangers had dropped 
16.4 percent, to 1,539, and the number of seasonals had dropped 23.9 
percent, to 469. During the same time, visitation to the parks has 
increased by nearly 60 million people and the number of units has 
increased by 59.
    The national parks provide incredible opportunities to connect all 
Americans, but especially youth, with our collective history and to 
train the next generation of scientists. As the Advisory Board report 
points out, education that links classroom learning with field 
experiences produces better results. When students, or adults, for that 
matter, visit a Gettysburg, the battle and its historical importance 
comes to life. When they visit the Adams Historic Site, figures from 
their past become more tangible than when read about in textbooks. When 
students participate in a paleontological dig at Petrified Forest or 
hear a wolf howl at Yellowstone, these remarkable places and their 
value and meaning come to life.
    Unfortunately, many parks must turn away requests from schools for 
on-site education programs. At Gettysburg, the Park Service must hold a 
lottery for its on-site education programs, denying one out of four 
schools. Petrified Forest is unable to accommodate many requests from 
local schools. At Yellowstone, lack of staff requires the park to turn 
away nearly 60 percent of all school groups wishing to participate in a 
week-long, hands-on educational program. Joshua Tree had to turn down 
approximately 75 requests for school programs in FY 2001. And these 
parks are not alone.
    The business plans the Park Service has been producing at many 
national park units provide important information about how well 
existing resources enable park managers and staff to accomplish their 
mission. The Park Service deserves credit for continuing to use and 
improve the business planning process. The Business Plan Initiative 
helps strengthen financial management capabilities at parks and 
facilitate meaningful dialogue about park needs. Every year the Park 
Service's business plans get stronger, and the evolution of the program 
promises to continue delivering important benefits in the coming years.
    The plans examine funding and staffing trends, describe the history 
and growth of the parks, provide functional analyses and identify 
strategic priorities and ways to more efficiently use scarce financial 
resources for the benefit of park resources and visitors. They 
typically examine five program areas: (1) resource management; (2) 
visitor experience and enjoyment; (3) facility operations; (4) 
maintenance; and (5) management and administration.
    Two of the most important functional areas throughout the national 
parks are resource protection and visitor experience and enjoyment, 
both of which are generally also the most underfunded. Resource 
protection programs generally include collections, historic structures, 
and natural resources. Visitor experience programs generally include 
interpretation, education and visitor safety.
    The Fiscal Year 2001 business plan for Gettysburg National Military 
Park and Eisenhower National Historic Site shows a resource protection 
deficit of $907,000 and 10.73 FTE on a total resource protection budget 
of $2.48 million and 42.5 FTE (full time equivalent positions). The 
shortfall is particularly acute in the cultural resource management 
program, therefore impacting the preservation and protection of 
historic structures, collections, and landscapes. Visitor experience 
and enjoyment programs at the two units are $1.3 million and 13.3 FTE 
short of the need, compared with total available funding of $1.5 
million and 32.4 FTE. According to the plan, underfunding in this area 
means the parks have too few interpretive rangers to meet the demand of 
visitors and schools. Underfunding also means too few staff to orient 
visitors at the visitor center and insufficient operating funds to 
properly maintain, monitor and inspect the structural fire suppression 
system.
    According to its business plan, Bandalier National Monument in 2000 
had a shortfall of $954,504 and 20 FTE for resource management compared 
to available funding of $1.48 million and 22.1 FTE. The visitor 
experience budget was short $461,650 and 9 FTE compared with available 
funding of $646,066 and 12.8 FTE. Consequently, the park's primary 
challenge in this area is insufficient staffing for interpretation. In 
the case of Bandalier, the challenges the park faces in these two areas 
is joined by a management and administration funding shortfall of 
$632,403 and 7.7 FTE compared to a management budget of $487,270 and 
7.9 FTE.
    The chart below shows the business plan findings for a reasonably 
illustrative group of parks, to provide the Subcommittee with an idea 
for how funding and personnel shortfalls are typically distributed 
within the parks. In highlighting these parks, we in no way wish to 
signal that they require more or less attention than others. Rather, 
they all produced quality business plans that can help the Committee 
understand the resource and staffing challenges that face virtually all 
units of the national park system.

[GRAPHIC] [TIFF OMITTED] T9566.002


    Importantly, business plans are a tool that parks put to use. For 
each of the parks described above, the plans identified needs that park 
managers are working to address. Their challenge, of course, is 
implementing creative programs to maximize available resources and 
finding the additional funds to truly meet the needs of their parks. 
They have challenging jobs, which they and their staff do very well.
    When evaluating these shortfalls in personnel and resources, a 
question arises regarding whether they tend to be concentrated in 
certain regions, among different types of park unit, or tend to be 
specific to parks. The short answer is that we cannot yet be certain. 
However, our preliminary analysis suggests that most of the primary 
problems--particularly in interpretation (visitor experience) and 
resource preservation--are evenly distributed. Nor does there appear to 
be a significant difference between the national parks, historic parks, 
national monuments or other units. In general, the business plans 
developed with the Park Service have shown an overall shortfall ranging 
between 20 and 40 percent, with a small number of parks like Fort 
Stanwix National Monument, which received sufficient funds in FY 2002 
to eliminate virtually its entire shortfall and is instituting 
strategies identified in the business plan to address the remainder. An 
analysis of the business plans developed by the Park Service thus far 
indicates that funding and staffing challenges are relatively similar 
across the system. The budget functions that tend to have the most 
significant need generally include resource protection and visitor 
experience. Overall, the ubiquitous nature of these shortfalls 
illustrates the enormous challenge that continues to face the Park 
Service, and calls into serious question the Administration's 
aggressive effort to out source Park Service positions.
    Despite these challenges, modern technology presents incredible 
opportunities to bring the national parks closer to people who may be 
hundreds or even thousands of miles away--opportunities the Park 
Service works to provide through its Parks as Classrooms program. 
Volunteers provide enormous assistance to the parks through their 
dedication and devotion. In Fiscal Year 2002, 125,000 volunteers 
donated 4.5 million hours (equivalent to 2,156 FTE) to the national 
parks. Since 1990, the number of volunteers in the national parks has 
increased by roughly 5 percent per year. But even though volunteers and 
technology provide invaluable tools to help protect the parks and even 
educate park visitors, they are not the entire solution.
    Efforts to significantly increase volunteerism in the parks will 
require that sufficient staff be made available to supervise them. 
Volunteers must be trained and guided, and park staff need to determine 
how to put them to use.

Land Acquisition
    Since Congress created it in 1964, the Land and Water Conservation 
Fund (LWCF) has been the principal Federal source of funding to acquire 
new park and recreation lands. Similar to the Highway Trust Fund, the 
LWCF account was envisioned as the primary dedicated funding source for 
land conservation. Revenues generated principally from drilling on the 
outer continental shelf are supposed to be allocated to land management 
agencies for land acquisition and recreation. However, as the 
Subcommittee is aware, Congress has not fully funded the LWCF to its 
authorized $900 million annually, despite trust fund revenues that far 
exceed expenditures. Through Fiscal Year 2001, the total amount that 
could have been appropriated over the years was $24.5 billion, but only 
$11.4 billion had been appropriated--less than half the authorized 
amount.
    To address this situation, in Fiscal Year 2001 Congress reached an 
historic agreement to significantly increase funding for the LWCF 
through a new Conservation Trust Fund. This groundbreaking bipartisan 
accomplishment was intended to protect America's conservation, 
recreation, wildlife, and historic resources. As members of the 
Subcommittee are aware, this funding mechanism was created as a 
compromise during the debate surrounding the passage of the 
Conservation and Reinvestment Act (CARA). The Conservation Trust Fund 
was intended to provide a dedicated level of annual funding for LWCF 
and other conservation programs for Fiscal Years 2001-2006, for a total 
$12 billion during this period. Unfortunately, the Conservation Trust 
Fund was dramatically underfunded in Fiscal Year 2003, and appears to 
face similar shortfalls in the upcoming fiscal year.
    Expansions of and additions to the national park system are 
necessary. Clearly, expansions of the system have had an impact on the 
fiscal and personnel needs of the Park Service, but the extent to which 
they have diminished the resources available for other Park Service 
needs is unknowable. It is far from clear that the Park Service would 
have the same financial resources or support it has today if these 
expansions had not occurred.
    Until the rate of investment for the Park Service has increased to 
the point that is necessary to fulfill the Park Service's mission and 
purpose, the Park Service will have to struggle between competing 
priorities. NPCA strongly believes the operations budget should be a 
significant priority, but that we cannot turn a blind eye to once-in-a-
lifetime opportunities or newly emerging threats to the very places 
we're trying to preserve for future generations. If a park is 
endangered and the acquisition of an inholding or adjacent land will 
help protect it, that acquisition should become a priority.
    Importantly, inholdings frequently create management burdens for 
national park personnel. In some cases the acquisition of an inholding 
or adjacent land may actually reduce those burdens and enable personnel 
to focus on other needs. As the members of the Subcommittee know, 
owners of ecologically, culturally or historically sensitive land 
within and adjacent to parks periodically decide to sell or develop 
those lands. At times, such situations pose direct threats to the 
enjoyment of park visitors and the well-being of the parks, themselves. 
The Park Service must have the ability to acquire these lands when 
necessary to protect the integrity of a given park.
    For example, Petrified Forest National Park is known worldwide as 
the premier window into Triassic era paleontology, but only 6 miles of 
the 22-mile-long famous, fossil-rich Chinle escarpment are within the 
park. This is a priceless, rare resource that should be protected as 
part of the park, particularly with the primary landowners anxious to 
sell their land and with strong support from the local communities. The 
park holds a time capsule of untapped scientific knowledge that can 
help us unravel some of the thorniest environmental questions of our 
time.
    Among the select few land acquisition needs for which the 
Administration requested funds in its Fiscal Year 2004 budget request 
are sensitive lands in Big Thicket National Preserve and at Valley 
Forge National Historical Park. Land acquisition at Big Thicket is 
essential to prevent timbering on non-Federal lands at the preserve 
that would endanger the fragile ecosystem of the Big Thicket area. 
Timber companies are divesting themselves of 1.5 million acres in the 
surrounding area. Proposed development at Valley Forge National 
Historical Park threatens an area that once was occupied by the 
Continental Army during its encampment at Valley Forge in 1777-1778.
    In addition, at congressional initiative, the National Park Service 
recently acquired 1,406 acres of state lands and mineral interests 
within the boundary of Grand Teton National Park. In holdings like 
those in Grand Teton exist throughout the National Park System, and 
their acquisition by the parks when owners wish to sell them is 
generally in the strong interest of long-term park preservation.
    Los Angeles is home to the largest urban unit of the National Park 
System, the Santa Monica Mountains National Recreation Area, comprising 
more than 150,000 acres and providing critically needed open space and 
recreational opportunities to the residents of the Los Angeles area and 
to approximately 530,000 visitors annually. During the 25 years since 
Congress authorized the national recreation area, this unit has become 
a model of collaboration of many local, state, and Federal public land 
managers, as well as many private property owners.
    There are hundreds of acres of land in the Los Angeles basin, known 
as the ``Rim of the Valley Corridor,'' which many in Congress and the 
surrounding communities believe should be protected and added to the 
recreation area. To this end, bipartisan legislation has been 
introduced in the House by Representatives Schiff, Dreier, Berman and 
McKeon, among others, and by Senator Feinstein in the Senate, to study 
the suitability and feasibility of establishing the Rim of the Valley 
Corridor as a unit of the Santa Monica Mountains National Recreation 
Area. Protection of the Rim of the Valley represents a partnership that 
includes the State of California, surrounding communities and the Santa 
Monica Mountain Conservancy. As our populations grow, along with the 
need for open space, we must seize opportunities like the one presented 
by the Rim of the Valley proposal to protect them for access and 
enjoyment by the public.

Serving the New Face of America
    History is not static, but is made every day. The national park 
system must evolve to remain the ``best idea America ever had'' and to 
serve the rapidly changing population of our nation. Unfortunately, 
America's ``ethnic minorities'' still remain largely absent from our 
parks as visitors, employees, contractors, subjects of interpretation 
and political champions. In 2003, the year that confirmed Hispanics as 
the largest-growing minority in the country, not one of the 388 units 
that currently make up the national park system honors the legacy of an 
individual contemporary Latino. The same can be said for Asian-
Americans and American Indians. For its failure to embrace diversity, 
this great American idea is at risk of becoming largely irrelevant to 
half the population at a time when our national parks need the broadest 
possible constituency to ensure their preservation unimpaired for 
future generations.
    This worst-case scenario, however, need not come to pass. Surveys 
demonstrate that Asian, Latino, African-American and American Indian 
people have a great regard for the natural wonders celebrated and 
preserved in large national parks such as Yosemite and Yellowstone. The 
Park Service, for its part, is one of the largest curators of Asian, 
Latino, Indian and African-American history and culture. These existing 
links need to be reinforced and better publicized in order that these 
natural allies fully support and appreciate one another.
    Thoughtful and judicious expansion of the park system to include 
new units commemorating our diverse history and culture would provide 
an even greater opportunity to overcome the relevancy gap that exists 
between the Park Service and many people of color. The addition of 
sites commemorating the groundbreaking work of Africa-American scholar 
Carter G. Woodson and labor rights activist Cesar E. Chavez would be an 
excellent first step toward better engaging people of color as national 
park advocates. It's also the right thing to do if we are truly 
interested in having a national park system that accurately and 
adequately reflects the many faces of America.
    Some argue that no new national parks should be added until the 
backlog maintenance concerns currently plaguing the system have been 
addressed. Furthermore, some have stated the cost of these outstanding 
concerns is so great that resolving them will prevent us from funding 
any new units for the national system. The truth is that, over time, 
adequate funding would enable the Park Service to handle its backlog 
maintenance and operational needs, serve park visitors, and make 
prudent additions to the system that celebrate the cultural diversity 
and honor our common heritage as Americans. In a time where everyone, 
from NASCAR to Major League Baseball to the Elk's Club, is embracing 
diversity as a way to remain socially relevant, political effective, 
and economically viable, we cannot afford to tell 47 percent of the 
population there's no more room in the national park system for your 
heroes and leaders. Diversity is the strength of our nation and should 
also be a strength of our national park system.

Conclusion
    Thank you for focusing attention on this important issue today. 
When national parks are created, most Americans would like to assume 
they are protected. As you know, the park system faces constant 
pressure and a significant struggle for resources. NPCA is pleased to 
be of assistance to the Subcommittee as you examine how best to address 
these challenges and protect our beloved national parks for future 
generations.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Ms. Cuff.
    Since I'm the only one up here today and there are a lot of 
questions to ask, please forgive me, but, you know, I want to 
make sure that we get everything in the record here, and I'll 
just be firing out questions to you guys until I get through 
them all. It seems to be a little more flowing when you have 
more members up here, but it's my job to make sure that all 
these questions get answered and into the record.
    So, Mr. Hillier, I'm going to start with you, and I 
appreciate your discussion on PILT and the effects of the lack 
of full funding for PILT and how it affects local communities 
when land is taken out and brought into the Federal system. It 
has been a constant battle in Congress because it's 
appropriated every year to try to get the funding level, PILT 
funding level, up to where it should be.
    Well, we appreciate your efforts with 380 there, which is a 
parallel effort, and really not comparative with the full 
funding there, but would get into the issue of how particularly 
the rural counties are adversely affected by these 
acquisitions, since they are capped with population, and so 
they don't get anymore PILT even though they lose the private 
land.
    Mr. Radanovich. Exactly.
    One other thing, too, that I want to make you aware of is 
that we are trying to push a bill through called the Gateway 
Communities Act, which requires the Park Service and other 
Federal land managers to elevate communities to cooperative 
agency status for Federal land managers when they go in. The 
idea is to use the satellite communities, or communities that 
are near Federal lands, in ways that will help establish the 
goals of that particular management plan for that piece of 
Federal land.
    But, let me have you answer this question. Is it your 
opinion that before Congress authorizes the Service to acquire 
land for any park unit that the county be guaranteed its PILT 
payment in advance?
    Mr. Hillier. That would be our-either a PILT payment or as 
your bill H.R. 380 would propose, is that the Federal 
Government simply put enough money in the bank so the interest 
would pay the equivalent of the property taxes.
    One way or another, see, what we found out in looking at 
the PILT formula and balancing that against the acquisitions, 
is that PILT as it is currently structured and authorized is a 
zero-sum gain. And so, if you tinker with the formula to 
provide more payment to counties that suffer from acquisitions, 
then you take away from other counties that may not be 
suffering, but you may make them hurt then because they are 
having to forego their money to offset acquisitions in another 
county.
    That's why we came up with the approach in H.R. 380 which 
would simply provide for the payment as part of the acquisition 
funding and not as part of the PILT authorization. That's why I 
say they are parallel, on parallel tracks, and not competing 
proposals.
    But, in some way, the Federal Government needs to look at 
that, and as I put in my testimony, one of the things that's 
really important is that the Park Service, and the same applies 
for the BLM and the Fish and Wildlife Service, that those 
people come in and actually talk to the county officials.
    San Bernardino County, I can tell you nationally, has lost 
more acreage in the last 4 years, 628,000 acres, I mean that's 
bigger than a lot of counties, and never once has any official 
ever sat down with the Board of Supervisors and said, this is, 
you know, the public interest. This is why it's in your 
interest. And, frankly, because of Prop 13 savings and 
assessment the county has only lost 300,000, it was on full/
fair market value, it would have been a whole lot more than 
that.
    Mr. Radanovich. Right.
    Mr. Hillier. So, this can be, these acquisitions can be a 
major hit, and, you know, while my colleague at the other end 
of the table talks about, you know, the economic growth and the 
economic engine that some of these units add to local 
economies, in many instances this doesn't happen, this doesn't 
materialize, and in many of the units the visitation probably 
isn't going to greatly increase from what it was when it was 
under Forest Service or BLM Administration before it changed to 
the Park Service. And so, the economic engine does have to be 
looked at and whether, in fact, it's even real.
    Mr. Radanovich. Thank you, Mr. Hillier.
    Mr. Bloom, I want to ask a couple questions of you. After 
reading your testimony, I get the impression that you believe 
that the Park Service is taking steps to reduce your access, 
rather than repair and maintain the trails. Is that a correct 
statement, in your view?
    Mr. Bloom. Yes. What they did was, they went through, took 
the map, erased sections of trail on the map that they didn't 
feel that they wanted to maintain anymore, so they took like 
little sections of trails to different lakes and stuff like 
that, took them off the map, and then they said, anything that 
isn't on our map is considered cross country, even though there 
are still trails on the ground that you can see, you are not 
allowed to ride there. You can walk there, but you can't ride 
there.
    Mr. Radanovich. If the excuse is the inability to repair 
and maintain trails is given, do you believe that there's other 
motives or other things going on, or are they deliberately 
limiting access?
    Mr. Bloom. Yes, I think there's some definite personal 
opinions in the Park Service that wouldn't mind eliminating 
horses from a lot of areas.
    Mr. Radanovich. Right, even though it's multiple use 
considered.
    Mr. Bloom. And historic use, and by doing this they've 
eliminated a lot of access for us in certain areas, like Merry 
Lake and Tilden Lake, stuff like that.
    Mr. Radanovich. Matt, when would you say that the condition 
of the trails began to deteriorate, and has the deterioration 
of the trails affected your business?
    Mr. Bloom. I think just the last few years it seems like 
they haven't done as much work as previously. And, the trails 
in some areas are fine, in some areas they haven't had 
attention in 20 years. You know, it kind of depends on which 
area you are in. Of course, the areas closer to Gleno and High 
Sierra Camps, stuff like that, are pretty well maintained. When 
you get toward the northern end of the park things kind of fall 
off, I guess because there's not as many people that go there, 
which makes sense in one way.
    Mr. Radanovich. I guess it was in spring of, what was it, 
1993, that the Park Service began to limit the number of people 
that you could take into the park, you know, the trail head 
number. Has this affected your business?
    Mr. Bloom. Well, we weren't subject, on our trail head, to 
the trail head quota numbers. This thing I was talking about 
just recently happened, and, apparently, the High Sierra Hikers 
Association, and I think there's some other groups involved, 
kind of told the Park Service in Yosemite that you haven't been 
doing the proper NEPA work on issuing these outfitter guide 
permits, and talking about suing them, which they've been 
successful, as you know.
    So, what they did was, they called and just told us that 
we're going to impose these limits on visitor days and 
overnight use. They didn't give us any chance to appeal this, 
nothing, it was just--and then what they did was, they said 
we're going to base this on your historic numbers.
    Well, in the past they never kept numbers on incidental 
business permits. It wasn't very important, because it was a 
flat fee. We pay a flat fee no matter how much use we have. 
They didn't do a very good job of keeping numbers.
    So, they had like one or 2 years worth of numbers that they 
just kind of came up with, and they used those numbers for the 
limit. And, the problem with a business like mine is, some 
years we do a lot more business than other years in the park, 
depending on the amount of snowfall for that year, all kinds of 
limiting factors, you know, maybe just-it's now to the point 
like if you had a big Sierra Club trip that wanted their stuff 
packed and it was a 14-day trip, it would use a lot of my user 
days.
    Mr. Radanovich. Mr. Cushman, hang on here, I've got a slew 
of questions for you, too, assuming that the Subcommittee 
approves an acquisition for an existing--oh, I do want to 
mention something, too, this Subcommittee is the busiest 
subcommittee in the entire Congress. More legislation comes 
through this Subcommittee than in any subcommittee in the 
Congress. And, I thought of that when you had mentioned that 
the Park Service, when it comes to the acquisition of land, or 
the desire to do that, it goes far beyond the Park Service. A 
lot of my colleagues in Congress have constantly come up and 
have some idea that they've got for their area, or want a piece 
of the National Park System or Federal Land System in their 
area.
    So, I just wanted you to know that that's really where it 
comes.
    Mr. Cushman. You may remember the story about former 
Congressman Phil Burton who used marks as a tool for park 
expansion, and it was a saying about Congressman Burton that 
the only tool he had was a hammer, everything he saw began to 
look like a nail.
    Mr. Radanovich. Exactly, I mean, that's truly the way it 
is.
    Tell me, though, assuming that the Subcommittee approves an 
acquisition for an existing park unit, what assurance do you 
believe would be necessary to make it work for the community 
and for the Park Service?
    Mr. Cushman. Well, frankly, I mean, the Park Service 
doesn't work with the local community. I mean, as you know, I 
work with a number of communities around Yosemite, but I've had 
experience with communities all over the country, so they don't 
talk to them.
    And, as a result, if you go to the local community and say-
you can pretty much take a poster on the wall of all the 
National Parks, throw a dart at it, and go to the communities 
around it and ask if they feel the Park Service is a good 
neighbor. Most of them will tell you no.
    Now, the answer, in terms of land acquisition and existing 
parcels, one of the problems that they have is, back in the 
Reagan Administration they established a policy called the Land 
Protection Planning Policy, and that policy required--and it's 
actually a partial solution for some of the money problems we 
have in other areas, because what they were trying to get the 
Park Service to do, and other agencies, was to prioritize their 
acquisitions, look at which were the most needed acquisitions, 
and then examine what interest would be necessary to acquiring 
that parcel that would meet the needs of Congress.
    So, the goal was, of course, to get the Agency to, in a 
programmatic way, to examine whether they wanted fee 
acquisition, which in some cases is appropriate, whether they 
wanted to use certain kinds of easements, whether they wanted 
to use alternatives or cooperative agreements. Well, the Agency 
has pretty much let the Land Protection Planning process go. 
They don't work with the local communities, they were supposed 
to update this plan every couple of years, they were supposed 
to involve the local communities in that process, they are 
supposed to hold public hearings, virtually none of them do it.
    If they did do it, then they'd get the response from the 
community in an automatic way on how they feel about that 
acquisition or how they feel generally, but the Agency has 
stayed away from that kind of public contact with the local 
community.
    So, I would say, you know, reinstituting the Land 
Protection Planning process policy, which to my knowledge, by 
the way, is still in place, they are just ignoring it.
    Mr. Radanovich. That was my second question: Do you have 
any specific cases where the Park Service is not using the Land 
Protection Planning Process?
    Mr. Cushman. Well, I could go through and look at my 
records, but----
    Mr. Radanovich. Do me a favor, if you would, give us some 
examples at a later date.
    Mr. Cushman. Oh, yes, but I commend GAO, who just did a GAO 
report on South Florida, looking at the acquisition process 
involving a multitude of agencies, but in the Park Service 
element there's no Land Protection Planning Process there. 
There's no Land Protection Planning Process for the Big Cypress 
or the Everglades, which are part of the restoration process 
there.
    Frankly, I mean, I think it's a case of most parks do not 
have a Land Acquisition Plan. Somebody once said, if you don't 
know where you are going, you are probably going to get there. 
And, if they had a Land Acquisition Plan, and they prioritized 
the use, and Congress kind of enforced this and put pressure on 
them to do it, you'd free up a huge amount of money to be able 
to help toward maintenance and other things.
    Mr. Radanovich. Right.
    Chuck, do you think that the National Park Service, if they 
were to acquire land for a park unit, that it would be 
prohibited from acquiring any land with an inholding?
    Mr. Cushman. Well, you know, that's hard to say. I mean, 
Mike talked about hardship cases, there certainly are hardship 
cases. Ms. Cuff referred to willing sellers, well, any image 
that most people are willing sellers they are not willing 
sellers.
    I lost my train of thought in terms of your question. Would 
you repeat it again?
    Mr. Radanovich. It's if the Park Service acquires land, 
should you require that there not be any inholding in that 
purchase?
    Mr. Cushman. Well, you know, that would be the simplest way 
to solve the problem, and, in fact, it would be unwritten 
policy with respect to the parks created prior to 1960. In 
general, Congress should try to draw lines around these areas, 
even if the Park Service doesn't have land acquisition 
authority, they use all kinds of other methods to try to 
control that area.
    I guess I'd have to say it would have to be case by case.
    Mr. Radanovich. Right.
    Mr. Cushman. But, in general, try to exclude the 
inholdings, or make it very clear to the Agency--I mean, 
Staheken is an example and Lake Shalan, where the intent of 
Congress is clearly to preserve a community, clearly to resume 
the homestead rural culture there, and the Park Service has 
systematically dismembered that community, stopped any building 
on any developed lots, and strangled the community, cut off all 
kinds of kind of unique--they don't have electricity there, 
they don't have telephones there, the only access is by boat or 
by float plane. So, a very important culture was preserved, 
until the Park Service got it, and they destroyed it over time, 
because of this unrestrained need to buy land.
    Mr. Radanovich. Tell me, in addition to the willing seller 
standard, which sounds like it would be something that you 
would automatically approve of, you know, for any type of NPS 
land acquisition, what other requirements might you recommend 
to the land acquisition itself? I mean, getting a willing 
seller is a big step.
    Mr. Cushman. Well, if you required willing sellers that's 
good. I'm trying to think off the top of my head, that's the 
most important thing, but clearly writing in the language of 
the bill instructions on what is to be--going back to Lake 
Shalan, it was amazing that when North Cascades complex was 
made a part of the National Park System it was divided up into 
three sections, because there were three predominant uses. 
There was the North Cascades National Park, then there was the 
Lake Ross National Recreation Area, which encumbered the power 
light system for the City of Seattle, and then you had the Lake 
Shalan National Recreation Area--no place is there a more 
dramatic difference in one complex between the upper end, real 
strict management of the Park Service--National Parks--and the 
lower management, more people-friendly National Recreation 
Areas, and yet the Agency just ignored that.
    So, somehow, we have to be stronger in instructing them and 
hold them accountable and willing to put their, you know, step 
on their foot a little bit if they are not willing to 
cooperate.
    Mr. Radanovich. Right. Thank you.
    Mr. Lewis, Mike, thanks for being here, was it today's L.A. 
Times that showed hikers in San Francisco that were using the 
Pacific Coast Trail and, if that's the case, does part of that 
go through the Santa Monica National Recreation Area, do you 
know?
    Mr. Lewis. There are a number of trails that traverse the 
Recreation Area. The most, I think, significant of which is, 
they refer to it as the Backbone Trail, because it runs along 
the ridge from end to end. And, that has been the subject of a 
number of land acquisition efforts. And, it's also one of the 
reasons why we have a problem with hardship cases, because 
they've acquired parcels, there are segments of trails, there 
were segments that couldn't be built because they didn't have 
the real estate. And then, there's numerous trails that go 
north/south, I guess.
    Mr. Radanovich. None of that particular trail goes through 
any private property?
    Mr. Lewis. There are trail easements on a lot of private 
parcels. In fact, it's almost a condition nowadays in the Santa 
Monica Mountains, and a lot of southern California communities, 
if you have acreage that you plan to develop you've got to 
dedicate some to open space and, in many cases, you have to 
construct trails across it. We actually have a state law in 
California that relieves property owners of liability if they 
have a trail on their property.
    Mr. Radanovich. What would be some specific points that 
would be included within the Recreation Act Bill of Rights, can 
you give me an idea of some things you'd like to have in that?
    Mr. Lewis. Well, I think one of the problems that we have 
is that, when the parcel is identified for acquisition, and 
I'll give you an example, the Omison Ranch, which had 
entitlements approved for development, they were going to 
dedicate thousands of acres of the ranch for open space. They 
were going to provide for endowment to maintain the red-legged 
frog, they were going to restore the spine flower habitat, as a 
part of the development project.
    The more strident advocates wanted all of the land. Omison 
finally gave up the effort and agreed to sell the land in the 
last few days, and now the folks involved in the acquisition 
are saying, well, you know, the state doesn't have any money to 
maintain this frog, and we don't know how we are going to 
maintain the spine flower, and we just may have to prohibit 
anybody from being able to access this property in order to 
preserve it.
    And, I think there's $150 million worth of public funds 
going into this acquisition, and it's money that's being taken 
from acquisitions throughout the southern California community, 
and now not only do these communities not have a park in their 
own neighborhood, the one big park that their funds were used 
to acquire they may well be denied access to as a consequence.
    So, part of, I think, what we are advocating is, we want to 
know up front what we are really going to be allowed to do, 
because a lot of things get dangled in front of us, and then 
once the land is acquired there's all kinds of reasons why the 
public isn't allowed to access, or trails can't be constructed, 
or, you know, parking facilities aren't going to be provided.
    And that, I think, everybody should know up front, 
including the people who live adjacent to these land 
acquisitions who may have their own reasons as to why they 
don't want to have people tromping on the property next door.
    Mr. Radanovich. Right.
    Mr. Lewis, based on your knowledge and involvement with the 
Santa Monica Mountains NRA, is there truly a need for the Park 
Service to acquire more land for that unit, do you think?
    Mr. Lewis. I guess the question would be for what purpose. 
The Santa Monica Mountains National Recreation Area is, indeed, 
unique. I mean, it has campgrounds, fishing facilities, 
equestrian stables, movie filming facilities. There are day 
camps, summer camps, conference facilities. We have the 27 
miles of the Malibu coastline. We have hotels, restaurants, 
just about every form of recreation activity you can imagine. 
All of it is privately owned, and all of it predates the NRA. 
So, the bulk of the purchases that the Park Service has 
pursued, and given that they only own 11 percent of the area 
within the 150,000 acres, has been for preservation, 
conservation, and in order to get to be able to link trail 
access.
    I think what we'd like to see the bigger partnership 
between the Park Service and these private providers, and that 
they would support the expansion of recreation activities on 
the private land, because they've not done that if a private 
developer tries to, or a private landowner wants to develop a 
recreation facility he's likely to encounter his first line of 
resistance is going to be the Park Service not wanting his 
property to be developed, and they'll have a whole host of 
reasons that could be viewshed, watershed, you know, or some 
other sort of conservation issue as to why that shouldn't 
happen.
    Mr. Radanovich. Now, what would be your solution to the 
inholder situation in the Santa Mountains NRA?
    Mr. Lewis. Well, I think in terms of the small hardship 
cases, I think a special effort should be made to clean those 
up. There are cases where large tracks of land have either been 
acquired or donated as part of development projects, and within 
those are small parcels that might be five, ten, 20 or 40 
acres. Those folks really have no alternative, because--and 
I'll give you an example, one of the gentleman here today has 
some parcels inside the Yuma Canyon area, he's completely 
surrounded by Park Service ownership. At one time, while that 
was all privately owned, all the private owners agreed that 
they would maintain the road so they would all have access. As 
the Park Service bought up those lands, they stopped 
maintaining the roads, so he could maintain the road himself if 
the Park Service would let him, which they won't. If he tries 
to drive down the road to get to his property he usually 
encounters a Ranger asking him what he's doing there, because 
they just presume it's all theirs.
    And, he has spent years trying to get them to acquire it. 
They've agreed on a price, but every time the Park Service gets 
some money there's always some new area that is a little more 
attractive to them than trying to take care of his problem. 
He's trapped. No one is going to buy his land, they know that 
it's scheduled for acquisition.
    Mr. Radanovich. Doomed.
    Mr. Lewis. He's doomed. He can't develop it. You know, he's 
stuck, because if he tries to pursue a development, you know, 
assuming he's got all the utilities and other things that he 
needs, or he can get them, the Park Service is not going to let 
that happen. So, he's in limbo and really no where to go.
    And, there's a lot of those in the Santa Monica Mountains. 
Over the years, we've been able to bring enough pressure to 
bear to get those cleaned up, but I think, as I said, I think 
if they are not going to present a specific list of parcels to 
be acquired and the amounts of money that are needed to do 
that, then Congress should at least direct them to focus the 
monies on the parcels that are inside their existing holdings 
and not let them go and start acquiring in a new area and make 
strategic acquisitions that are going to just exacerbate the 
problem in another park that they haven't been acquiring land 
for previously.
    Mr. Radanovich. You had mentioned in your statements and 
your testimony too that there's a lot of private recreation in 
the private property that's inholders around the National 
Recreation Area, being that's the case is it hard for the Park 
Service, if they have or would be making the case for 
additional recreational use, kind of makes it a moot point 
because that recreation availability is there?
    Mr. Lewis. I don't think they know it exists. We have a new 
general management plan that, until we brought the issue to 
them, never even mentioned the private recreation facilities in 
the Santa Monica Mountains.
    And, when we pushed them on the fact that all these 
facilities exist and they should at least acknowledge them, 
they finally said to us, well, can you give us some information 
about them?
    So, we went out and did our own survey. We put together a 
list of 130 that we were able to pull from camp directories and 
things of that sort. We sent them a questionnaire, and from the 
response that we got we did some extrapolation and we believe 
that those private facilities service twice as many people as 
the Park Service facilities do. They generate millions of 
dollars in revenue on those facilities, and I think, in fact, 
most of the people-obviously, most of the people coming to the 
area are going to the private facilities and not using the Park 
Service facilities.
    Mr. Radanovich. Thanks, Mr. Lewis.
    Ms. Cuff, you are next.
    Ms. Cuff. All right.
    Mr. Radanovich. Can you tell me which might be--if you were 
to give a priority one over the other that MPCA believes in, 
would it be making an end to backlog and deferred maintenance, 
or acquiring more land in the system?
    Ms. Cuff. Well, we believe in all of the above.
    Mr. Radanovich. Thanks for that great response.
    Ms. Cuff. It depends, there is an important case to be made 
for this, and I appreciate the representation of my colleagues 
here, but there are millions of Americans who use our National 
Park System, and those numbers have grown over the past 20 
years to almost double. We need to account for that kind of 
notation. We need to recognize that we have opportunities to 
continue to make the system relevant to the diverse population, 
the increasingly diverse and growing population, that wants to 
use these lands.
    So, I feel especially because when you look at the revenue 
source that can acquire inholding and additional park units, 
coming from a land of water conservation, the fact that that 
has not been fully funded with the exception of two times in 
its history since 1964, we've got the money there to acquire 
this land, and considering the great demands the American 
people have for the National Park System I think it would be a 
disservice if we did not meet those requests.
    Do we need to go out and wholesale buy all this land? No, 
let's be reasonable. Let's look at some priorities, and let's 
try to acquire where it makes sense to acquire.
    Mr. Radanovich. Tell me, though, this seems to be, if I 
went to the, and this is the oldest story in the world, but it 
seems like I've said it so many times, I've gone to, there was 
a guy from New York that was proposing to add some land into 
the Park System for some lands in the West, and I pointed out 
to him that, you know, the country's, I think the largest park 
is the Adirondack State Park, a land area, almost a land area, 
but at any rate New York has this great State Park System that 
they have developed. And, I said, well, you know, why don't you 
let this place in the West, whether it be California or 
Colorado, wherever it was, you know--no, I guess my question to 
him was, ``Well, why don't we put this Adirondack State 
National Park into the Federal Park System.''
    And, he says, ``Well, we like to think that we can manage 
things better at the state level, our land, at least in our 
state.''
    Why isn't it the case for some of these large requests? I 
mean, you've only got so many Yosemites out there; there's got 
to be some end to your justification, or Yellowstone for that 
matter, national treasures. Don't you think there's a limit to 
what you can bring in, based on what a national park is?
    Ms. Cuff. There are criteria that we need to meet, in terms 
of priorities of land acquisition. We shouldn't just buy up any 
land, if it doesn't meet those criteria set by the U.S. 
Congress. In fact, something that's very heartening to me is 
the shared responsibility we are seeing taking place in places 
like Redwood National Park, between the state agencies and the 
Federal Agency working together. The same is true in the Santa 
Monica Mountains. I think that there are more of those 
partnerships taking place, and we can continue to work toward 
that end.
    Mr. Lewis. Can I elaborate on that a little bit?
    Mr. Radanovich. Yes.
    Mr. Lewis. I think, I mean one thought that you might want 
to consider is, why do you have to keep the land? Why don't you 
turn it back to some other local public agency?
    In the case of the Santa Monica Mountains, we have the 
State, we have the County, we have the City and we have the 
Conservancy, all of whom own land here. All you are adding is 
one more agency that everybody has to deal with.
    You know, if you were a private property owner in the 
mountains, and you have a development proposal, you are going 
to build a house on your property, and you've got a planning 
commission hearing coming up, in all likelihood you are going 
to have, you know, the State Park Director, or somebody from 
State Parks, somebody from the Conservancy, and somebody from 
the National Park System show up, and they are going to be in 
their uniforms, and they are going to have the Smoky The Bear 
hats on, and we've affectionately referred to them as the three 
bears when you see them show up.
    And, given the circumstances here, there's no reason, most 
of the land that the Federal Government owns here, they didn't 
buy, it was bought by one of the other agencies and resold to 
them, because your, frankly, land purchasing procedures are 
just too cumbersome, you can't move well enough for the 
Southern California real estate market. So, the Park Service 
says to the Conservancy, we want that. Here's the money for it. 
The Conservancy buys it, sells it to them, and as part of the 
deal the money that the Conservancy got for the land is to be 
held for the next Federal priority acquisition.
    And then they'll say, OK, now take that money and buy that. 
So, they buy that, then they resell it to them and they take 
that money. So, the money loses a little of the Federal patina 
when it trades hands, so that the Conservancy has much more 
latitude in terms of how they use it or how they shuffle it 
around, as the case may be.
    But, in our case, I don't know, necessarily, what is added 
by having the National Park Service here, just to take land 
that someone else has bought for them, when we already have 
plenty of public land ownership.
    Mr. Radanovich. We had one member of Congress come up to me 
and wanted to put, it was a study that actually got passed, to 
study the San Gabriel Watershed here in the valley, and part of 
it included the Los Angeles River, a study bringing it into the 
National Park System. This is the cemented part of the Los 
Angeles River. I mean, how far do we have to go to say no, that 
this is, you know, something that might not be good for the 
Park System?
    Mr. Lewis. They are also trying to get--
    Mr. Radanovich. I mean, this is the stuff we get a lot.
    Mr. Lewis. --they also want to restore the salmon to that 
river.
    Mr. Radanovich. Yes.
    Mr. Cushman. One place you are wasting, you may be wasting 
money is on these planning for new parks, because, you know, 
you ask the Park Service to see if it qualifies as a park, and, 
boy, I wonder how many fingers it would take to count on the 
time the Park Service comes back and says this wouldn't 
qualify. I mean, all they want is more land, more power, more 
money, and, you know, it just builds the bureaucracy.
    Now, there are periods where they've backed away from that, 
but, in general, you know, if it adds more it's great, if 
there's more acquisition it's great, and that, of course, adds 
to the maintenance backlog.
    Mr. Radanovich. Right.
    Ms. Cuff. Mr. Chairman, I'm sorry, I just wanted to add a 
little comment.
    Mr. Radanovich. Go ahead then, do your comments, and then 
I've got more questions for you.
    Ms. Cuff. OK, great.
    I think that studies are not about saying when we are 
talking about trying to involve more people and make sure that 
we hear the concerns from as many people as we can, because 
that's an important thing that we all agree upon, I do feel 
that the Park Service is working toward that end. They are not 
perfect, trust me, sometimes I have to slap them around too, 
but I do think that we are overlooking some pieces that 
actually Mr. Hillier after mentioned, where the Park Service is 
doing right by their neighbors. In fact, I have a letter here 
from a number of different people around Joshua Tree, the 
President of the 29th Holmes Chamber of Commerce, the City 
Manager of 29th Holmes, real estate agents, so that, you know, 
represent Copper Mountain College, the Joshua Tree Chamber of 
Commerce, a number of people, Lake-Fish and Game Club, who are 
saying, we are appreciating this park, there are good things 
happening. We want to make sure it's taken well care of.
    And, just to another point that was raised and my name 
invoked, I just want to say that I don't think we can throw 
much doubt on the economic additions these parks give to the 
local communities. In Yosemite you are looking at about $320 
million that come in because of Yosemite National Park. I was 
even looking in my hotel room today, Best Western directory 
lists Yosemite and Sequoia Kings in a hotel that's as far as 90 
miles away from those places.
    So, these parks are not only part of our history as a 
Nation, our natural and cultural history, but they do provide 
economic engines for local communities.
    Just a couple quick things and then I'll be quiet. Gerry 
mentioned the PILT not wanting to meet, you know, people from 
the Park Service haven't gone to meet with local Board of 
Supervisor folks. We actually have folks on the ground in the 
desert working to do just that, to build relationships with the 
Board of Supervisors, to look at and hopefully address things 
like this PILT problem. And, I would love to take you up on the 
offer to meet with some of the Board of Supervisor members to 
try to figure this problem out. I think it's a real one, and 
I'd like for us to be able to work together to figure these 
kinds of problems out.
    Mr. Radanovich. Ms. Cuff, you mentioned in your testimony 
that the NPCA believes that the root cause of the current state 
of affairs of the Park System is a lack of sufficient funding 
for operations and maintenance. Knowing how much of a priority 
this Administration has placed on eliminating the backlog, and 
how much money it has asked Congress for, does the NPCA believe 
that the Park Service is now on the right path?
    Ms. Cuff. I believe that the operational backlog is one of 
the root causes of the maintenance backlog. I do think that 
it's an exciting time with the President of the United States 
talking about the maintenance backlog needs, with chairmen like 
yourself looking at, and with folks coming to the table and 
saying, wait, we need to figure this problem out.
    We haven't figured it out yet, and I think, frankly, with 
the GAO looking as recently as earlier this spring at a backlog 
number and to maintenance of close to $7 billion, it's not 
going to be easy to eliminate that ever, frankly. We need to 
work toward that end, but that's a big problem, especially when 
you've got the operational problems that are exacerbating the 
maintenance backlog.
    Mr. Radanovich. It's no secret that the National Parks 
Conservation Association or NPCA believes that the current 
Administration is not doing enough for the Park System, and you 
can correct me if that's wrong, but do you believe the recent 
report issued by the Secretary this July is bold and 
unprecedented in terms of eliminating maintenance backlog?
    Ms. Cuff. Again, I feel that-you are asking two questions 
there, so let me address the first one.
    Mr. Radanovich. Go right ahead.
    Ms. Cuff. President Bush and First Lady Bush visit the 
National Parks, I think they care about these places, and as I 
mentioned, frankly, one of the reasons that I came to work for 
National Parks Conservation Association is because I was 
excited about the President when he was a candidate and then 
when he became President talking about these problems, because 
it gave me hope that we can work together in a bipartisan way 
to solve them.
    I wish that the President's current administration was 
doing more and doing a few things differently, but they are 
moving in the right direction in some areas, and that can't go 
unnoticed. In other areas, I feel they are overturning 
important laws and passing certain regulations that will harm 
some of our Nation's greatest treasures.
    Your second question was? I want to make sure I answered it 
all, the report that came out, I believe, whether or not I 
think that's the panacea.
    Mr. Radanovich. Yes.
    Ms. Cuff. Again, it's important to get a handle on where 
these maintenance backlog problems are, but the rubber meets 
the road when we realize that the appropriators are going to be 
able to work with the rest of Congress to meet those 
maintenance backlog needs, and if the National Park Service is 
going to be prudent in its expenditure of those funds, and if 
people like myself and my organization are going to try to work 
against waste, fraud and abuse, so I think that that's an 
important document, but it's again not the only answer to the 
question.
    Mr. Radanovich. In your testimony, you mentioned the impact 
of land acquisitions into the Park Service is unknown. Would 
you not agree that if the Service has to use millions of 
dollars in a specific year to acquire land that the funding for 
the maintenance backlog would take a hit and that the system as 
a whole would suffer? Would you agree with that statement?
    Ms. Cuff. Well, what I said just in terms of clarifying my 
remarks, the Land and Water Conservation Fund, as you know, is 
the vehicle that helps us acquire land as a Nation. In 
addition, we've seen a lot of public/private partnerships 
happening, where millions of dollars have been raised from 
private monies to help acquire some of these lands.
    I do feel that it would be ignorant of me to say, oh, well, 
if we acquire the lands we are not going to have new costs 
associated with that. However, I think that, I know that, when 
I look at a Worthman's poll that we did a year ago, two-thirds 
of the American public are saying, we need to invest in these 
lands, we need to invest in once-in-a-lifetime opportunities. 
Again, not looking at wholesale buying up of land, not an 
imminent domain situation, willing sellers and opportunities 
that really can't be missed if we are going to preserve the 
fabric of this Nation.
    Mr. Radanovich. I've enjoyed your comment about working 
with local communities when there's issues like this coming up. 
I think it's also important that the Federal Government work 
with local communities as well, and that's why I drew up this 
Gateways Community Act, which would require the Federal Land 
Managers to work with local communities before any action is 
taken. And, the NPCA has so far not agreed to get on this 
legislation, and I think, after hearing the testimony of these 
people today and some of their concerns I think it would be 
wise, you'd develop better plans, I think that you'd end up 
reducing, in an indirect way, backlog maintenance and other 
things if the expertise and ability of nearby communities were 
used to develop these plans.
    I think for that reason NPCA want to think about getting on 
that bill.
    Ms. Cuff. Thank you, Chairman, I will advise my 
counterparts in Washington, D.C. I know that there are aspects 
of the bill that my Government Affairs Department in D.C. 
actually likes, and that they have, in fact, endorsed 
Congressman Christensen's counterpart legislation. And, I know 
that there is an interest in trying to bridge those gaps.
    So, thank you for the invitation and I will certainly pass 
it on.
    Mr. Radanovich. You are welcome.
    Anybody want to make a closing statement or something, and 
we have to be brief because we are winding this thing down, 
but, Mr. Hillier, Mr. Lewis, Mr. Cushman?
    Mr. Cushman. Just one comment on the visitor issue, that so 
often it is touted as an economic boom in these areas.
    Mr. Radanovich. No, it's not, in Yosemite it is, but----
    Mr. Cushman. Yes, but Voyagers National Park, they promised 
$1.4 million visitor use, they got something like $250,000. In 
Redwood, it was $2 million, and it was $256,000 in the first 
few years. And, Canyon Land, they promised a million and they 
got $100,000. All of that meant that the local community gave 
up economic enterprises, grazing, other things, and they didn't 
get back the economic stimulus that they were hoping for.
    Mr. Radanovich. You are exactly right. I mean, the idea 
that you can acquire Federal lands and take away the multiple 
use and the income that's generated off the multiple use of 
that asset and replace it by tourism is just not true.
    It is for the Crown Jewels, but not for National Recreation 
Areas, especially when the desire is to not have any multiple 
use on those lands once they become public anyway.
    Mr. Cushman. And, just adding to Gerry's comments on PILT, 
PILT is a freeze in place law, so even if you get to the area 
where what the property taxes at the acquisition 20 years later 
those aren't even remotely coming close to what would have been 
generated from that property as it grew naturally in the 
economic ecosystem. Thus, the expenses all around have 
escalated, but the money to take care of it.
    So, PILT is even farther behind than we see on paper.
    Mr. Radanovich. Yes.
    Well, ladies and gentlemen, thank you so much for being 
here today. I appreciate your testimony. It's of value.
    Does anybody else have any closing statement or anything? 
Are you all OK now?
    Mr. Lewis. May I make one comment?
    Mr. Radanovich. Yes.
    Mr. Lewis. I would suggest that maybe as one way to free up 
some dollars for other areas would be to consider an exit 
strategy in Santa Monica Mountains. After all, we do have a 
number of land management agencies, public agencies that 
control land and, frankly, you know, we've got a lot of 
recreation that developed just fine before the National Park 
Service arrived, and we'll be doing just fine long after they 
are gone, if that's the case.
    Mr. Radanovich. So, get rid of Santa Monica Recreation Area 
and meet all the needs for backlog maintenance.
    Mr. Lewis. No, it's a wonderful city park.
    Mr. Radanovich. All right, ladies and gentlemen, thank you 
again for being here. This is very valuable testimony you've 
given us today, and with that the hearing is adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]


</pre></body></html>
